<html>
<title> - IMPROVING MANAGEMENT OF THE AVIATION SCREENING WORKFORCE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
        IMPROVING MANAGEMENT OF THE AVIATION SCREENING WORKFORCE

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
                        SECURITY, INFRASTRUCTURE
                     PROTECTION, AND CYBERSECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 28, 2005

                               __________

                           Serial No. 109-37

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
28-498                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012006


                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
Peter T. King, New York              Jane Harman, California
John Linder, Georgia                 Peter A. DeFazio, Oregon
Mark E. Souder, Indiana              Nita M. Lowey, New York
Tom Davis, Virginia                  Eleanor Holmes Norton, District of 
Daniel E. Lungren, California        Columbia
Jim Gibbons, Nevada                  Zoe Lofgren, California
Rob Simmons, Connecticut             Sheila Jackson-Lee, Texas
Mike Rogers, Alabama                 Bill Pascrell, Jr., New Jersey
Stevan Pearce, New Mexico            Donna M. Christensen, U.S. Virgin 
Katherine Harris, Florida            Islands
Bobby Jindal, Louisiana              Bob Etheridge, North Carolina
Dave G. Reichert, Washington         James R. Langevin, Rhode Island
Michael McCaul, Texas                Kendrick B. Meek, Florida
Charlie Dent, Pennsylvania

                                 ______

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity

                Daniel E. Lungren, California, Chairman

Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            James R. Langevin, Rhode Island
Bobby Jindal, Louisiana              Bennie G. Thompson, Mississippi 
Christopher Cox, California (Ex      (Ex Officio)
Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Economic Security, Infrastructure Protection, and 
  Cybersecurity:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Economic Security, Infrastructure Protection, and Cybersecurity    47
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security, Prepared Statement...................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     4
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    55
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    60
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    58
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................    52
The Honorable Stevan Pearce, a Representative in Congress From 
  the State of New Mexico........................................    49

                               Witnesses
                                Panel I

Mr. James Bennett, President and Chief Executive Officer, 
  Metropolitan Washington Airports Authority:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Mark Brewer, President and CEO, Rhode Island Airport 
  Corporation:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Mr. William DeCota, Director of Aviation, New York-New Jersey 
  Port Authority:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Mr. John DeMell, President, FirstLine Transportation Security, 
  Inc.:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29
Mr. Robert Poole, Director of Transportation Studies, and 
  Founder, Reason Foundation:
  Oral Statement.................................................    34
  Prepared Statement.............................................    36
Mr. John Martin, Director, San Francisco International Airport:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13

                                Panel II

Mr. Thomas Blank, Acting Deputy Administrator, Transportation 
  Security Administration, Department of Homeland Security:
  Oral Statement.................................................    66
  Prepared Statement.............................................    67

                             For the Record

Question for Mr. John N. DeMell from the Honorable Daniel Lungren    87


                      IMPROVING MANAGEMENT OF THE
                      AVIATION SCREENING WORKFORCE

                              ----------                              


                        Thursday, July 28, 2005

                          House of Representatives,
                    Committee on Homeland Security,
                 Subcommittee on Economic Security,
              Infrastructure Protection, and Cybersecurity,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2128, Rayburn House Office Building, Hon. Daniel Lungren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Pearce, Sanchez, 
Thompson, Dicks, DeFazio, Jackson-Lee, Pascrell, and Langevin.
    Mr. Lungren. [Presiding.] The Committee on Homeland 
Security, Subcommittee on Economic Security, Infrastructure 
Protection and Cybersecurity will come to order.
    The subcommittee today is meeting to hear testimony on 
improving the management of the aviation screening work force.
    I would like to welcome everybody to today's hearing.
    When Congress directed TSA to take over responsibility for 
airline security screening, we sought a system that would 
produce better trained screeners, thus increasing security.
    Directly following the terrorist attacks of September 11th, 
Transportation Secretary Norm Mineta set forth a goal of 
processing passengers within 10 minutes or less. Yet by all 
accounts TSA hasn't met this goal.
    Instead, according to the DHS inspector general, we have 
multibillion dollar enterprise that inefficiently targets and 
burdens children and the elderly.
    I might add, on the positive side, that TSA has recently 
changed its standard operating procedures, effective July 14th, 
to allow TSA supervisors at screening checkpoints the decision-
making capability and authority to waive secondary screenings 
on passengers that are clearly under the age of 12.
    I appreciate that particular change. I am glad it is 
coming.
    And while I applaud TSA for this step forward, it is 
indicative of the overall problem that we ever had such a 
contrary position or policy in the first place and that it took 
so long and so many bad stories and hearings to force such 
common-sense action. There is, obviously, always room for more 
improvement.
    TSA screening operations have been plagued by high 
attrition rates, high injury rates, high absenteeism, screener 
shortages and other problems that are indicative of a 
problematic structure.
    Furthermore, the role of security director at airports is 
extremely important. This individual must be able to handle 
crowds in such a way that manages the length of security lines. 
He or she needs to understand when flights are departing and 
when travelers are arriving in order to open an efficient 
number of screening lanes at different points throughout the 
day.
    And so it begs the question: Can the federal government 
itself effectively run screening operations at 440 airports of 
different sizes across the country from its location in 
Washington, D.C.?
    Some believe the answer is no.
    As I see it, TSA problems may be rooted in a rigid 
centralized control which gives less weight than it should to 
airport diversity and shows a lack of initiative.
    TSA often has little firsthand knowledge of local airport 
conditions, job markets and other market anomalies. The result, 
I fear, leaves airports short of screeners and passengers stuck 
in long lines.
    TSA would be better served shifting workforce decision-
making to the local level and providing flexibility and 
incentives to improve operations while focusing on setting 
overall training and performance standards at the national 
level.
    I might just add that I have been informed that there is a 
dispute between the House and the Senate conferees in the 
appropriations realm as to what the proper level of screeners 
should be; even a suggestion on the Senate side that there 
ought to be a cut in the overall number of screeners.
    It just goes to show, as far as I am concerned, that we 
ought to be a little more original in our thinking and a little 
more flexible in how we try and solve this problem.
    I am also concerned that TSA has unfairly disadvantaged 
airports that wish to use federal contractors to provide 
screening by not putting an end to the liability question.
    The simple act of opting out of the use of federal 
employees to provide screening functions should not leave 
airports open to massive new financial and legal liabilities, 
particularly since the contract screeners will be working under 
direct TSA supervision and in compliance with all TSA security 
directives and regulations.
    I would urge the TSA to work with the department to 
expedite the decision-making process and addressing this and 
other questions that seem to be hampering the development of 
viable options to the current TSA model.
    I would like to thank our witnesses for taking the time to 
join us today. I look forward to hearing each of your 
perspectives on this issue.

          Prepared Opening Statement of Hon. Daniel E. Lungren

    [Call hearing to order]
    I would like to welcome everyone to today's hearing of the 
Committee on Homeland Security Subcommittee on Economic Security, 
Infrastructure Protection, and Cybersecurity. This morning, we will 
focus on the Transportation Security Administration's (TSA) management 
of the Federal airport screening workforce.
    When Congress directed TSA to take over responsibility for airline 
security screening, we sought a system that would produce better 
trained screeners, thus increasing security.
    Directly following the terrorist attacks of September 11th, 
Transportation Secretary Norman Mineta set forth a goal of processing 
passengers within 10 minutes or less. TSA has yet to meet this goal.
    Instead, according to the DHS Inspector General, we have a multi-
billion dollar enterprise that inefficiently targets and burdens 
children and the elderly.
    I might add that TSA recently changed its Standard Operating 
Procedures, effective July 14, to allow supervisors at screening 
checkpoints the decision-making capability and authority to waive 
secondary screenings on passengers that are clearly under the age of 
12.
    While I applaud TSA for this step forward, it is indicative of the 
overall problem with TSA management that we ever had a contrary policy 
in the first place, and that it took so long and so many bad stories 
and hearings to force this common-sense action. It shows in my view 
that there is much room for improvement.
    TSA screening operations are plagued by high attrition rates, high 
injury rates, high absenteeism, screener shortages, and other endemic 
problems that are indicative of a problematic structure.
    Furthermore, the role of ``Security Director'' at airports is 
extremely important. This individual must be able to handle crowds in a 
way that manages the length of security lines. He or she needs to 
understand when flights are departing and when travelers are arriving 
in order to open an efficient number of screening lanes at different 
points throughout the day.
    It begs the question: ``Can the Federal government effectively run 
screening operations at 440 airports across the country from it's 
location in Washington, DC''
    The answer appears to be a resounding ``No.'' As I see it, TSA 
problems are rooted in it's rigid, centralized control, which gives 
little weight to airport diversity and shows a general lack of 
initiative or thought.
    TSA often has little firsthand knowledge of local airport 
conditions, job markets and other market anomalies. The result leaves 
airports short of screeners and passengers stuck in long lines.
    TSA would be better served shifting workforce decision-making to 
the local level and providing flexibility and incentives to improve 
operations, while focusing on setting overall training and performance 
standards at the national level.
    I am also concerned that TSA has unfairly disadvantaged airports 
that wish to use Federal contractors to provide screening by not 
putting an end to the liability question. The simple act of ``opting-
out'' of the use of Federal employees to provide screening functions 
should not leave airports open to massive new financial and legal 
liabilities, particularly since the contract screeners will be working 
under direct TSA supervision and in compliance with all TSA security 
directives and regulations.
    I urge the TSA to work with the Department to expedite the 
decision-making process in addressing this and other questions that 
seem to be hampering the development of viable options to the so-far 
flawed TSA model.
    I would like to thank our witnesses for taking the time to join us 
today. I look forward to hearing each of your perspectives on this 
issue.

           Prepared Opening Statement of Hon. Christopher Cox

    Thank you, Mr. Chairman. Let me first welcome and thank the 
witnesses for appearing before the Committee today.
    I believe that it is vitally important that we take a hard look at 
the Transportation Security Administration's (TSA's) management of its 
airport screener workforce. It has been almost three years since TSA 
assumed the screening functions from the airlines, and we have garnered 
enough experience by now to begin to seriously examine whether 
adjustments are necessary.
    First, I'd like to commend the men and women of TSA for their 
dedication to this country. Through their hard work, TSA has met the 
most difficult challenges set out by Congress, and our Nation is more 
secure for their effort.
    However, from our experiences in other areas, we know that running 
a massive operating agency is not one of the strong suits of the 
Federal government. Despite this fact, Congress forced the 
Administration to create a 45,000-strong airline passenger and baggage 
screening bureaucracy almost overnight.
    We gave TSA enormous responsibilities and challenging mandates. We 
told the agency to completely take over what had previously been a 
private function carried out by hundreds of individual airports and 
airlines, to hire tens of thousands of Federal screeners in short 
order, to develop and implement stringent new security requirements and 
policies, to quickly deploy major new technologies, to conduct new and 
complex R&D efforts--and, essentially, to oversee itself.
    So TSA is the policy maker and the policy implementer; the 
regulator, and the regulated; the operator and the manager; the 
technology developer and the technology deployer; the implementer and 
the overseer. It is, without doubt, a most unusual structure, whether 
we look at the public or private sector, and one that is fraught with 
inherent conflicts of interest.
    It thus should come as no surprise that, by almost every measure, 
TSA has been struggling--with its notorious operational problems, and 
numerous examples of administrative waste and abuse. Predictably, TSA 
also lags behind the private sector in the area of labor force 
management. Attrition rates, absenteeism, overtime, and on-the-job 
injuries rates all are significantly higher than those of comparable 
private sector-run screening operations.
    For example, if you compare two similar airports in two similar job 
markets--Boston and San Francisco--we see that TSA's screener attrition 
rate at Logan Airport in Boston is much higher than that of the Federal 
contractor in San Francisco, which operates one of the five contract 
screener pilot programs mandated by Congress. If TSA were to cut its 
attrition rate in half, it could save the American taxpayers $40 
million annually in recruitment and assessment costs alone. Overall, 
TSA wastes hundreds of millions of dollars annually in lost 
productivity and unnecessary expenditures.
    I, like many in Congress, want the Federal government to be more 
business-like. However, in reality, it is not a business and never will 
be. It lacks the tools and the agility to properly manage its costs and 
its workforce. But most of all, it lacks competitive pressure to 
innovate and be responsive to its customers.
    And I am concerned that TSA views the contractor-run screener 
pilots as competitors that must be crushed, rather than encouraged. I 
know some call these pilots a return to ``privatization,'' but that is 
sheer nonsense. Federal agencies hire contractors every day to do 
critical tasks, under their supervision and control. We even hire 
contractors to do our intelligence analysis. Surely, contractors can 
run a screening checkpoint without sacrificing security--indeed, in 
covert testing by independent parties, the contract screeners performed 
as well or better than TSA screeners, and in some cases at 
significantly lower cost to the taxpayers.
    We must be open to exploring alternatives to the TSA employee model 
of airport screening, while, of course, maintaining the Federal 
government's role with respect to setting security standards and 
oversight.
    We have assembled two expert panels today, and I look forward to 
hearing from the witnesses how we can work together to make TSA more 
efficient and more effective.

    Mr. Lungren. And now I would recognize the Ranking Member 
of the full committee, Mr. Thompson, for whatever comments he 
may make.
    Mr. Thompson. Thank you very much, Mr. Chairman and members 
of the committee. I look forward to the testimony of both our 
panels today on what I consider a very important subject.
    This September, it will be 4 years since terrorists turned 
passenger planes into lethal weapons, causing mass casualties 
and enormous destruction.
    In the weeks and months after the attack, it appeared as 
though commercial aviation might be a victim of these heinous 
attacks. In 2001 alone, the U.S. commercial aviation industry 
reported losses of over $6 billion. Between 2001 and 2003, it 
incurred losses of $21 billion and laid off about 150,000 
employees.
    A fear of another 9/11 attack caused the public to avoid 
air travel. Americans lacked confidence that low-paid, poorly 
trained screeners that turned over at a rate of 100 percent to 
400 percent annually, would be able to protect them from 
another attack.
    The creation of a federalized screener force was one of the 
key actions Congress took to signal the Americans that it was 
safe to fly again.
    Unfortunately, TSA in many instances has not fulfilled its 
part of the bargain.
    TSA has struggled to identify the right number of screeners 
necessary to get passengers through the checkpoints efficiently 
and effectively. Just this week, they shifted screeners away 
from airports that consistently have long wait lines.
    Since 2003, TSA has said that 45,000 is the right number of 
screeners. That is hard to believe, especially with the 
prospect of record-breaking travel this summer in excess of 200 
million people.
    Screeners deserve a lot of credit. They have, at times, a 
tedious job. But they must stay sharp and vigilant, especially 
given the limitations of the technology currently found at 
checkpoints.
    The department's inspector general has concluded that 
performance of aviation screeners stands little chance of 
significantly improving without better technology. Yet this 
administration has chosen not to fund any new letters of intent 
for fiscal year 2006 to help airports acquire better screening 
equipment.
    We know that there is better technology out there. But this 
administration, too, does not fund it.
    This places an even greater strain on screeners by forcing 
them to continue to work with inefficient equipment and engage 
in labor-intensive searches. All of us have had to go through 
the labor-intensive searches.
    This just defies logic.
    TSA may not be managing its affairs as well as it could, 
but I cannot see how putting the responsibility of screening 
passengers and baggage in the hands of private firms will make 
us any more secure.
    There is nothing in any screener's audit that has been 
issued to date to convince me that private screeners are any 
better at identifying weapons and would-be attackers than 
federal screeners.
    Congress has done a great deal to restore confidence and 
enhance security in our aviation sector. Wide-scale 
privatization of screening would be counterproductive.
    Thank you, Mr. Chairman. And I look forward to the 
testimony of the witnesses.
    Mr. Lungren. I thank the gentleman for his comments. Other 
members of the committee are reminded that opening statements 
may be submitted for the record.
    We are pleased to have two distinguished panels of 
witnesses before us today on this important topic. Let me just 
remind the witnesses, because of the number of witnesses we 
have, that we would ask you to keep your oral testimony to no 
more than 5 minutes. Your entire written statements will appear 
in the record.
    We will also allow each panel to testify before questioning 
any of the witnesses.
    The chair calls for the first panel and recognizes Mr. 
James Bennett, the President and Chief Executive Officer of the 
Metropolitan Washington Airports Authority, to testify on 
behalf of the Airports Council, International North America and 
the American Association of Airport Executives.

                   STATEMENT OF JAMES BENNETT

    Mr. Bennett. Thank you, Mr. Chairman.
    I appreciate the opportunity to discuss the views of the 
airport community on improving management of the aviation 
screening workforce on behalf of the Airports Council 
International, North America, the American Association of 
Airport Executives, and our joint legislative organization, the 
Airport Legislative Alliance.
    In addition to being an active member of those groups, I 
serve as the president and CEO of the Metropolitan Washington 
Airports Authority.
    Today's hearing is certainly timely, given the situation 
that is emerging in airports across the country as TSA 
struggles to make its current labor-intensive passenger and 
baggage screening model work in the face of growing passenger 
levels.
    The strains are clearly beginning to show, with wait times 
at screening checkpoints becoming unacceptable in a number of 
airports, and with problems with checked baggage screeners 
beginning to take a toll.
    As frequent travelers, the members of this subcommittee 
know all too well the current situation.
    The problems with passenger and baggage screening today are 
not only a huge inconvenience for the traveling public, they 
represent a serious security threat as well.
    Long lines in airport terminals at screening checkpoints do 
not equal better aviation security. To the contrary, those long 
lines, as past experiences prove, are inviting targets for 
terrorists.
    The answer in the long term, as the subcommittee helped 
highlight in recent hearings, is the deployment of better 
technology. The in-line installation of explosive detection 
equipment in airports, for example, can dramatically improve 
the efficiency and effectiveness of checked baggage screening 
while saving the federal government literally billions of 
dollars in personnel costs.
    With the dramatic proof of these benefits so clearly 
evident at the few airports that actually have in-line systems, 
it is unbelievable to me that the federal government hasn't 
invested more in upgrading additional airports to inline 
systems.
    With the promise of better technology for passenger and 
checked baggage screening some years away, steps must be taken 
in the short term to improve the existing situation. Along 
those lines, Congress must act to provide sufficient resources 
for screening operations, and TSA must ensure that those 
resources are deployed in the right way.
    Additionally, TSA must do much more to move away from its 
highly centralized, Washington-based approach to managing 
screening operations and give additional authority locally to 
federal security directors and to airport operators to address 
unique local problems.
    The current rigid approach to recruiting, assessing, 
hiring, training and retaining screeners has led to large 
vacancy and attrition rates at a number of airports across the 
country.
    In contrast, there are a few locations where FSDs and local 
airport authorities have been given limited authority to be 
creative and innovative in their approach to screening. Most 
notably, at the five pilot program airports with private 
screening companies known in our industry as the ``PPS'', the 
results have been encouraging, as my colleague from San 
Francisco will highlight.
    Many of us in the airport community had hoped that the 
screening partnership program, also known as opt-out, would 
become a way of building on a positive result of the PP-5 
program and provide an opportunity for encouraging better local 
approaches to security screening.
    Unfortunately, that has not been the case; largely because 
of the structure of the current program. As you know, only one 
airport beyond the original five pilot program airports has 
expressed an interest in opting out.
    The airport operator has virtually no say in how screening 
operations will be designed at the airport under the current 
opt-out program. They are not allowed to decide the specific 
qualified screening company that will operate at the airport, 
and they have no role in deciding how screening will ultimately 
function at their facility.
    The only thing that an airport gets out of participating in 
the current opt-out program is an enormous potential liability 
exposure. This is something that Congress must work to address.
    In addition to addressing the liability question, Congress 
must consider changes to the law that would give airport 
operators the authority to select and enter into contracts 
directly with qualified screening companies to screen 
passengers and property at the airport; give airport operators 
the ability to perform passenger and baggage screening directly 
if they so choose; and require TSA to establish a notification 
process under which airports submit a detailed proposal for 
passenger and baggage screening.
    This is not a comprehensive list, but should offer the 
subcommittee an idea of some of the hurdles that now exist to 
the program.
    In closing, I note my sincere hope that the subcommittee 
will soon address the issues raised today and evaluate the 
federal government's approach to aviation security as part of a 
comprehensive review of the Aviation and Transportation 
Security Act that was passed in the immediate aftermath of 9/
11.
    We are now 4 years beyond the tragic events of that day, 
and it is clearly time to evaluate the areas where we have it 
right and the areas that need improvement.
    With another 300 million passengers expected to be added to 
the already overburdened system, we simply cannot afford to 
continue placing Band-Aids on a fundamentally flawed system.
    Thank you for the opportunity to be here today. I look 
forward to your questions.
    [The statement of Mr. Bennett follows:]

                 Prepared Statement of James E. Bennett

    Mr. Chairman, I want to thank you and the subcommittee for holding 
this important hearing to explore improvements in managing the nation's 
aviation screening workforce. Although the Aviation and Transportation 
Security Act (P.L. 107-71) gave the federal government direct 
regulatory and operational control over all aspects of passenger and 
baggage screening at commercial service airports, the airport community 
has worked aggressively since the events of 9/11 to partner with the 
Transportation Security Administration to meet its mission and mandates 
in this area. Given the public nature of airports and the inherent 
responsibility we have to ensure the safety and security of our 
facilities, airport operators are eager to play an even more active 
role in developing solutions in this area and in addressing other 
aviation security-related challenges.
    I have been involved in pursuing improvements to airport security 
for a number of years in leadership positions at airports in Phoenix 
and in Washington and as an active member of both the American 
Association of Airport Executives--which represents the men and women 
who manage primary, commercial service, reliever, and general aviation 
airports--and Airports Council International--North America--which 
represents local, regional and state governing bodies that own and 
operate commercial airports in the United States, and Canada. I 
currently serve as Chairman of the ACI-NA Government Affairs Committee 
and would note for the record that I am here in that role today to 
testify on behalf of AAAE, ACI-NA, and our Airport Legislative 
Alliance, a joint legislative advocacy organization.
    Before discussing some of the specific areas in which improvements 
can be made with regard to passenger and baggage screening, I want to 
emphasize the fact that enhancing the security and safety of airport 
facilities and the aviation system remains the number one priority for 
airport operators. While a number of my comments focus on improving the 
efficiency of the screening process, the fact is that improved security 
goes hand-in-hand with that goal. Long lines and poor customer service 
does not equal better aviation security. To the contrary, long lines in 
airport terminals and at security screening checkpoints are inviting 
targets for terrorists as past experiences prove. Improving the 
screening process through better management and the deployment of 
better technology will help reduce that immediate threat, help target 
scarce resources on areas of greatest risk, provide passengers with 
better service, and free resources for other homeland security needs.
    Growing Traffic Levels Make New Approaches to Screening a Necessity
    As every member of this subcommittee knows as a frequent traveler, 
passengers are returning to our nation's skies in record numbers. The 
increased volume combined with problems inherent in today's labor 
intensive screening system have pushed the Transportation Security 
Administration's passenger and baggage screening capabilities to the 
limit as evidenced by ever increasing wait times at passenger screening 
checkpoints and by growing problems with checked baggage screening. 
Without dramatic changes to the aviation security model in use today, 
we will not be able to meet the demands created by the nearly 300 
million passengers the Federal Aviation Administration projects will be 
added to today's already crowded aviation system within the next 
decade.
    A recent report in USA Today entitled ``Checkpoint or Choke Point'' 
highlighted a number of airports where passengers can wait in lines up 
to two hours or more before they clear security. Maximum wait times of 
45 minutes or more are not uncommon. Problems and delays with baggage 
screening are also beginning to take a toll. As reported in the July 4, 
2005 Washington Post, a number of flights have been routinely delayed 
this summer at Dulles Airport as planes sit at the gate waiting for 
passenger baggage to work its way through the screening process.
    While additional screening resources may ease the situation at some 
airports, we all understand that the realities of the federal budget 
situation and the myriad of competing homeland security priorities make 
it highly unlikely that a mountain of new funds will somehow 
miraculously appear to deploy additional screeners. And, while a number 
of airports have a genuine need for more bodies, it is clear that the 
answer moving forward lies in fundamentally changing our approach to 
security screening rather than in putting band-aids on the existing, 
personnel-dependent screening system.
    As the subcommittee heard in recent hearings, the deployment of 
better technology holds great promise in allowing TSA to meet that goal 
in the long-term. The in-line installation of explosive detection 
equipment in the nation's airports, for example, will quickly pay huge 
dividends in terms of enhanced security and dramatically reduced TSA 
personnel requirements. Additionally, the Registered Traveler program 
and others aimed at focusing scarce resources on those individuals that 
represent the highest risk will undoubtedly enhance security and system 
efficiency, as will improved technology at screening checkpoints.
    Unfortunately, we are at least a few years away from making the 
promises of those technologies a reality. To deal with pressing 
challenges in the short-term, Congress must provide adequate resources 
and TSA must do a better job of deploying those resources while working 
to become more responsive and innovative in its approach to screening. 
As the limited experience of the five private screening pilot program 
airports (PP5) and a few other TSA-managed locations has helped prove, 
devising local solutions to local problems can pay enormous dividends 
and should be encouraged to the greatest extent possible.
    TSA should build on some of the successes of the PP5 program and 
work to make the Screening Partnership Program (SPP)--also known as the 
opt-out program--more viable and attractive to airports. Additionally, 
TSA must recognize that local flexibility and airport involvement are 
critical to devising workable solutions regardless of whether federal 
or private screeners are deployed at a given airport facility. At the 
airport level, this means TSA should delegate more day-to-day 
operational authority to Federal Security Directors.
    Local Flexibility Critical in Addressing Short-Term Problems With 
Screening
    The subject of today's hearing suggests that better management of 
the existing screener workforce could help alleviate some of the 
problems we are currently experiencing with passenger and baggage 
screening. Airports agree. TSA continues to struggle with recruiting, 
assessing, hiring, training, and retaining screeners--a fact that is 
evidenced by large vacancy rates at a number of airports across the 
country. In Oakland, for example, it is my understanding that the 
vacancy rate stands at 25 percent, and there are other airports that 
report similar problems with filling screener staff positions. The 
problems are exacerbated by high attrition rates for screeners. In 
Miami, for example, I understand that an average of 40 screeners leave 
each month.
    In many instances, the strict rigidity of TSA in its hiring and 
staffing practices seems to be the source of current problems. A number 
of my colleagues tell me that many issues could be resolved through 
more flexible staffing schedules or through the use of additional part-
time workers, for example. Unfortunately, there does not yet appear to 
be sufficient flexibility locally to tackle problems that are 
inherently local in nature. TSA has made some progress in this area, 
but we still have a long way to go. This is an area where the personnel 
practices of the private companies in the SPP offer some innovative 
examples and solutions for TSA.
    As is the case in so many areas relating to security, one size does 
not fit all. The challenges in Washington, D.C. with regard to hiring, 
placing, and maintaining screeners are not the same as they are in San 
Francisco or Providence or New York. Each of these locations has unique 
local labor markets, unique balances between local and connecting 
traffic, unique seasonal traffic patterns, unique airport 
configurations, and so on down the list. To be effective, 
responsiveness to local airport operational characteristics must be the 
guiding criterion for the hiring and management of workforces.
    While my colleague from San Francisco can ably discuss the 
specifics of his situation there with the PP5 program, it appears that 
the airport and the qualified private screening company have managed to 
devise a flexible and creative approach that has enabled them to side-
step some of the issues that other airports are currently experiencing 
with screening under TSA management. Screener vacancy rates in San 
Francisco are incredibly low when compared to their counterparts on the 
other side of the Bay in Oakland, who continue to struggle with local 
workforce issues, as I mentioned earlier. While further refinements are 
needed, the experience at the PP5 airports has proven that flexibility 
and active local involvement are key components to successful screening 
operations. It is no surprise, then, that the original PP5 airports are 
inclined to remain part of the Screening Partnership Program.
    Federal Government Should Make Screening Partnership Program a 
Viable Option for Airports
    Unfortunately, the role of local airport operators in the existing 
Screening Partnership Program--the extension of the PP5 program--is 
minimal. The only real authority that an airport operator now has is to 
raise its hand at the beginning of the process and express an interest 
in having TSA use a private contractor. After that, airports have 
virtually no say in how screening operations will be designed; they are 
not allowed to decide the specific qualified screening company that 
will operate at their airport; and they have no role in deciding how 
screening will ultimately function at their facility. The only thing 
that an airport potentially gets out of participating in the current 
program is enormous potential liability exposure. Given that construct, 
it is not surprising that only a couple of smaller airports have 
expressed an interest in opting out.
    In order to make the opt-out program truly viable, the law must be 
changed to give airports additional control over the design and 
implementation of plans for passenger and baggage screening at their 
individual facilities. Airports, for example, must be free, should they 
so choose, to select and contract directly with the qualified companies 
with which they intend to work and establish the scope of work rather 
than wait for TSA to make such decisions. TSA should remain responsible 
for establishing standards and providing regulatory oversight, but 
airports should be given the freedom to decide how best to get the job 
done. We believe that TSA is best suited for regulatory functions while 
airport operators and their private sector partners are best suited for 
operational and customer service functions.
    Additionally, serious consideration must be given to providing 
airports with liability protection. San Francisco has done an enormous 
amount of work in coming up with a series of specific recommendations 
in this area, and I believe Congress must address these issues if there 
is to be meaningful participation in the program.
    Many of these items obviously require statutory changes. As 
Congress moves forward with its discussion in this area, I would 
encourage you to consider the following:
        <bullet> Airport operators must be given the authority to 
        select and enter into contracts directly with qualified 
        screening companies to screen passengers and property at the 
        airport. Under current law, airports simply apply to 
        participate in the program and then rely on TSA to select 
        qualified vendors. TSA--as opposed to airports--enters into 
        contracts with those vendors to perform passenger and baggage 
        screening. Airports must be given a more prominent role in the 
        process and more control in managing the contracts and 
        performance.
        <bullet> Airport operators must be given the ability to perform 
        passenger and baggage screening directly if they so choose. The 
        law must make clear that airport operators should be able to 
        qualify as a qualified screening company.
        <bullet> TSA should establish a notification process under 
        which airports submit a detailed proposal for passenger and 
        baggage screening for approval. Under current law, interested 
        airports apply to participate and the process moves on from 
        there without their involvement. Interested airports should be 
        encouraged to work closely with qualified private sector 
        partners and then submit that plan to TSA for approval.
        <bullet> Participating airports must be given protection from 
        liability exposure.
    This is not intended to be a comprehensive and final list, but it 
is included for purposes of moving the discussion forward and to give 
the subcommittee an idea of some of the specific concerns that a number 
of airport operators have raised as impediments to participation. If 
some of these items were to be resolved, I believe that many airports 
would at minimum give the program a much closer look.
    In addition to encouraging additional local involvement and new and 
creative approaches to screening, the opt-out program potentially could 
be utilized to move forward with the in-line installation of EDS 
equipment at participating airports. By providing interested airport 
operators with additional control and a steady and reliable funding 
stream--either by guaranteeing a base level of continued funding to 
support screening operations or by alternative means such as a formula 
that captures key airport characteristics such as passengers and amount 
of baggage screened--some airports might be willing to move forward on 
their own with in-line systems. The concept here is to capture and 
utilize the eventual personnel savings from in-line systems to pay for 
the initial capital investment and debt that a participating airport 
would use to fund that system. We have had numerous conversations with 
the subcommittee staff about this concept and believe that it has a 
great deal of potential--if the hurdles mentioned above can be cleared.
    Mr. Chairman, I should note that even if Congress is able to make 
all of the changes I have highlighted here, there are a number of 
airports across the country that will not be interested in 
participating in the SPP. For that reason, it is imperative that TSA be 
encouraged to be innovative, creative, flexible, and inclusive in its 
approach to screening regardless of the type of employee who ultimately 
screens the passenger or their baggage. The keys as I have repeatedly 
mentioned are local flexibility, airport involvement, and tough 
security standards that all organizational models are compelled to 
meet.
    Beyond additional local flexibility, we believe that it is critical 
that the agency establish measures and performance standards for 
passenger processing. While the 10-minute goal established initially by 
DOT Secretary Mineta may not be exactly the right standard, it is clear 
that a reasonable goal must be established and that the TSA and the 
full array of passenger and cargo processing personnel employed by the 
federal government must be held accountable for meeting such goals. We 
have goals holding the airlines accountable for meeting their 
schedules; it is only appropriate and right that we do the same with 
the federal workforce. Only by setting a standard can TSA and airport 
managers know that the workforce size and deployment model for their 
airport is the appropriate one.
    While security is obviously the priority imperative, maintaining 
the efficient, effective functioning of the aviation system is also 
critical. We cannot realistically expect the traveling public to 
forever wait for improvements in a system that is often viewed as 
unnecessarily and increasingly intrusive and inefficient. The more 
hassle involved, the less inclined people will be to board aircraft. We 
have already seen convincing evidence that passengers who have an 
option have already forsaken air travel: short distance trips have seen 
the greatest decline in patronage. Too often, the effect has been to 
remove a spoke community from its connecting hub. Those truths have 
had, and will continue to have, a profound effect on the airline 
industry and its financial well-being.
    In the Long-Term, Technology is Crucial in Meeting Passenger and 
Baggage Screening Challenges
    The subcommittee is well aware of the promise that technology holds 
in improving passenger and baggage screening thanks to its recent 
hearings on the subject. The airport community offered a very thorough 
assessment of the case for moving forward with in-line EDS installation 
and the deployment of programs like Secure Flight and Registered 
Traveler that can help focus the process on dangerous people before 
they ever have access to the aviation system.
    Mr. Chairman, while more effectively managing the screener 
workforce is critical in improving screening efficiency and 
effectiveness, technology is the most critical component to creating a 
workable screening system in the long-term. As the 9/11 Commission 
recognized in its report and as experience has proven at the handful of 
airports that have in-line EDS systems, investing in technology can 
greatly enhance security while dramatically reducing costs.
    The findings of the Government Accountability Office are 
compelling. At the nine airports where TSA has committed resources to 
moving EDS equipment in-line, these systems will save the federal 
government $1.3 billion over seven years through a dramatic reduction 
in personnel requirements. In-line EDS systems at those nine airports 
are estimated to reduce by 78 percent the number of TSA baggage 
screeners and supervisors required to screen checked baggage from 6,645 
to 1,477. TSA will recover its initial investment in in-line systems at 
those airports in just over a year.
    When you take the time to consider these facts, it is hard to 
comprehend why it is that the federal government hasn't acted more 
quickly to install in-line systems at airports across the country. Yet, 
here we sit with in-line systems operational in only a handful of 
airports, with screening workforces unnecessarily deployed to labor-
intensive solutions, and with the Administration and Congress seemingly 
content with moving forward at only a few additional airports. At the 
Washington airports and at dozens of additional airports across the 
country where in-line systems make sense, there is currently no 
financing plan in place to move forward with in-line EDS projects. That 
is a startling and disappointing fact.
    Some have suggested that airports should simply bite the bullet and 
move forward on their own without federal assistance, but those 
suggestions ignore reality. Setting aside the fact that passenger and 
baggage screening is the direct responsibility of the federal 
government, this approach isn't feasible at most airports, including 
those for which I am responsible. Plowing new resources into helping 
the federal government meet its obligations in this area would take 
money away from critical safety and capacity-enhancing projects and put 
an additional burden on our partners in the airline industry for an 
item that we were promised as necessary for homeland security.
    Mr. Chairman, the federal government needs to invest now in making 
the promises of in-line EDS systems and other technologies a reality. 
While the up-front costs are certainly significant, these investments 
pay for themselves in short-order while dramatically improving the 
efficiency and effectiveness of the nation's passenger and baggage 
screening system.

Conclusion
    After nearly four years of living with the current screening 
apparatus in our facilities, it is clear that placing a band-aid on 
today's broken system is not the answer moving forward. In the short-
term, TSA must encourage additional local input and flexibility and 
work to make the opt-out program a viable opportunity for airport 
operators. In the long-term, technology holds the key to addressing 
screening issues and many other aviation-security related challenges. 
The sooner the federal government can make the necessary investments, 
the sooner we can all begin to reap the benefits of enhanced security 
and efficiency.
    Thank you for allowing me to testify today.

    Mr. Lungren. Thank you, Mr. Bennett, for your testimony.
    The chair now recognizes Mr. John Martin, Director of the 
San Francisco International Airport, to testify.

                    STATEMENT OF JOHN MARTIN

    Mr. Martin. Thank you, Chairman Lungren, the full 
committee, Ranking Member Thompson, Ranking Member Sanchez, 
members of the subcommittee.
    I am John Martin, director of San Francisco International 
Airport, or SFO, which is the largest airport participating in 
the Screening Partnership Program, which I will refer to as the 
SPP.
    I would particularly like to thank those committee members 
who have visited SFO and viewed our technology-based security 
systems firsthand. And I welcome other members and staff to do 
the same.
    SFO has along history of initiating state-of-the-art 
security systems, such as biometric access control, 
professional standards for airport screening personnel beyond 
those required by the federal government, and developing the 
first automated in-line baggage screening system.
    The private screening workforce approach has worked well at 
SFO, and we have submitted an application to continue in the 
SPP. However, we can only continue upon satisfaction of four 
items essential to the potential liability exposure issues at 
our airport. These liability concerns are shared across the 
industry, and I believe that if the liability issues are fully 
addressed, more airports will consider opting out.
    Of the four conditions we presented to the TSA in the 
letter of April 28th, two of the conditions will require 
amendments to the Safety Act, and two can be addressed by 
administrative changes on the part of TSA.
    SFO's conditional SPP application would require the 
following four conditions be fully met for implementation of 
SPP at SFO.
    One, any contracted screening provider chosen by the TSA be 
both designated as a qualified anti-terrorism technology 
organization and certified as an approved product.
    Two, liability limitations equivalent to those extended to 
designated qualified anti-terrorism technology organizations 
under the Safety Act must be extended to SFO itself so that we 
are shielded from liability exposure in excess of airports that 
choose not to opt out.
    And these first two items are probably best addressed 
through an amendment to the Safety Act.
    Number three, TSA's contract with a screening provider must 
require that SFO be indemnified by the contractor.
    And, four, TSA's contract with a screening provider must 
require the company list SFO as an additional insured.
    With respect to these two items, we believe that these are 
relatively simple for the TSA to address. And the SFO contracts 
involving the FAA at our airport provide a useful model.
    We require our contractors to both indemnify the FAA and 
list the FAA as an additional insured. The contractors accept 
this practice and there is no additional cost to the airport or 
the contractors.
    San Francisco asked to be a participant in the pilot 
screening program prior to the federalization of the nation's 
airport screeners under the TSA, because we had serious 
concerns about a new agency's ability to support the difficult 
and challenging process of recruiting, hiring and managing one 
of the largest and most important workforces at our airport.
    Significant staff shortfalls over a long period of time 
with other federal agencies at SFO had been commonplace in the 
past.
    Our private screening company, Covenant Aviation Security, 
is doing an excellent job and they have successfully deployed 
creative hiring and training programs, minimizing employee 
turnover and lost time.
    There is a high level of customer satisfaction, and San 
Francisco enjoys the shortest average passenger screening time 
of any of the major airports in the United States.
    The combination of collaborative efforts, best practices 
and the application of technology has resulted in a net 
reduction of 400 screeners at SFO since the TSA took over in 
2002. And we have seen about a 20 percent increase in 
passengers during that time period.
    An example of a team SFO initiative that has resulted in 
higher efficiency is the development of a screener control 
center that, in conjunction with our closed-circuit television 
program, is able to monitor the operation of SFO's 39 passenger 
checkpoint lines and the queuing of passengers to checkpoints 
from a central location.
    This allows the Covenant staff to redeploy staff based on 
the length of the lines, the various checkpoints and overall, 
minimize staffing.
    In conclusion, SFO can only continue in the airport 
screening privatization program if its core liability concerns 
are fully resolved both by congressional action to amend the 
Safety Act and through TSA cooperation in addressing the 
administrative issues.
    Thank you.
    [The statement of Mr. Martin follows:]

                  Prepared Statement of John L. Martin

    Chairman Lungren, Ranking Member Sanchez and members of the 
Homeland Security Subcommittee on Economic Security, Infrastructure 
Protection and Cybersecurity, thank you for inviting me to participate 
in today's hearing on Improving Management of the Aviation Screening 
Workforce. I am John L. Martin, the Director of the San Francisco 
International Airport, which is the largest airport participating in 
the Screening Partnership Program (SPP).
    First of all, I wish to commend this Committee, the staff and 
others in the Congress for the attention you are giving to the security 
problems facing our aviation system. We would particularly like to 
thank those committee members and staff who have visited San Francisco 
and viewed our systems first hand and welcome any other members and 
staff to do the same. Your support has allowed us to deploy one of the 
most comprehensive and robust screening programs and multi-layered 
security systems of any airport in the world.
    I would like to preface my comments concerning the topic of today's 
hearing by expressing my belief that the security of our nation's 
airports is critical to the commercial well being of the United States. 
San Francisco International Airport has a long history of initiating 
state of the art security systems such as biometric access control; 
professional standards for airport screening personnel beyond those 
required by the federal government and developing the first automated 
inline baggage screening system.
    Our mission as a major airport is to ensure that we have enhanced 
the capabilities of our organization by working in partnership with all 
relevant agencies including the Transportation Security Administration 
(TSA) and the Department of Homeland Security to make travel safe and 
secure.
    Our present relationship with the TSA and, in particular, the local 
Federal Security Director's (FSD) staff has resulted in operations that 
have not only provided state of the art security, but has also 
delivered excellent customer service while substantially reducing the 
number of screeners.
    The private screener workforce approach has worked well at SFO and 
while we have submitted an application to continue in the SPP, we can 
only continue conditioned upon satisfaction of four items that are 
essential to the potential liability exposure issues of SFO as a result 
of our participation. These liability concerns are shared across the 
airport industry. I believe that if the liability issues are addressed, 
more airports may seriously consider opting-out.
    Of the four conditions that we presented to the TSA in a letter on 
April 28, 2005, two of the conditions will require amendments to the 
Support Anti-Terrorism by Fostering Effective Technologies (SAFETY) Act 
and two can be addressed by administrative changes on the part of the 
Transportation Security Administration (TSA). I can't stress enough the 
need for these changes in order for Airports across the county to 
continue to use private screeners effectively. Without these changes I 
believe that it is very doubtful that many airports will consider 
opting out of the federal screener program.
    SFO's conditional SPP application, would require the following four 
conditions be met for implementation of a SPP at SFO:
        1. Any contracted screening provider chosen by the TSA for SFO 
        must be both Designated as a Qualified Anti-Terrorism 
        Technology (QATT) and Certified as an approved product for 
        Homeland Security pursuant to the Support Anti-Terrorism by 
        Fostering Effective Technologies (SAFETY) Act.
        2. Liability limitations equivalent to those extended to 
        Designated QATTs under the SAFETY Act must be extended to SFO 
        with regard to any liability based upon screening activities 
        and the act of opting-out or participating in the SPP so that 
        SFO is shielded from liability exposure in excess of that of 
        airports that choose not to opt-out.
        3. TSA's contract with the screening provider must contain 
        indemnification of the City & County of San Francisco and its 
        Airport Commission (SFO) for the negligent acts and omissions 
        of the screening contractor. The indemnity must apply to all 
        claims for liability, not simply claims related to terrorist 
        acts.
        4. TSA's contract with the screening provider must additionally 
        require the contractor to name the City and Commission (SFO) as 
        additional named insureds on the screening providers required 
        liability insurance policies.
    San Francisco asked to be a participant in the pilot screening 
program, prior to the federalization of the nation's airport screeners 
under the TSA, because we had serious concerns about a new federal 
agency's ability to support the difficult and challenging process of 
recruiting, hiring and managing one of the largest and most important 
workforces at our airport. Significant staff shortfalls over a long 
period of time with other federal agencies at SFO had been commonplace 
in the past.
    I believe that our private screening company, Covenant Aviation 
Security, is doing an excellent job. They work cooperatively as a team 
player with the Airport and the TSA and have successfully deployed 
creative hiring and training programs, which have minimized employee 
turnover and lost time due to injuries and illnesses. Further, I 
believe there is a higher level of customer satisfaction. It is worth 
mentioning that San Francisco has the shortest average passenger 
screening time of any major airport in the United States.
    The collaboration between Airport management, the Federal Security 
Director (FSD) management staff and the contractor has allowed us to 
coordinate and deploy state of the art screening systems, which 
combined with a well trained workforce, provide an extremely high level 
of security and customer service. This combination of collaborative 
effort, best practices and the application of technology has resulted 
in a net reduction of more than 400 screeners since the TSA took over 
in 2002.
    Overall, the SPP process has allowed SFO's FSD to spend his time on 
security issues, instead of managing the human resources function of 
over 1200 screeners. The Airport management has enhanced the screening 
system by adding sufficient checkpoint capacity to ensure adequate 
passenger processing capability.
    The use of contractors under the SPP has helped to identify best 
practice solutions to security challenges. This being said, SFO, and 
other airports using private screeners, can only continue in the SPP if 
our liability exposure can be addressed. We have successfully dealt 
with this issue on contracts at the Airport that involve the FAA. These 
contractors are required to both indemnify the FAA and list the FAA as 
an additional insured. We have expressed these concerns to the TSA and 
look forward to correcting the exposure issues so that we can continue 
in this effective screening program.
    Airports, despite being public agencies, operate as businesses. 
Security is too large a part of the operational base of our nation's 
aviation system to ignore best business practices. Flexibility and 
creative decision-making make it possible to have an efficient, cost 
effective and robust layer of security systems and should be encouraged 
regardless of whether the screeners are federal or contract employees.
    Some examples of ``Team SFO'' initiatives that have resulted in 
higher efficiency include:
    The development of a ``Screener Control Center'' (SCC) that, in 
conjunction with the comprehensive deployment of closed circuit 
television (CCTV) is able to simultaneously monitor the operation of 
SFO's 39 passenger checkpoint lanes and the queuing of passengers at 
checkpoints from a central location. The SCC has substantially 
increased the screening contractor's ability to adjust staff levels to 
support passenger volume changes at the checkpoints. The SCC has also 
reduced the potential for a passenger breeching the checkpoint. This 
system was installed by the Airport and paid for by the contractor.
    The FSD's management staff has very effectively coordinated with 
the contractor to ensure the lowest level of staff attrition and the 
highest level of security and customer service performance by 
instituting a weekly detailed performance review with the contractor. 
This review consists of a comprehensive review of critical performance 
metrics including; passenger wait times per checkpoint; screener test 
results; training conducted; customer complaints; screener attrition; 
screening absenteeism and overtime vs. overtime goal review to name a 
few. The performance review has resulted in extremely effective 
operations. I believe this type of review illustrates one of the 
primary benefits of the SSP.
    The Airport management has enhanced the screening system by adding 
sufficient checkpoint capacity to ensure adequate passenger processing 
capability. We have also aggressively and proactively deployed an 
automated baggage inspection system capable of screening over 53,000 
bags per day using 45 CTX 9000s. These devices are multiplexed to a 
remote screening facility that allows for better oversight and 
supervision of ``on screen resolution'' (OSR) functions while 
significantly reducing the number of screeners needed to operate the 
system. SFO, could in fact, provide OSR for other cities using its 
existing facilities further reducing TSA costs.
    All that being said, as previously noted, SFO can only continue in 
the Airport Screening Privatization Program if its liability concerns 
can be solved by Congressional action and TSA cooperation. First, 
Congress must amend the Safety Act to extend to SFO the liability 
limitations extended to QATTs under the Act. Second, TSA, at SFO, must 
contract with a screening provider that is both ``designated'' and 
``certified'' under the Safety Act. And third, TSA's contract with the 
screening provider must contain a requirement both that SFO be 
indemnified for the negligence of the screening provider and that SFO 
be named as an additional insured in the screening provider's liability 
insurance policies.

    Mr. Lungren. Thank you very much, Mr. Martin, for your 
testimony.
    The chair would now recognize Mr. William DeCota, the 
Director of Aviation for the New York-New Jersey Port 
Authority, to testify.

                  STATEMENT OF WILLIAM DECOTA

    Mr. DeCota. Thank you, Chairman Lungren, Congresswoman 
Sanchez, Ranking Member Thompson, Congressman Pascrell and 
Congressman DeFazio.
    I am William DeCota, director of aviation for the Port of 
Authority of New York-New Jersey. On behalf of the port 
authority, I am very pleased to be here to give you our 
thoughts regarding the management of the aviation screener 
workforce.
    In my role, I run one of the largest airport systems in the 
world. There are four airports in my system that are critical 
to trade, travel, commerce and tourism in our region, as well 
as they are global gateways to this country: John F. Kennedy 
International Airport, which is a major domestic and 
international hub; Newark International Airport, a premier 
business airport; LaGuardia Airport; and a very vital corporate 
and general aviation reliever, Teterboro Airport; as well as 
the Downtown Heliport.
    Together, they have been used by 94 million passengers, 
about 3 million tons of cargo and about 1.3million aircraft 
movements. And we are right now experiencing a very 
unprecedented number of customers, and we expect to serve over 
100 million customers this year.
    And that activity does produce tremendous economic activity 
and a lot of jobs.
    We have entered into a very close partnership with the TSA 
and cultivate and sustain those good relationships with the 
TSA. At Newark Liberty, as well as our other airports, we hold 
weekly conference calls, biweekly inspections, organized 
tabletop sessions to solve problems, cross-train staff; and all 
of that is an effort to improve communication, coordination and 
also to enhance the screening process.
    Of course, to be successful, we need committed backers such 
as you in Congress and the administration providing oversight, 
helping us to remain flexible and being able to support the 
endeavor financially and with material and human resources.
    We recognize the TSA had a very difficult job in forming 
itself and very quickly assembling what it did assemble after 
September 11th, 2001. The passage of ATSA certainly gave a lot 
of direction in that regard, and aviation screening has 
certainly become much more focused.
    To highlight that point, we are very pleased that the TSA 
workforce at Newark Liberty International Airport, as an 
example, recently performed exceptionally well in tests of 
checkpoint and bomb detection machine procedures.
    More than 97 percent of the 1,234 screeners passed the 
test, giving Newark a pass rate that makes it amongst the 
highest of the top 30airports in the country.
    Ideally, we would like to measure screening performance in 
terms of an objective set of performance measures. We like 
well-defined objectives for each component of the screening 
process. We like to receive regular feedback. We like measures 
such as contraband intercepted, average wait times, maximum 
wait times, staff courtesy and measures such as that.
    Screeners are certainly the front line in the battle. We 
are very concerned that, when our passenger traffic is growing 
as quickly as I described and there is more cargo coming into 
our airports that recent TSA staffing strategies to address the 
45,000-screener cap may make us lose a significant number of 
screeners at Kennedy and Newark airports.
    LaGuardia may experience a modest increase but, under the 
redeployment plan, we are concerned that any resources that we 
have that are reduced will make our screening less effective.
    We are also worried about diversions of our screeners to 
the Downtown Heliport and the Teterboro Airport, where we have 
regularly scheduled helicopter flights that are about to be 
inaugurated.
    If proposed, anything less than 45,000 personnel or 
anything that fails to provide for inflations in labor costs 
will, in effect, result in fewer screeners. We really can't 
divert our front-line screener force to other duties. Some are 
being diverted to administrative duties. And, frankly, we 
believe that the GAO's May 2005 study, which recommended a 
number of training, management and supervision recommendations, 
need to be implemented.
    We are monitoring and testing our airport experience under 
the screening partnership program, the opt-out program. The two 
approaches, one where the airport becomes the screening 
contractor, and the second where private screening companies 
selected and managed by the TSA may not work the way we would 
like it to work.
    So some airports could elect to serve as a direct screening 
contractor. Others, such as large hubs, may feel it would be an 
impractical managerial and administrative burden.
    Regard to the second approach, some airport operators may 
see no significant advantage to their airports at this time in 
an arrangement where the TSA selects and manages a qualified 
contract screening company.
    So we are basically concerned--and we are also concerned 
with the liability and political liabilities that come along 
with it.
    We know that screeners can't do it alone. The TSA has 
enormous physical and capacity challenges, particularly in 
older airports such as mine, where there are 17 terminals. 
Those terminals need to be expanded. We and the airlines, and 
certainly the financially beleaguered industry, are not 
prepared to take on those kinds of costs.
    And we need to see more in-line baggage systems supplied at 
our airport terminals. There are tremendous savings in 
personnel costs that can result from that.
    We need funding for passenger and baggage screening 
modifications. Heretofore, we have not gotten letters in intent 
for in-line explosive detection systems. As this committee 
knows, only10 of the 430 commercial air service airports in the 
country have EDS systems in-line, and only nine letters of 
intent have been issued.
    And funding is not the only problem. We recognize that it 
is costly, sometimes impossible, to expand facilities. And if 
the port authority wishes to really pioneer things such as 
remote baggage check in, we think with our new initiative in 
New York City, with the Farley-Moynihan Post Office that is 
going to become a train station that will be the nexus for our 
airport train systems that go to our facilities, that there is 
an opportunity for that.
    We strongly support implementation of the inspector 
general's findings calling for greater deployment of 
technology. We believe the latest technologies need to be 
implemented.
    We have a number of things in our testimony where we talk 
about CTX, the CT-80 machines, backscatter radar and a variety 
of other things that we think are important. Some of those 
involve privacy concerns that must be implemented.
    We are very committed to being a test bed. We have been a 
test bed in the past. We have a number of pilots under way that 
I think will be instructive to this committee in terms of 
leading the way.
    And we are very much supportive of risk-based approaches to 
try and allocate resources. We do that ourselves. We follow a 
Department of Defense approach to allocating resources. We are 
spending hundreds of millions of dollars in our terminals to do 
that.
    And we believe that Secretary Chertoff's approach to try 
and allocate limited resources in that direction make a great 
deal of sense. And so we applaud those efforts.
    I would like to thank the committee for this opportunity to 
testify. And we look forward to working with you in the future 
to trying to address the many issues that you are wrestling 
with now.
    Thank you.
    [The statement of Mr. DeCota follows:]

                Prepared Statement of William R. DeCota

    Chairman Lungren, Congresswoman Sanchez, Congressman Pascrell, and 
other distinguished Members of the Subcommittee, good morning. I am 
William DeCota, Director of Aviation for The Port Authority of New York 
and New Jersey. On behalf of the Port Authority, I would like to thank 
you for organizing this hearing and giving me the opportunity to 
testify today and to share with you our thoughts regarding the 
management of the aviation screening workforce. My comments will be 
brief and I request that my entire statement be entered into the 
record.
    The Port Authority of New York and New Jersey is a bi-state public 
authority created in 1921 by our States with the consent of Congress. 
Its mission on behalf of the States of New York and New Jersey is to 
identify and meet critical transportation infrastructure needs of the 
bi-state region and provide access to the rest of the nation and to the 
world. In my role as Director of Aviation, I run four airports that are 
critical to the nation's trade, travel, commerce and tourism--a rapidly 
growing global gateway, John F. Kennedy International (JFK); a major 
domestic and international hub, Newark Liberty International (EWR); the 
premier business airport, LaGuardia (LGA); and a vital corporate and 
general aviation reliever, Teterboro (TEB); as well as an urban 
helipad, the Downtown Manhattan Heliport (DMH). These facilities can 
handle aircraft as diverse as a Piper Cub, a Sikorsky S-76, the Boeing 
747-400 and soon the Airbus A380. These airports were used by 93.8 
million passengers, with over 2.8 million tons of cargo and 1.1 million 
aircraft movements in 2004. We are serving an unprecedented number of 
customers this year, with JFK growing by more than 9%, LGA growing by 
6% and Newark Liberty growing by 3.5%. By year-end, we expect to serve 
about 100 million passengers. This activity produces annually an 
astounding $62 billion in economic activity and directly and indirectly 
supports more than 375,000 jobs in the New York/New Jersey metropolitan 
region.
    The Port Authority of New York and New Jersey has entered into a 
partnership with the Transportation Security Administration (TSA). The 
Port Authority and TSA are joined together in a common pursuit, 
exploring new territory and meeting difficult challenges. Like all 
partnerships, to be successful, the parties need to agree on 
objectives, share with each other our concerns and provide mutual 
support. To cultivate and sustain our good relations with TSA at Newark 
Liberty as well as our other airports, we hold weekly conference calls, 
conduct bi-weekly inspections, organize tabletop problem solving 
exercises, and cross-train TSA and Port Authority staff in an effort to 
improve communications and cooperation. Of course, to be successful, we 
need committed backers in Congress and the Administration who provide 
oversight while remaining flexible and most importantly who are willing 
to fully support the endeavor financially. As operator of one of the 
nation's busiest airport systems, it is vital that the aviation 
screening system be responsive to our increasing passenger and cargo 
traffic. The aviation screening system needs to be effective, customer-
focused, performance-driven, risk-based and be given adequate resources 
to fulfill its mission.
    We recognize that the TSA had a very tough job in quickly 
establishing its screening operation after September 11, 2001, and the 
passage of the Aviation and Transportation Security Act (ATSA). With 
the advent of TSA, aviation screening has become much more focused than 
that which existed before its establishment. To highlight this point, 
we are pleased that the existing TSA workforce at Newark Liberty 
International Airport recently performed exceptionally well on annual 
tests of checkpoint and bomb-detection machine procedures. More than 97 
percent of the 1,234 screeners passed the tests, giving Newark a pass 
rate that, is among the highest of the nation's 30 largest commercial 
airports and better than the airport, did last year.
    Ideally, we would like to measure aviation screening performance in 
terms of an objective set of performance measures. We would like a 
well-defined set of objectives for each component of the screening 
process for which we would receive regular feedback. For checkpoint 
screening such measures as contraband intercepted, average wait times, 
maximum wait times and staff courtesy are some of the basic measures 
for which airports desire regular feedback.
    Screeners are the front line in the battle to protect our nation's 
airports from terrorism. Air passengers traveling through the high-
profile, fast-paced New York/New Jersey region need the confident 
assurance of the TSA's diligent screening standards, and sufficient 
numbers of screening personnel to meet the heavy volume of traffic of 
our terminals. We are concerned that at a time when our passenger 
traffic is on the rise and surpassing previous levels, recent TSA 
staffing strategies to address the 45,000 screener cap propose that 
John F. Kennedy International and Newark Liberty International lose a 
significant number of screeners. Though LaGuardia Airport may see some 
modest gain in staffing, under this ``redeployment,'' we are concerned 
that even these resources may be diverted to address screening needs at 
Teterboro, our corporate/general aviation airport, and at the Downtown 
Manhattan Heliport, where regularly scheduled commercial helicopter 
flights soon will be inaugurated. Also, if proposed Congressional 
funding for TSA screeners funds less than the 45,000 personnel, or 
fails to provide for the inflation adjustments in such labor costs, 
airports that expected to maintain or benefit from an increase in 
screening staff may in fact find they receive fewer.
    We are also concerned that at each of our airports some screening 
personnel are assigned administrative duties such as timekeeping 
instead of being properly deployed because there has been insufficient 
funding for administrative personnel. We must not divert our front-line 
screening force to other duties and we must ensure that they are 
thoroughly prepared for the challenges ahead. To ensure that the 
positive screener performance at Newark documented by the TSA's 
internal testing will continue at this high standard, we urge the TSA 
to adopt the training management and supervision recommendations of the 
GAO's May 2005 follow-up study.
    We are monitoring the testing and airport experience under the TSA 
Screening Partnership Program, also known as the Opt-out program. In 
view of the significant improvement in passenger screening that is the 
result of the TSA assumption of these responsibilities after the 
attacks of 2001, we are reluctant to disrupt the current screening 
program at our airports at this time. There are two approaches to the 
private screening option, one where an airport itself becomes the 
screening contractor, and a second where a private screening company is 
selected and managed by the TSA. Though some airports may elect to 
serve as the direct screening contractor, others such as large hubs, 
may feel that it would be an impractical managerial and administrative 
burden. With respect to the second approach, some airport operators may 
see no significant advantage for their airports at this time in an 
arrangement where the TSA selects and manages a qualified contract 
screening service to perform the same functions as current TSA 
screeners, and to the same standards. Also, we are concerned that there 
may still not be effective and adequate shelter from the legal and 
political liability for the airport that entered into the opt-out 
agreement.
    Of course, screeners can't do it alone. The TSA also faces enormous 
physical capacity challenges at airports as passenger traffic grows 
rapidly. Unfortunately, at some of our older terminal facilities like 
those at airports across the country, there is often a lack of adequate 
space for checkpoint and baggage screening. It is difficult and 
expensive to re-configure existing facilities and sometimes it is just 
not possible to add security lanes without undertaking an expensive 
capital construction project that neither the financially ailing 
airline industry nor we are well-prepared to undertake. We also need to 
reconfigure bag rooms to provide for the installation of equipment that 
is currently located in passenger terminal lobbies.
    Even more baggage screening equipment is needed for our facilities 
since equipment needs cannot be determined by a ratio of total 
equipment to total passengers but must rather address the distribution 
of passengers across our many terminals at peak periods. In other 
words, the equipment isn't always where it is needed when it is needed. 
In-line baggage screening systems offer speed of processing, savings in 
personnel costs as well as the restoration of terminal lobbies for 
their original purposes. However, the cost of facility modifications to 
accommodate in-line screening is beyond our capacity to support.
    We need federal funding for these passenger and baggage screening 
modifications. Heretofore sufficient funding has not been provided to 
the TSA for Letters-of-Intent (LOI) for the installation of in-line 
explosive detection systems. Currently, only 10 of more than 430 
commercial service airports have in-line EDS systems. Under the LOI 
process, the federal government may commit to reimbursing airports for 
these projects over a three-to-five year period. However, due to a lack 
of resources, the TSA has only been able to issue LOI's for nine 
airports. FY 2006 TSA budget provisions only provide enough funding to 
support the existing obligations to these airports. The prospect for 
further in-line installations at other airports in the future, 
including those that we operate, is bleak unless TSA is provided with 
much greater funding for this purpose.
    As we anticipate the need for much more money for in-line screening 
modifications, we are persuaded that current industry proposals for 
reimbursement agreements based on future cost savings may be a workable 
solution to TSA--airport capital funding. The idea is to activate 
existing legislative authority or structure new authority allowing 
airports needing an in-line baggage solution to define implementation 
plan, estimate the cost of implementation, calculate the annual O&M 
savings anticipated once the system is operational, compare that to a 
baseline current cost for TSA at our airports, then negotiate that 
annual savings amount to be dedicated to the airport until a federal 
contribution equal to 90% of the implementation cost has been received.
    As an aside, airport operators such as ourselves that lease many of 
our terminals to airlines and third parties have found that the Letter-
of-Intent (LOI) process has posed many difficulties because the TSA's 
legal agreements do not readily allow for the pass-through of LOI 
obligations to the leaseholder for the investment in improvements to 
their leaseholds, though these improvements are for the public benefit. 
We continue to work with the TSA to conclude agreements to provide 
funding for baggage screening work at Newark Liberty's Terminal C.
    Funding isn't the solution for every problem. Understanding that it 
is costly and sometimes impossible to expand our existing facilities to 
accommodate the ever-increasing number of checked bags that need to be 
screened, the Port Authority wishes to help pioneer such alternatives 
as remote baggage check-in. The New York/New Jersey region is unique in 
having a densely populated urban core with rail access to our two major 
international gateways. In the coming years, thanks to the leadership 
of Governor Pataki and Acting Governor Codey, and with the help of 
Congress, we will have a magnificent new portico to New York City; the 
stunning Moynihan Station, as terminus for our two airport rail 
connections, would be an ideal location to offer remote-baggage check-
in. We would like to partner with the TSA to take advantage of 
passengers' desire to surrender their baggage after leaving their 
hotels, freeing themselves for an afternoon of sightseeing before 
heading out to the airports for their evening departures. By taking 
control of this checked baggage earlier in the day, the airport and TSA 
can alleviate peak-period congestion. This would alleviate added 
strains on old and overworked baggage handling systems and would permit 
the TSA to receive some checked baggage earlier than usual, thus 
permitting a more steady flow and more efficient screening. The TSA 
will be able to better deploy their resources if checked baggage 
screening is made more efficient. In order to move forward we seek 
federal resources to help construct and staff a remote baggage 
processing facility.
    As the number one gateway to the nation, the Port Authority 
airports often serve as the initial point-of-entry for many 
international visitors. To ensure the safety and security of the 
nation, we commend efforts to implement new technologies that use 
biometrics and automation to efficiently and effectively process 
international guests. Improved passports with new biometric features 
are one element of this overall effort. While not the purview of TSA, 
we compliment the Department of Homeland Security (DHS) on the 
successful implementation of US-VISIT for arriving passengers. We hope 
that DHS incorporates the concerns of airports into the design of US-
VISIT for departing passengers. Unlike US-VISIT inbound, which was 
incorporated into an existing process using existing Customs and Border 
Protection staff, US-VISIT outbound introduces a new process, with a 
new group of employees, inserted into the departure process after 
passengers would expect they had completed all the necessary 
formalities. Many passengers are likely to inadvertently run afoul of 
the new requirements because the proposed outbound process is not 
intuitive and is unnecessarily burdensome.
    Recognizing that necessity is the motherhood of invention, there 
are now many technologies that have evolved since the creation of the 
TSA just four years ago. We strongly support the implementation of the 
Department of Homeland Security, Office of Inspector General, March 
2005 Audit findings that call for the greater deployment of technology. 
The TSA needs to deploy the latest technology to aid the aviation 
screening workforce in detecting the threats that face us today. 
Certainly technological advances in screening equipment may help lead 
to greater staffing efficiencies and improved detection capability. 
Just this week, I had the honor of joining the Chairman of our Board of 
Commissioners, Mr. Anthony Coscia, at Newark Liberty to see a 
demonstration of TSA's Explosive Trace Detection Portal which is 
installed at Newark's Terminal A. Five are being installed at Newark 
and three already have been installed at JFK. We are pleased to have 
been a test site for explosive trace detection portals for passenger 
screening. We look forward to the wide incorporation of this equipment 
at screening points, though processing speed and space limitations may 
constrain its full utility at this time.
    We also are grateful to have been the recipients at Newark Liberty 
and JFK airports of the pilot test deployment of the new Reveal CT-80 
baggage screening equipment. These devices are smaller, though slower, 
than the CTX 5500 and 9000 equipment now consuming much of the lobby 
areas of our terminals, and may in some situations provide alternatives 
to costly modifications to our facilities.
    New technology designed for the screening points such as 
backscatter X-ray which basically sees through persons' clothing and 
reveals concealed weapons, in the future will give screeners powerful 
tools in detecting weapons and explosives. We urge the TSA to push 
forward in resolving the privacy concerns attending this equipment so 
that it may soon be made available at airports. Other technology such 
as automated explosives and weapons detection equipment for the 
passenger screening points should be further developed and deployed, 
and cutting edge technology aimed at subject stress or duress detection 
should be explored. Because terrorist capabilities and techniques will 
continue to increase and evolve, it is necessary that Research and 
Development in detection equipment and techniques continue to address 
the ever-changing threat.
    The Port Authority of New York and New Jersey is committed to 
serving as a DHS/TSA test bed for technology to enhance security at our 
nation's airports. We have participated in tests of biometric access 
control, vehicle tracking, video situational awareness, RFID (Radio 
Frequency Identification Technology) cargo tracking, cargo radiation 
detection, ASDE-3 radar use for perimeter surveillance, and many more. 
A number of our fellow airports are also conducting such tests under 
TSA and DHS auspices as well as at their own initiative. We urge the 
government's continued investment in pilots of promising technology, 
and ask the TSA to facilitate the exchange of information among 
airports about the results and lessons learned from pilot tests.
    Some technologies that can have demonstrable benefits to securing 
our airports are not so new and it confounds us that resources have not 
been made available. Our experience with costly terminal evacuations 
due to breaches of security screening points has convinced us that 
closed circuit television surveillance of the screening points is a 
necessity. In 2003, the Science and Technology Directorate of the 
Department of Homeland Security estimated the economic losses 
associated with terminal evacuations at American airports. They found 
that such evacuations at LaGuardia Airport alone ranged from $1.5 
million to $5.95 million per incident. Surprisingly, after the TSA 
assumed control of the screening checkpoints and made the necessary 
modifications, the TSA did not install such surveillance. Chairman 
Coscia discussed this much-needed improvement to the TSA's screening 
area earlier this year with then Administrator Admiral Stone, and the 
Port Authority pledged to work with the TSA to accomplish this 
important goal. To our disappointment, the TSA has provided no specific 
funding for CCTV installation at the checkpoints. The Port Authority's 
lease arrangements with its tenant airlines would require that any Port 
Authority expense for such work be charged back to the airlines. Of 
course, the financially beleaguered airlines object to an expense that 
is not mandated by the TSA. While the Port Authority has applied for 
the use of Airport Improvement Funds (AIP) for this purpose, it must be 
noted that the use of limited AIP funds for such worthy security 
projects thereby depletes support for other necessary airport capital 
projects traditionally funded by AIP, such as airfield improvements.
    We concur with the recent statements of the Secretary of the 
Department of Homeland Security, Michael Chertoff, asserting that our 
nation's limited security resources must be allocated on a risk-based 
approach, recognizing that different transportation sectors, and even 
individual airports face very different kinds and levels of terrorist 
threats and risks. This committee is also to be commended for 
highlighting the importance of risked-based decision-making. I can tell 
you from first-hand experience with our own facilities, that it is a 
sobering task to assess such threats and weigh these risks, and make 
the tough decisions about the distribution of resources. Under the 
leadership of the New York Governor, George Pataki, New Jersey Acting 
Governor Richard Codey, and Port Authority Chairman Anthony Coscia, and 
in partnership with the DHS Office of Domestic Preparedness, our agency 
has conducted security risk assessments of all of our facilities, and 
resolved to commit our resources to major capital security enhancement 
programs. These enhancements go beyond the current required security 
standards of the TSA, and reflect the best practices of our industry, 
as well as new technology adapted from research and testing of the 
Department of Defense and the TSA's own Transportation Security Lab in 
Atlantic City, New Jersey. We expect that we will assist our colleagues 
at other airports in leading the way on these improvements. It is a 
costly endeavor, however. For airport enhancements alone, the Port 
Authority's Board of Commissioners has authorized $219 million in 
capital work to harden our terminals and perimeters, to introduce new 
surveillance systems, and strengthen our access control systems. We 
endeavor to work in close partnership with the TSA on improving airport 
security, serving as test beds for TSA pilot projects, sharing our own 
research and experience, and developing and implementing new standards.
    Earlier this year, Chairman Coscia pledged the Port Authority's 
commitment in this regard to TSA Administrator Stone, and offered our 
airports to be the first in the nation to implement the TSA's biometric 
standards for access control when they are officially promulgated. 
Similarly, our airports are currently pursuing additional background 
check procedures for workers in secure areas of our airports. At Newark 
Liberty, we conduct verification of social security numbers of 
employees working in these areas. We believe that this is a beneficial 
augmentation to the current TSA requirements for screening employees, 
and it should have the support of statutory authority through 
Congressional legislation and federal regulation.
    We applaud federal efforts to evolve to finding dangerous people in 
addition to dangerous things. This will allow the limited TSA resources 
to be more clearly focused on those with greater risk potential. 
Towards this end, programs such as the Registered Traveler Program and 
Secure Flight should be advanced. The Registered Traveler Program is an 
opportunity for private sector solutions to improve homeland security 
and the airline passenger experience with private sector companies 
paying for new TSA-certified screening equipment and technology to 
improve security and wait times for all travelers. For the Registered 
Traveler Program to be truly useful to the public, it must be 
interoperable across airports and must offer tangible means of speeding 
their screening. Space limitations in some of our Port Authority 
terminals do not allow for the addition of extra screening lines that 
could be dedicated to Registered Travelers without costly construction 
modifications. So other operational methods for quickly processing 
these passengers would be needed. Also, we expect that the TSA may soon 
want to incorporate facial recognition technology into closed circuit 
television surveillance at checkpoints to potentially match travelers 
against the terrorist watch and no-fly lists.
    I would again like to thank the committee for this valuable 
opportunity to share our views. We look forward to working with this 
committee in the future on our shared goal of effective, customer-
focused, performance-driven, risk-based security.

    Mr. Lungren. Thank you, Mr. DeCota, for your testimony.
    The chair would now recognize Mr. Mark Brewer, the 
President and Chief Executive Officer of the Rhode Island 
Airport Corporation, to testify.

                    STATEMENT OF MARK BREWER

    Mr. Brewer. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman and members of the committee. I 
come before you today appreciative of the opportunity to 
discuss ways of improving management of the aviation screening 
workforce.
    Again, my name is Mark Brewer. I am the president and CEO 
of the Rhode Island Airport Corporation, which is a quasi-
governmental entity which operates a six-airport system in 
Rhode Island, including TF Green, also known as Providence, a 
medium hub air carrier airport which serves nearly 6 million 
passengers per year.
    Today I would like to address three issues: improving the 
management of the workforce, technology enhancements and the 
so-called opt-out program.
    First, improving the management of the workforce system. As 
TSA has transitioned from undersecretary to undersecretary, the 
priorities, personnel and indeed the organizational structure 
of TSA have changed. It has become, frankly, an industry joke 
about the revolving door at TSA.
    Let me be clear: TSA has a massive job to undertake and I 
recognize and appreciate the depth and breadth of their role in 
all of our lives, but especially as an airport administrator. 
Yet TSA does not delegate authority for maintaining staffing 
levels at each airport to local federal security director, the 
FSD. In Providence, there are vacancies which remain unfilled 
until TSA headquarters gives authority to fill them.
    To meet the current staffing needs, our FSD is required to 
``do the dance,'' as he calls it, by moving personnel between 
the checkpoint equipment and the lobby-installed EDS equipment. 
Shifting cross-trained personnel between various pieces of 
equipment and mandatory overtime--and let me repeat, mandatory 
overtime--is the only way that he can make it work.
    The TSA has only signed nine letters of intent for funding 
integrated EDS systems at approximately 400 air carrier 
airports with security programs. Providence was recently 
informed that we are number 89 on the top list of 100 airports 
to receive LOI monies.
    Based on the current allocation of funds from Congress, we 
would have to wait decades for funding from TSA for an 
integrated system. There is no doubt in my mind that providing 
an integrated EDS system is a federal responsibility. It is not 
an airport responsibility. It is not an airline responsibility. 
It is a federal responsibility.
    Congress needs to step up to the plate in a big way to 
provide this funding or find creative alternative funding 
sources for the system. It will take a large infusion of funds, 
in the billions, to get this accomplished. And I encourage this 
committee to play a leading role in a congressional commitment 
to fund integrated EDS systems more aggressively than in recent 
years.
    While I am speaking of technology enhancements, I am 
appreciative of TSA's efforts to look into new technology. 
However, the process to evaluate and install these technologies 
is painstakingly slow.
    But more to the point of this hearing, it is essential that 
Congress understand that TSA's introduction of security 
technology is the only way to reduce manpower requirements.
    If, in fact, Congress concurs that the TSA goal is to offer 
world-class security along with world-class customer service, 
then it can only do so with a heavy reliance on technology.
    Not to replace personnel with technology will create longer 
lines and thus additional terrorist targets in all of our 
terminal buildings.
    Regarding the opt-out program, while I have no objection to 
the creation of an opt-out program for those airports that feel 
they would gain some benefit, I personally see no advantage 
based on the current structure of the program. The liability 
issues are enormous; not one that I could recommend to our 
board of directors that we accept.
    Knowing that TSA selects the screening companies, provides 
the airport no flexibility on utilization of staff, and offers 
no control over the operational issues provides me no incentive 
to consider this as a viable option.
    TSA employees currently performing these important 
government regulated functions in Providence have passed the 
recertification test at 100 percent proficiency for the past 3 
years in a row.
    It is difficult for me to argue that security will be 
enhanced by utilizing private employees merely because their 
paycheck is signed by a private firm versus the U.S. 
government.
    In conclusion, Mr. Chairman, my points are these.
    The TSA should empower the local FSDs to maintain their 
authorized staffing level. This step alone will enable those on 
the front lines to be more efficient and ensure a higher level 
of customer service.
    Further, the staffing levels at each airport need to be 
realistic. As one airport grows and requires additional 
screener staffing, it should not mean that another airport 
loses staff only to remain compliant with some arbitrary 
national cap.
    Two, if the goal is to reduce manpower requirements, TSA 
should only do so by improving technology.
    Finding ways to streamline and expedite the introduction of 
technology into airports is key. One proven way to do this 
relatively quickly is to appropriately fund the integration of 
EDS equipment into airports.
    And third and lastly, continue to explore the issues 
associated with the privatization, or the so-called opt-out 
program, to make it a viable alternative to federal employees 
for those airport operations which would like to consider it.
    The liability risks and lack of operational controls make 
it highly unlikely the interest will be there for many airport 
operators under the current structure of the program.
    Again, Mr. Chairman, thank you for the opportunity to 
express my views to the committee.[The statement of Mr. Brewer 
follows:]

                  Prepared Statement of Mark P. Brewer

    Good Morning Mr. Chairman and members of the committee. I come 
before you today appreciative of the opportunity to discuss ways of 
improving management of the aviation screening workforce.
    My name is Mark Brewer. I am the President and CEO of the Rhode 
Island Airport Corporation, a quasi-governmental entity which operates 
a six-airport system including T.F. Green Airport (also known as 
``Providence''), a medium hub, air carrier airport serving nearly six 
(6) million passengers per year. I have been involved in the airport 
management industry for over 30 years. I have also been involved 
airport security as the airport member of the FAA's Security Equipment 
Integrated Product Team (SEIPT) and an industry representative to the 
TSA's Security Technology Deployment Office (STDO). Further, I was co-
chair of the American Association of Airport Executives (AAAE) Security 
Committee, and served four years on AAAE's Board of Directors. I 
currently serve on the Association's Policy Review Committee.
    Today I will address three issues:
        (1) Improving Management of the Workforce: I commend the 
        committee for recognizing the need to study the management of 
        the aviation screening workforce. The ever-changing leadership 
        in TSA, multiple/changing priorities, funding limitations and 
        centralized control of staffing decisions makes our national 
        screening process inefficient.
        (2) Technology Enhancements: Enhancements in technology are 
        essential. Improvements to both the screening checkpoint 
        technology and a greater priority on installing integrated EDS 
        systems are very important to both enhanced security, greater 
        customer service and reduced threats.
        (3) Opt out program: Employee performance of TSA screeners in 
        Providence has been excellent. The TSA employees have received 
        a 100% recertification rating for the past three years running. 
        The ``Opt-Out'' program, as currently structured, exposes the 
        airport operator to potential liability by associating the 
        airport directly with the screening checkpoint or EDS 
        operation, yet provides the airport no input into the 
        operational decisions of the screening process.
    Allow me to address each of these points in greater detail.
    First, improving management of the workforce.
    As TSA has transitioned from Undersecretary to Undersecretary the 
priorities, personnel and indeed the organizational structure of have 
changed. It has become an industry joke about the revolving door at 
TSA. If you don't like the answer you get on an issue, just wait, 
perhaps the next (you fill in the position) will have a different point 
of view.
    Let me be clear, TSA has a massive job to undertake. I recognize 
and appreciate the depth and breadth of their role in all of our lives 
but especially as an airport administrator. The TSA has worked 
diligently to keep lines of communication open with regularly scheduled 
telcons. TSA has an open door policy with aviation associations and 
airports to receive input into projects and security enhancements.
    Yet, TSA does not delegate authority for maintaining staffing 
levels at each airport to the local Federal Security Directors (FSD). 
In Providence there are at vacancies which remain unfilled until TSA HQ 
gives authority to fill them. The FSD is required to use an assessment 
center located 60 miles from the airport requiring any local applicants 
to trek to this location in order to potentially have the privilege to 
work for the TSA. The assessment center in Chelsea, Massachusetts, 
outside of Boston, while physically there, has no staff assigned to it 
to do assessing. While there is no official hiring freeze, TSA has 
elected not to hire. The net result is there are positions for 
screeners open in Providence with no authority or staff available to 
hire personnel for these positions. This is clearly an indication to me 
that a number cruncher has put a halt to the hiring process and 
consequently security and customer service suffer.
    The TSA staffing level in Providence is officially 259 screeners; 
which is significantly less than the number of screeners called for in 
the TSA's own Regal model. I have recently learned that the number of 
screeners in Providence is potentially going to be reduced effective 
next fiscal year so as to reallocate FTE's to another airport. The 
passenger traffic in Providence is setting all-time records and we need 
more screeners, not less.
    To meet the current staffing needs our FSD is required to, ``Do the 
dance.'', as he calls it; by moving personnel between the checkpoint 
equipment and lobby installed EDS equipment. Shifting cross-trained 
personnel between various pieces of equipment and mandatory overtime is 
the only way he can make it work. One could argue that the FSD should 
be applauded for his operational effectiveness, and we do. But we also 
recognize that the reason the dance is necessary at all is because 
authorized staffing levels are not maintained.
    It is my suggestion that TSA HQ delegate the responsibility of 
maintaining authorized staffing levels to the local FSD. This will 
assist the FSD in maintaining the staffing levels required for the 
airport, thus reducing wait times and the unnecessary redistribution of 
the workforce throughout the day.
    While I am on the subject of staffing levels I must share my 
concerns about the proposals in both the house and senate to reduce 
funding of the TSA screener staffing levels in the FFY '06 DHS spending 
budget. I understand these reduced funding levels could eliminate 
between 2000 to 6000 screening personnel. The only way to reduce 
personnel in Providence, and I would argue most other airports, is to 
increase the effectiveness of the technologies available to ensure 
proper throughput.
    The TSA has only nine signed Letters of Intent for funding 
integrated EDS systems at the approximately 429 air carrier airports 
with security plans. It will be years, if not decades, before all 
airports have integrated EDS systems if the funding for these systems 
remains at current levels.
    Providence was recently informed that we are #89 on a list of the 
top 100 airports to receive LOI monies. Based on the current allocation 
of funds from the congress we would have to wait decades for funding 
from the TSA for an integrated system. There is no doubt in my mind 
that the providing of an integrated EDS system is a federal 
responsibility. It is not an airport responsibility. It is not an 
airline responsibility. It is a federal responsibility. Congress needs 
to step up to the plate in a big way to provide this funding or find 
creative alternative funding sources for these systems. It will take a 
large infusion of funds, in the billions, to get this accomplished. I 
encourage this committee to play a leading role in a congressional 
commitment to fund integrated EDS systems more aggressively than in the 
recent years.
    Second, technology enhancements.
    T.F. Green Airport has been on the cutting edge of security 
technology enhancements. We were a test site for EDS equipment long 
before September 11 and the creation of the TSA. We were among the 
first airports in the country to receive screening checkpoint x-rays 
with the Threat Image Projection (TIP) training program. We were the 
first airport in the nation to install and operate the screening 
checkpoint explosive detection device commonly known as ``the puffer.'' 
We were in the first group of ten airports to test biometric security 
credentials for airport employees. We are the sponsor of two federal 
grants testing additional security devices for both enhanced perimeter 
security and terminal building security.
    I am appreciative of TSA's efforts to look into new technology. 
However, the process to evaluate and install these technologies is 
painstakingly slow.
    But more to the point of this hearing, it is essential that 
congress understand that TSA's introduction of security technology is 
the way to reduce the manpower requirements. If, in fact, congress 
concurs that a TSA goal is to offer, ``World Class Security along with 
World Class Customer Service'' then it can only do so with a heavy 
reliance on technology. As mentioned earlier, Congress' proposed 
reduction in TSA's FFY '06 screener staffing budget will potentially 
reduce the number of screeners by 2000--6000 FTE's. These reductions in 
staffing can only reasonably be replaced if new processes and 
technologies are created to provide screening checkpoint customer 
throughputs similar to or above today's traffic volumes. Not to replace 
personnel with technology will create longer lines and thus additional 
terrorist targets in our terminals.
    I encourage Congress to maintain world class security as the 
priority while understanding that customer service is a must.
    I would be remiss if I did not re-emphasize the federal 
government's obligation to fund the integration of Explosive Detection 
Systems (EDS) into airport terminal buildings. Integrated EDS systems 
reduce the level of threat in the terminal because all bags are 
screened behind the scenes sooner, enhanced technologies such as ``on-
screen resolution'' make the examination of the bags more efficient, 
allow passengers to get into the secure side of the terminal sooner and 
save the American taxpayers money. While the dollars committed to the 
integration of EDS systems are in the hundreds of millions of dollars 
each year, the reality is that it will take billions of dollars to 
complete these projects. I understand Congress has been researching 
alternative financing mechanisms for this purpose. To the best of my 
knowledge no creative funding solutions have been developed thus the 
full integration of EDS systems could take decades at the current rate.
    Congress must recognize that additional threats are created by the 
imposition of the ``short-term'', lobby-installed, EDS solution. 
Congress appears to have no plan of how to fund the long-term 
integrated EDS solution. It will take time, dollars and a commitment 
from congress to provide TSA the resources to accomplish this mission.
    Again, back to staffing levels, it has been proven that integrated 
EDS systems will save TSA and the federal government significant 
dollars in personnel costs. I understand one GAO study demonstrates 
money invested in integrated EDS systems is paid back in one year 
through personnel-related savings. It appears to me that the solution 
is obvious, let's work together to get it done.
    Third, Opt-out Program:
    While I have no objection to the creation of an opt-out program for 
those airports who feel they would gain some benefit, I personally see 
no advantage based on the current structure of the program. There are 
four main points I would like to make:
        (1) Both the TSA screeners and privatized screeners are 
        recruited and hired from the same pool of candidates. They are 
        paid the same, trained the same, as well as, tested and 
        reevaluated using the exact same criteria. They use the exact 
        same equipment in the performance of their duties.
        (2) For an airport operator to enter into an agreement with the 
        TSA for the services of a private screening firm would imply 
        both publicly and politically that the airport operator itself 
        has some obligation in the screening of passengers and bags 
        before they gain access to commercial air carriers. Passengers 
        would also assume that an obligation exists, through its 
        vendor, that the airport itself insures the safety and security 
        of their aircraft as they proceed aboard. The liability issues 
        are enormous; not one that I could recommend to our Board of 
        Directors that we accept. Knowing that TSA selects the 
        screening company, provides the airport no flexibility on the 
        utilization of staff, and offers no control over operational 
        issues provides me no incentive to consider this as a viable 
        option.
        (3) There has been no conclusive evidence presented to me which 
        indicates that private firms exceed the security detection 
        capabilities of the TSA employees currently performing these 
        important government-regulated functions. The screeners at PVD 
        have passed their recertification tests at 100% proficiency for 
        the past three years in a row. It is difficult to argue that 
        security will be enhanced by utilizing employees merely because 
        their check is signed by a private firm vs. the U.S. 
        Government. Again, I am not stating that I am opposed to the 
        opt-out program in general. It is just a long way from being 
        enticing for this airport operator to agree to take on the 
        additional responsibilities and liabilities related with 
        aviation security without the capability to actually manage the 
        program.
        (4) TSA's staffing of the congressionally-capped screening 
        force can be better accomplished in one very important way; 
        empower the Federal Security Directors to maintain a certain 
        FTE manpower level based on the realistic needs of the airport. 
        In Providence, and all other airports, no hiring may be 
        accomplished unless approved by TSA HQ. Washington further 
        provides guidelines on what percentage of part time employees 
        each FSD should have. Again, each airport is different and the 
        local FSD's need to be empowered to manage their staffing 
        levels.
    In conclusion, my points are these:
        (1) The TSA should empower the local FSD's to maintain their 
        authorized staffing levels. This step alone will enable those 
        on the front lines to be more efficient and insure a higher 
        level of customer service. Further, the staffing levels at each 
        airport need to be realistic. As one airport grows and requires 
        additional screener staffing it should not mean that another 
        airport loses staff only to maintain compliance with some 
        national cap.
        (2) As the industry rebounds from 9/11, passenger volumes grow, 
        and if airport infrastructures remain the same, there will be a 
        requirement for more screeners, not less. However, if the goal 
        is to reduce manpower requirements TSA should only do so only 
        by improving technology. Finding ways to streamline and 
        expedite the introduction of technology into airports is key. 
        One proven way to do so relatively quickly is to appropriately 
        fund the integration of EDS equipment into airports.
        (3) Continue to explore the issues associated with the 
        privatization ``opt-out'' program to make it a viable 
        alternative to federal employees for those airport operators 
        which would like to consider it. The liability issues and lack 
        of operational control make it highly unlikely the interest 
        will be there for many airport operators under the current 
        structure of the program.
    Thank you for the opportunity to express my views to the Committee.

    Mr. Lungren. Thank you, Mr. Brewer, for your testimony.
    The chair would now like to recognize Mr. John DeMell, 
President of FirstLine Transportation Security, to testify.

                    STATEMENT OF JOHN DEMELL

    Mr. DeMell. Chairman Lungren, Ranking Member Sanchez, 
Ranking Member Thompson and other distinguished members of the 
subcommittee, thank you for the opportunity to assist your 
important review of the airport screener program and the 
Screening Partnership Program.
    Since November 2002, FirstLine Transportation Security and 
our approximately 600 dedicated employees have provided 
aviation screening services for the TSA and the traveling 
public of Kansas City International Airport under the PP-5 and 
now the SPP.
    Under the SPP, the TSA is responsible for oversight and 
direction of all screening-related activities, while FirstLine 
manages all human resources and administrative functions at 
standards that meet or exceed strict TSA mandates.
    FirstLine and TSA have adopted a one-team, one-mission 
partnership model that has created a series of improvements to 
the security screening process and developed new initiatives 
that can serve as an example for other airports.
    We are proud of the many innovations and efficiencies that 
we have implemented, each of them facilitated by our 
partnership of local TSA teams.
    For example, FirstLine and TSA hold joint town hall 
meetings, conduct joint operational and planning sessions, and 
share a single communication system.
    In partnership with the federal security director, 
FirstLine staff and operations center provide 100 percent 
visibility of all screening assets 100 percent of the time.
    We have established an efficient zonal scheduling approach 
that results in essentially zero scheduling errors.
    FirstLine has assumed responsibility for major portions of 
the assessment and hiring process in addition to becoming the 
first contractor responsible for new hire and ongoing security-
related training. We now manage these programs in accordance 
with the standards that exceed the TSA's.
    We also ensure that the training and evaluation of the 
screening workforce exceeds our contract objectives and 
performance metrics. All FirstLine screening staff are baggage 
and passenger qualified. This dual-functioning screener 
approach facilitates efficiency, effectiveness, flexibility 
and, combined with our innovative scheduling technology and 
operations center management, ensures that the screening staff 
are available both wherever and whenever they are needed.
    As a result, we have one of the shortest wait times in the 
country. TSA's tracking and recent media analysis bear this 
out.
    In addition, we collaborated with the TSA to institute a 
policy of temporary transitional duty assignments for our 
workforce, which improves operational efficiency, enhances the 
health of our staff, and dramatically reduces the incidence and 
durations of on-the-job injuries.
    Our success in managing the screener workforce is reflected 
in the pacesetting results of the TSA's customer reaction 
survey and by our performance accountability metrics reviewed 
with TSA twice a month.
    Current highlights include overtime that is tracking at 1 
percent of billed costs versus a goal of 5 percent. On-the-job 
injuries are 1.4 percent. Only one current worker's comp case 
is the result of a 2005 OJI. Employee absenteeism stands at 
3.58 percent versus a goal of 5 percent. And our current month-
to-date attrition rate is 1.6 percent.FirstLine's partnership 
with the TSA shows that the private sector has much to offer in 
the post-9/11 airport security model. Thus we have identified 
aspects of the current program that could be modified to ensure 
that the SPP becomes even more valuable for the federal 
government and the traveling public.
    First, it is essential to an orderly hiring process that 
the SPP contractors and their local TSA partner have full 
control over the application, assessment and training process. 
For example, two-thirds of the approximately 600 applicants we 
have recently recruited were lost in the assessment system and 
never processed by the TSA's third-party contractor.
    Second, liability concerns restrict the growth of the SPP 
program. Although FirstLine screening services have been 
designated as a qualified anti-terrorism technology under the 
Safety Act, potential airport participants seek clear 
assurances that the Safety Act indemnification afforded the 
screening contractor also applies to them and further protects 
the affirmative act of participating in the program.
    Additionally, budget considerations remain an issue. Some 
airports, recognizing past unfunded mandates and concerned over 
federal appropriations issues, view the SPP as one area with 
potential for future funding reductions.Finally, many airports 
seek tangible advantages from this program. FirstLine strongly 
supports funding mechanisms which, when properly defined, 
return a portion of the savings derived from the SPP to 
participating airports in order to help fund needed security 
enhancements, such as in-line EDS baggage improvements.
    On behalf of FirstLine and our employees, we are committed 
to ensuring that our work for the traveling public at Kansas 
City International and our partnership with the TSA continue to 
enhance the security of our airline passenger system.
    Thank you.
    [The statement of Mr. DeMell follows:]

                   Prepared Statement of John DeMell

    Chairman Lungren, Ranking Member Sanchez, and other distinguished 
Members of the Subcommittee, thank you for the opportunity to assist 
the Subcommittee's important review and assessment of the Airport 
Screener Program and the Screening Partnership Program of which 
FirstLine Transportation Security is a proud partner.
    Since November 2002, FirstLine Transportation Security and our 
approximately 600 dedicated employees have provided aviation screening 
services for the Transportation Security Administration (``TSA'') and 
the traveling public at Kansas City International Airport under the 
Airport Screener Privatization Pilot Program. This program was 
originally known as the ``PP5 Program,'' but following its 
certification as an integral part of our nation's aviation security and 
its availability to all airports is now known as the Screening 
Partnership Program (``SPP'').
    FirstLine Transportation Security is a subsidiary of SMS Holdings 
Corporation (``SMS''), a U.S. privately-owned company with a seventeen 
year history of providing security, aviation and facilities maintenance 
services across the Nation. FirstLine resulted from SMS's acquisition 
of the core management team of a company that for over twenty years had 
provided passenger screening and airline services across the U.S. The 
SMS family of companies also includes Valor Security Services, whose 
employees protect over 160 enclosed shopping malls in 32 states, 
Service Management Systems, a leading provider of facilities services 
management to multi-use facilities in 32 states; and PrimeFlight 
Aviation Services whose 4,000 employees provide airside and landside 
services in 60 airports nationwide. Our company has a strong reputation 
of quality managed services and considerable expertise and experience 
in a variety of areas important to our nation's commerce and the 
aviation industry.
    Under the Screening Partnership Program, the TSA is responsible for 
oversight and direction of all screening and security related 
activities, while FirstLine performs world class human resources 
management in addition to all administrative functions related to the 
workforce. Our responsibilities include recruitment, screening of 
candidates, candidate assessment, screener training and ongoing 
personnel management and direction to the screening staff. SPP 
contractors must meet, as a minimum, the same overall hiring, training, 
and security requirements as those locations employing federal 
screeners. The employees of the SPP contractors generally receive their 
training from TSA, although in the case of FirstLine, we have 
responsibility for virtually all screener training requirements.
    FirstLine is responsible for managing the screener workforce with 
respect to all human resource and administrative-related functions. 
This includes the establishment of compensation schedules at TSA-
approved levels; performing payroll-related activities; rewarding and 
disciplining for performance; hiring and firing; orchestrating shift 
bids; and scheduling. All of our expenditures, including all 
compensation-related matters, are submitted on a monthly basis to TSA 
for review, approval, and payment under the terms of our contract.
    We work closely with TSA site managers to ensure that security 
measures are consistent with TSA's procedures, and our screeners 
receive enhanced professional training covering all aspects of their 
work environment and job responsibilities. It is a partnership in which 
we share the TSA's mission to protect the Nation's transportation 
systems, that emphasizes high levels of screening effectiveness, 
outstanding customer service and significant cost and operational 
efficiencies. Our collaboration with TSA is geared towards a ``win-
win'' result, and it is a partnership in which we are proud to play an 
important role. It is a partnership that works.
    Given the unique and challenging layout of Kansas City 
International Airport, it is essential that FirstLine and TSA work 
creatively and proactively to ensure that screening operations are 
effective and provide security and customer service to the traveling 
public with minimal delay. We are particularly proud of the work that 
our employees perform at Kansas City International given the unique 
facility issues presented by the airport's layout. For those of you who 
have not traveled to or through Kansas City, the airport is arranged in 
three horseshoe-shaped terminals, with the distance between a gate 
entrance and the airport exterior entrance only a matter of a few dozen 
feet. It is possible to deplane and be outside meeting your ride within 
minutes. 
[GRAPHIC] [TIFF OMITTED] T8498.001

    This configuration currently requires 11 screening checkpoints and 
6 baggage screening stations, exacerbating the need for balancing our 
workforce between checkpoints and baggage screening stations. By 
comparison, Hartsfield International Airport in Atlanta has 4 screening 
checkpoints.
    Moreover, once a passenger clears security, another unique aspect 
of the airport layout that increases our employee's workload is the 
fact that access to restroom facilities, food and refreshments, and 
many other creature comforts or needs reside close to the gate areas, 
but nevertheless outside security at most gates. Given passenger 
ingress and egress from the secure area, this creates the need to 
``double screen'' many passengers.
    It is important to highlight how well FirstLine and the TSA have 
partnered to deliver maximum security, efficiency and customer service 
to the traveling public in Kansas City, and meet the challenges of our 
role in protecting America. We have adopted a ``One Team, One Mission'' 
approach by acting cooperatively, creating a series of improvements to 
the security screening process, and developing new initiatives that can 
serve as a model for other airports. For example, FirstLine and TSA 
representatives hold joint Town Hall Meetings, attend each others' 
operational and planning sessions, and share a single communications 
system. In partnership with the Federal Security Director, FirstLine 
staffs and operates the TSA Operations Center at Kansas City 
International that provides 100% visibility of all screening assets 
100% of the time, which given the configuration of the airport, is a 
significant accomplishment and testament to our working relationship 
with the TSA.
    Management and Best Practices
    As a company, we are exceptionally proud of the managerial 
enhancements and innovations we have implemented in our operations, 
improvements that could never have occurred without an effective 
partnership with the TSA team in Kansas City. We have collaboratively 
developed management approaches and tools that have resulted in 
significant reductions in days lost to injury and overtime costs, among 
other benefits.
    In order to ensure that we meet the changing needs of a dynamic 
airport travel profile, we have established an Operations Center, 
functional 24 hours a day/seven days a week, that tracks staffing 
levels (actual vs. scheduled) and appropriate screener deployment, and 
coordinates all major FirstLine communications to and from TSA, the 
airport and airline officials. We are utilizing innovative technology 
to develop, implement and administer a schedule that places screeners 
where they are needed, when they are needed, and we manage this process 
through the Operations Center. In cooperation with our local TSA 
partners we have established a zonal approach to scheduling that 
enhances our ability to schedule effectively resulting in essentially 
zero scheduling errors for the past year. We also train and empower our 
screening supervisors to manage, cooperate and redeploy screeners as 
necessary at the checkpoint level. The Operations Center and scheduling 
system, coupled with the protocols that guide and direct their 
operation, are some of the key reasons why we are able to respond 
effectively to operational situations and deploy the appropriate level 
of screener staff where and when they are needed.
    Working with the TSA, FirstLine also developed a General Operations 
Guide (GOG) that documents all programs and procedures for the entire 
FirstLine Kansas City operation. The GOG provides standardized 
procedural and administrative guidance, and is a synopsis of standards 
established by FirstLine to meet and exceed the contractual 
requirements of the Transportation Security Administration. Based on 
our historic management experience with a workforce of similar size and 
scope to the screening team in Kansas City, FirstLine developed an 
Employee Handbook that documents procedures and rules for required 
employer/employee behavior and ensures that our team's performance 
exceeds the requirements of the TSA contract. In cooperation with our 
TSA partners, we also developed a set of 21 Performance Metrics for our 
work on behalf of the TSA, metrics that are reviewed twice per month, 
and also serve as the baseline for ongoing management initiatives to 
maximize contract performance.
    Utilizing industry best practices, FirstLine has installed 
significant cost control procedures and other measures to improve 
efficiency. For example, we have deployed systems to ensure the highest 
levels of payroll accuracy, manage the full spectrum of materials 
acquisition, and provide for the security, efficient acquisition and 
control of uniform components. These systems and management tools 
proved so successful that the TSA expanded their use to encompass 
virtually all materials procurement and inventory management. Our 
preventative maintenance programs for security operations equipment 
have saved significant tax dollars and earned TSA and vendor 
recognitions. We have a lean, motivated and efficient administrative 
team at Kansas City backed up by a qualified corporate support center 
staff.
    Assessment and Hiring
    Beginning in late February 2005, FirstLine assumed responsibility 
for major portions of the assessment and hiring process. The assessment 
and new hire training programs are managed by FirstLine in accordance 
with a TSA-approved model, and with standards that exceed those 
required by TSA. FirstLine has teamed with industry experts to 
continually improve the hiring and assessment process to provide for 
greater efficiency.
    Workforce Management and Training
    A core aspect of our mission involves the training and evaluation 
of the screening workforce in order to meet our contract objectives and 
performance metrics. FirstLine makes a continuing, major commitment to 
training and evaluation. All FirstLine Screeners, Lead Screeners, and 
Screener Supervisors are baggage and passenger screening qualified. 
This Dual Functioning Screener (DFS) approach provides the TSA with 
screening efficiency, effectiveness, and flexibility, and allows us to 
deploy screeners throughout our checkpoints to meet changing demand and 
avoid bottlenecks. Each screener also receives a minimum of three hours 
of continuation training each week. Cross-training coupled with 
continuing training programs further improves the efficiency of our 
staffing in order to meet routine as well as exceptional operational 
needs.
    Passenger wait times are an important issue to both the traveling 
public and airport managers nationwide. Our results in Kansas City are 
exceptional. While there are many reasons for this success, including 
the unique array of passenger checkpoints, the use of 100 percent 
cross-trained screening staff, combined with our innovative scheduling 
technology and Operations Center management has also played a 
significant role in delivering screening staff both wherever and 
whenever they are needed. The result is reduced wait times for 
travelers. As the TSA's own wait time reporting and a recent USAToday 
analysis of those wait times at major airports noted, travelers at 
Kansas City waited in excess of 10 minutes less than one half of one 
percent of the time. It is not an exaggeration to note that on most 
days, the line for Starbucks exceeds the wait time to clear security at 
our airport.
    FirstLine's approach to enhanced training has resulted in our 
becoming the first contractor given the responsibility to conduct its 
own security-related training. Our security-related training applies to 
both new-hires as well as ongoing recurrent instruction, and adds to 
the enhanced customer service and human resources training that we have 
accomplished throughout the duration of our contract. Portions of the 
initial assessment process remain the responsibility of the TSA 
although FirstLine remains prepared to assume this function once TSA 
resolves other issues impacting this transition.
    FirstLine's Training Program is grounded in quantifiable tasks, 
conditions, and measurable standards. All DFS training is conducted by 
FirstLine training specialists certified by the TSA as TSA Authorized 
Instructors (TAIs). To manage this training program, FirstLine 
publishes monthly training calendars 60-90 days in advance of scheduled 
training. Our Training Department augments these Training Calendars 
with targeted monthly training tasks (focus areas). Both to gauge the 
program's effectiveness and to ensure that screeners remain current in 
their job duties, random monthly training quizzes are given to 
approximately 25% of the Screeners and Lead Screeners.
    To support our training program and ensure that training does not 
come at the expense of our core security mission, FirstLine maintains a 
dedicated Training Support Team that relieves screening locations 
during computer-based training and other skills improvement sessions on 
a scheduled, rotating basis. The result of our approach is that each 
screener receives an average of 8-12 additional hours of focused 
training every month that is normally above and beyond the minimum 
weekly TSA requirement. Standardized training records ensure that every 
FirstLine screener meets or exceeds TSA training requirements, and 
facilitate 100% accountability of mandatory TSA weekly training 
requirements and screener certifications. As with all of our program 
elements, our training strategy is a cooperative endeavor fully 
supported by the Federal Security Director in Kansas City and his 
staff.
    As another example of how we have linked our training and security 
objectives, FirstLine, in coordination with the TSA, has participated 
in expanding upon TSA's local and national covert testing program. As 
part of our efforts to add value to the partnership, FirstLine conducts 
additional training utilizing covert situations, further enhancing our 
screeners'' practical skills and situational awareness. This dynamic 
application of simulated real-life training situations enhances and 
improves the safety and security of Kansas City's traveling public.
    Workforce Management Techniques and Tools
    Workplace safety is a critical component of FirstLine's partnership 
with the TSA. Both to improve operational efficiency and enhance the 
health of our workforce, FirstLine, in collaboration with the TSA, 
instituted a policy of Temporary Transitional Duty (TTD) assignments 
for our workforce. This program is a cooperative effort between the 
screener, their medical provider, and FirstLine. Minimum physical 
requirements are determined for each of the screening location 
positions, and workers scheduled to return to full duty within 90 days 
are assigned to a temporary duty assignment that is appropriate to 
their medical status as soon as they are physically able to meet the 
minimum physical requirements for a position. This temporary 
assignment, combined with FirstLine's proactive overall approach to 
reducing on-the-job injuries (OJI), is paying operational dividends--as 
our current OJI rate per 100 employees is 1.4. During a recent visit by 
TSA Headquarters staff to Kansas City, the review team indicated their 
plans to send their lead Workman's Compensation personnel to Kansas 
City to identify ``best practices'' that could be deployed throughout 
the TSA system.
    As a private contractor, FirstLine has also brought to bear in 
Kansas City our experience from other personnel management 
circumstances. Early on, FirstLine established a standardized employee 
review process that identifies employee counseling needs and areas for 
improvement, and measures and quantifies our employees' successes and 
positive contributions. In addition to providing valuable two-way 
feedback regarding performance and staff interests, these evaluations 
are part of a larger incentive and motivational program that includes, 
among other aspects, a merit pay program. FirstLine has also 
established a wide array of employee recognition programs that commend 
our staff members for their accomplishments on a monthly, quarterly and 
annual basis. We also take opportunities at holidays or significant 
milestones, such as our contract anniversary, to offer additional 
incentives and expressions of appreciation, including prize raffles and 
refreshments.
    We are also especially pleased to offer a tuition assistance 
program for those employees who have completed six months with the 
company. Eligible employees may seek reimbursement for classes taken at 
an accredited college/university--whether or not they are job related. 
The maximum reimbursement to an employee for tuition reimbursement, 
with benefits corresponding to company tenure is $10,000.
    In keeping with our objective of continuous review and improvement, 
our programs are consistently reviewed--often with the involvement of 
our employees. This review includes effective input from our Employee 
Advisory Council (EAC), a group that provides an official forum for our 
screening staff to have real input into the policy decisions we make 
that directly affect them. FirstLine's EAC is comprised of Screeners 
and Lead Screeners, and meets bi-weekly to review, analyze and make 
recommendations to improve policies and procedures that affect the 
screening workforce. As one example of the value of this forum, the EAC 
was instrumental in revising several important personal attendance 
management tools, including FirstLine's points-based Employee 
Attendance Management policy. This Policy ensures that FirstLine 
provides the TSA with optimal staffing levels at each work area, which 
is essential in order to effectively protect and serve the traveling 
public. A central feature of the program is that effective attendance 
management and control is the responsibility of each FirstLine 
employee. Employees receive a finite number of available scheduled and 
unscheduled absences. By effectively managing the time-off options, 
each employee is able to meet their FirstLine obligations while 
satisfying their unique and individual personal needs.
    We have also established a Supervisor's Advisory Council (SAC), 
which serves as a key element of FirstLine's management team. The SAC's 
task is to review, analyze and make recommendations to improve policies 
and procedures at a management level that will improve FirstLine's 
efficiency, effectiveness, and support to the TSA.
    The result of our workforce management plan has been to improve the 
efficiency and effectiveness of our staff and deliver value and 
reliable service to the TSA. The results, as measured through our 
twenty-one metrics bear out this success. Some current highlights of 
these metrics include:
        <bullet> Overtime is currently tracking at one percent of 
        billed costs, compared to a target goal of five percent;
    On the Job Injuries (OJI) is currently 1.4 percent, with only one 
employee currently receiving workman's compensation resulting from a 
2005 injury;
    Employee absenteeism through the first half of July is 3.58 
percent, compared to a target goal of five percent;
        <bullet> Our current month-to-date attrition rate is 1.6 
        percent. Importantly, our calculation of attrition includes 
        both voluntary and involuntary separations from the workforce, 
        a methodology that differs from the metric used by the TSA for 
        gauging attrition;
        <bullet> Customer Satisfaction remains high and issues, should 
        they arise, are handled in a timely fashion both to resolve 
        where possible to the customer's satisfaction while affording 
        teaching opportunities to improve internally. It should also be 
        noted that Customer Satisfaction, as also measured through the 
        TSA's own survey released in March show high levels of 
        performance even outpacing in many areas the TSA's own positive 
        results, and
        <bullet> We continue to have 100% accountability of all 
        personnel on a daily basis.
    The TSA-FirstLine partnership in Kansas City has clearly been a 
success story. A TSA-commissioned study released in 2004 singled out 
our program for screening effectiveness, customer service excellence 
and significant efficiencies that generated approximately $7.9 million 
in annual savings when measured against a federal model of comparable 
size. We have been advised that more recent studies, including the 
GAO's review earlier this year, continue to bear out these successful 
results. The Kansas City Aviation Department's leadership continues to 
express strong support of our partnership program and its renewal and 
continuation. Security screening at Kansas City not only plays an 
important role in our nation's homeland defense, it is viewed as an 
integral part of a positive, security-effective and customer friendly 
travel experience for the airport and its customers.
    Remaining Issues
    With all of the demonstrated successes of the partnership in Kansas 
City and at other Screening Partnership locations, it is fair to ask 
why other airports have not embraced this alternative to fully 
federalized screening at their own locations. In our view, there are 
several factors that continue to limit the expansion of the SPP.
    Liability and Indemnity
    The primary concerns among airport authorities with respect to the 
SPP relate to liability and indemnity. Airports are concerned that 
should there be a security incident that results in litigation, they 
may become a party to the legal wrangling as either a customer or 
beneficiary of the Screening Partnership Program, or simply because 
they affirmatively applied to participate in the program. These 
concerns persist despite the comfort level of those airports currently 
in the SPP. To mitigate this issue with airports, FirstLine 
Transportation Security applied for and was granted a number of legal 
protections afforded by the SAFETY Act of 2002, becoming the first 
passenger and baggage screening company to receive a Designation under 
the Act.
    Provisions of the law and associated regulations promulgated by the 
Department of Homeland Security afford wide and detailed protections to 
FirstLine as a Designated Seller of passenger and baggage screening 
services that are now designated as a Qualified Anti-Terrorism 
Technology (QATT). Although statements by TSA legal counsel and 
informal guidance by leadership at the Department of Homeland Security 
have sought to assuage the concerns of non-participating airports, a 
number remain uncertain of their legal protections due to the unique 
relationship they would hold as a stakeholder in the SPP. Potential 
participants have expressed a strong desire to receive unambiguous 
guidance from DHS that SAFETY Act provisions apply to their situation, 
and that FirstLine and future qualified screening companies must secure 
full Certification under the SAFETY Act for its technology in order to 
provide sufficient legal protection for participating airports. Such 
recognition could be provided once the TSA supplies specific benchmarks 
requested by the Department of Homeland Security. Clear specifications 
from DHS with respect to the impact of the SAFETY Act designation and 
certification for passenger and baggage screening technology and 
processes would certainly aid expansion of the program.
    Continued and Reliable Funding
    Budget considerations are always paramount with the federal 
government. Some airports, recognizing their past experiences with 
unfunded mandates and concerned over future efforts to address 
appropriations concerns, rightly or otherwise, view the SPP as one area 
which might be ripe for funding reductions in future years. The TSA has 
attempted to explain that annual appropriations for airport screening, 
federalized or partnership are derived from the same budget process and 
line item, but airports remain concerned that any future funding 
shortfalls would be borne by airport participants.
    Shared Savings and Innovative Financing
    Many airports see the qualitative and quantifiable advantages that 
the SPP affords but they properly asked what specific tangible 
advantages might be available to them. A partial answer may lie in the 
current quest to develop new and innovative ways to fund badly needed 
airport security enhancements including in-line baggage security 
systems (EDS). FirstLine strongly supports funding mechanisms which, 
when properly defined and administered, would return a portion of the 
savings we know can be derived from our partnership to participating 
airports in order to fund needed security enhancements. Such 
alternatives should be supported and implemented by TSA in order to 
further meet the request for tangible benefits for participating 
airports.
    Mr. Chairman, our experience in partnering with the TSA to manage 
the screening workforce has convinced us that the private sector has 
much to offer TSA in our post-9/11 model and approach to passenger and 
baggage screening. As the Committee continues its important work in 
oversight of the SPP program and the TSA, we are confident that 
solutions to the issues of SAFETY Act Certification, funding 
reliability, and shared savings and financial innovation can be 
identified and deployed to improve the program. We believe that 
resolution of these issues will ensure that the Screening Partnership 
Program becomes an even more valuable tool for aviation security.
    On behalf of FirstLine and our employees, we are committed to 
ensuring that our work for the traveling public at Kansas City 
International--and our partnership with TSA--continue to enhance the 
security of our airline passenger system. FirstLine is available to 
provide any additional information the Committee may request.

    Mr. Lungren. Thank you, Mr. DeMell, for your testimony.
    The chair now recognizes Mr. Robert Poole, Director of 
Transportation Studies and founder of the Reason Foundation, to 
testify.

                   STATEMENT OF ROBERT POOLE

    Mr. Poole. Thank you very much, Mr. Chairman, members.
    I am Robert Poole, director of transportation studies at 
Reason Foundation, a think tank based in Los Angeles. My 
background is in both aero space and public safety, and I have 
been working on airport security issues since September of 
2001.
    My testimony today is drawn from a forthcoming Reason 
policy study on a new approach to airport screening. Today I 
will focus on two problems that are part of that overall 
agenda: overcentralization and conflict of interest.
    Airports really are all different, and yet TSA runs 
screening in a highly centralized manner that doesn't really 
take that into account.
    First of all, the allocation of screeners is done basically 
once a year, but aviation is much more dynamic than that. In 
our research, we analyzed a database of monthly changes in 
passengers handled by the top 100 airports. In some months, 
more than half of those airports had increases or decreases 
greater than 15percent.
    Some extreme examples: In June 2003, Anchorage passengers 
increased 57 percent over the month before, in that one month. 
In November of that year, St. Louis passengers decreased by 47 
percent, in one month.
    Annual allocation of screeners guarantees shortages and 
surpluses at airports for much of the year.
    The second example of centralization is the PP-5 program 
that has been discussed. What I think most people expected was 
that TSA would certify screening firms and let airports issue 
RFPs to those qualified firms, pick the best proposal to meet 
the needs of that particular airport, and contract with that 
firm.
    But instead, of course, TSA thinks it needs to elect the 
firm, assign it to the airport and run the contract. I think 
this loses most of the advantages.
    And then TSA extended this model to the SPP and they seem 
to be surprised that airports don't see any advantage to 
participating. I think we have heard today why that 
overcentralization gets so little flexibility. And combined 
with the liability exposure, most airports say, ``Why bother? 
What is in it for me?''
    The second basic problem is conflict of interest. This is 
the problem that Congress inadvertently created when they 
created TSA and gave it both service provision and regulatory 
duty.
    That is analogous, unfortunately, to the old Atomic Energy 
Commission whose dual role was both to promote nuclear power 
and to regulate nuclear power plants. It could not do both of 
those jobs in an objective fashion. So Congress eventually 
split it into the functions in the Department of Energy and the 
separate Nuclear Regulatory Commission.
    In our forthcoming report this fall, Reason will recommend 
that as part of the ongoing reorganization of DHS that the TSA 
should be refocused on security policymaking, research and 
development and regulation.
    The provision of all airport security companies will be 
devolved to each airport under this regulatory supervision of 
the federal security director. And each airport, therefore, 
would have the responsibility for deciding how to do passport 
screening either by hiring a TSA-certified contractor or by 
using their workforce under TSA approval and certification.
    Now, it turns out this model is actually what is taking 
place at most of Europe's airports. And there is a table in my 
written testimony, Table 3, that shows the example of all the 
European airports that use this kind of an approach.
    With high standards set by the central government and 
performance penalties built into the model, this kind of 
performance contracting at the decentralized level has an 
excellent track record in Europe and should work equally well 
in this country.
    Now, specifically, our paper will go into a lot more 
details, but how would airport-centered security work?
    First, as I said, each airport would have the make or buy 
authority, decide how to do the screening, either with a 
contractor or in-house. And this means the TSA would have to 
allow for decentralized training and hiring and so forth and 
that is something that would be essential to make that work.
    Secondly, the funding allocations would be made at least 
quarterly, as opposed to annually, and would be changeable on 
at least a quarterly, and ideally on a monthly, basis to keep 
lower funds for hiring and managing people in step with the 
changing levels of passenger workloads at each airport.
    And we recommend these be lump-sum amounts; not 
micromanaged exactly how you spend each dollar, but allow the 
flexibility to have different categories and types of people 
performing different duties so that screeners at smaller 
airports could do other security functions besides screening in 
off hours when they are not really needed for peak load 
periods.
    Also devolving the funds to the airports would give the 
airports the incentive to invest in in-line systems. If they 
can recover their costs in a year or 15 months, it makes all 
the reason in the world for them to do it and they could 
finance the installations that way.
    So this would be an alternative way to put the incentive at 
the airport level with the funding available to do the in-line 
systems.
    And finally, as everyone else here has said, I believe 
Congress should amend the Safety Act to give airports the same 
degree of protection as certified screening contractors.
    To sum up, I am proposing two basic changes in airport 
screening, both of which I believe would require legislation: 
first, eliminate the TSA's conflict of interest by refocusing 
it on research and development, policy-making and regulation; 
second, fully devolve the screening responsibilities and 
funding to the airport level, giving airports the maximum 
flexibility under the full regulatory supervision of TSA's 
FSDs.
    These changes will improve airport security by integrating 
all security functions under one management, free up baggage 
screeners to add to the workforce available for screening 
passengers, and save money overall.
    And we will have a lot more details when our report comes 
out this fall.
    Thank you very much.
    [The statement of Mr. Poole follows:]

               Prepared Statement of Robert W. Poole, Jr.

    My name is Robert W. Poole, Jr. I am the Director of Transportation 
Studies at the Reason Foundation, a public policy think tank based in 
Los Angeles. As a former aerospace engineer, I have been studying 
transportation issues for more than 20 years. My career also includes 
public safety and criminal justice research, and since Sept. 11, 2001, 
I have focused considerable attention on issues involving aviation 
security. I was in Washington advising Members during the House debates 
on the Aviation & Transportation Security Act of 2001, which created 
the Transportation Security Administration (TSA) and is perhaps best 
known for ``federalizing'' airport security.
    I have recently completed research on an alternative to the model 
of airport screening mandated by ATSA and put into practice by TSA. My 
testimony today draws on portions of that forthcoming Reason policy 
paper.

    Two Basic Problems: Centralization and Conflict of Interest
    The most fundamental problem is the highly centralized way in which 
TSA has interpreted its charge under ATSA. This is at odds with the 
great variation in size, design, and function of America's more than 
400 commercial-service airports. In addition, because of its legislated 
role as the principal provider of airport screening services, TSA is in 
the conflicted position of being both the airport security policymaker/
regulator and the provider of some (but not all) airport security 
services. My testimony will address both problems.
    1. Overcentralization
    From the outset, TSA has been plagued by the conflict between 
centralization and decentralization. Part of the rationale for 
``federalizing'' airport security was to provide a consistently high 
level of security nationwide, regardless of the myriad differences 
among airports (which range from huge to tiny, from primarily origin & 
destination [O&D] to primarily transfer hubs, and from centralized 
terminals to multiple terminals). These differences crucially affect 
numerous aspects of both passenger and baggage processing. Early on, 
TSA officials verbally acknowledged this vast diversity by repeatedly 
saying, ``If you've seen one airport, you've seen one airport.'' But 
their highly centralized approach has revealed that sentence to be 
mostly lip service.
    One example is how TSA allocates screeners among the 446 airports 
it is responsible for. Once a year, it reallocates the screening 
workforce, to take into account changes in airline activity, using a 
confidential algorithm. These allocations may be tweaked occasionally 
during the course of a year, but airport directors have no idea how the 
algorithm works and little ability to influence the allocations.
    The problem is that commercial aviation is an inherently dynamic 
industry. As part of our analysis, we looked at how much air service 
changes at individual airports. Tables 1 and 2 are drawn from a 
database of monthly enplaned passengers at the top 100 airports. For 
the sample year 2003, the tables illustrate the month-to-month 
volatility in passenger numbers at these airports, which account for 
the lion's share of passengers and screeners.

                                 Table

                       Monthly Changes in Enplaned Passengers, Top 100 U.S. Airports, 2003
----------------------------------------------------------------------------------------------------------------
                                        No. airports  with  No. airports  with     Airport with       Amount of
                 Month                        +/-10%              +/-15%          greatest change      change
----------------------------------------------------------------------------------------------------------------
January                                                77                  54           Pensacola          -26%
----------------------------------------------------------------------------------------------------------------
February                                                7                   1            San Juan          -19%
----------------------------------------------------------------------------------------------------------------
March                                                  95                  81        Myrtle Beach           76%
----------------------------------------------------------------------------------------------------------------
April                                                  24                   6          Salt Lake City      -18%
----------------------------------------------------------------------------------------------------------------
May                                                    29                  15        Palm Springs          -37%
----------------------------------------------------------------------------------------------------------------
June                                                   20                   7           Anchorage           57%
----------------------------------------------------------------------------------------------------------------
July                                                   19                  10               Islip           26%
----------------------------------------------------------------------------------------------------------------
August                                                 11                   0             Wichita          -15%
----------------------------------------------------------------------------------------------------------------
September                                              82                  56            San Juan          -38%
----------------------------------------------------------------------------------------------------------------
October                                                64                  35        Palm Springs           39%
----------------------------------------------------------------------------------------------------------------
November                                               23                   9           St. Louis          -47%
----------------------------------------------------------------------------------------------------------------
December                                               14                   3        Myrtle Beach          -22%
----------------------------------------------------------------------------------------------------------------

    Source: U.S. DOT T-100 carrier reports

                                Table 2

           Examples of Monthly Airport Enplanement Volatility,
                          2003 (percent change)
------------------------------------------------------------------------
  Airport    Jan   Feb  Mar  Apr  May  Jun  Jul  Aug  Sep  Oct  Nov  Dec
------------------------------------------------------------------------
Ft. Myers   7     8     38   -11  -32  -20  3    -8   -23  38   28   6
------------------------------------------------------------------------
  Seattle   -21   -4    17   1    9    16   11   2    -25  -4   -4   12
------------------------------------------------------------------------

    Source: U.S. DOT T-100 carrier reports

    A screener staffing allocation decided a year in advance is simply 
not a good fit for this dynamic airline environment. When a single 
airline begins serving, or withdraws from serving, such an airport, the 
change can happen in a matter of a month or two, but it may take TSA 
six months or more to catch up with it (if it is under sufficient 
pressure to make a change prior to the next annual screener re-
allocation). During those many months, the airport will operate with 
too few or too many screeners.
    A second example is the highly centralized way in which TSA has 
interpreted the provision in ATSA that allowed five airports to opt out 
of TSA-provided screening as a pilot program. What airports expected, 
and what most people would assume to be the way to implement such a 
program, would be for TSA to define criteria for such firms, certify 
those that met the criteria, define the rules for airports to implement 
outsourced screening, and then let those airports with acceptable plans 
issue RFPs and select the firm (from those on TSA's list) submitting 
the best proposal. The airport would then contract with the firm, under 
the supervision of the TSA's Federal Security Director who oversees all 
other security operations at that airport.
    That was not how TSA implemented the pilot program, however. While 
it did certify a handful of firms, it did not allow airports to issue 
RFPs, select their preferred bidder, or enter into a contract. Rather, 
after TSA selected the five airports that would participate as the 
pilot sites, it assigned one of its certified firms to each airport. 
The TSA itself entered into a contract with each firm and directly 
supervised its operation at each airport. Moreover, when the November 
2004 date specified by ATSA approached, after which point all airports 
would be free to opt out of TSA-provided screening in favor of contract 
operations, TSA defined its Screening Partnership Program along the 
same highly centralized lines.\1\
---------------------------------------------------------------------------
    \1\ Transportation Security Administration, ``Guidance on Screening 
Partnership Program,'' June 2004. (www.tsa.gov/interweb/assetlibrary/
SPP--OptOut--Guidance--6.21.04.pdf).
---------------------------------------------------------------------------
    And the centralization does not stop there. As the Government 
Accountability Office (GAO) noted in an April 2004 assessment of the 
pilot program, because TSA runs the program in such a centralized 
manner, ``private screening contractors have had little opportunity to 
demonstrate and achieve efficiencies.'' \2\ Among other things, the GAO 
report notes that the contractors lack the authority to determine 
staffing levels and conduct hiring. Their head-count is part of the 
TSA's overall 45,000, allocated as part of the overall process. And 
actual hiring by the contractors must be coordinated through TSA 
headquarters. Before new staff can be hired by a contractor, TSA must 
authorize this, and it must set up an assessment center in the area, 
using TSA's national assessment contractor. According to GAO, this 
process typically takes several months. Their report notes a case at 
one of the pilot program airports where a staff shortage went on for 
months, waiting for TSA's process. The inability to hire screeners 
during this time ``contributed to screener performance issues, such as 
absenteeism or tardiness, and screener complacency, because screeners 
were aware that they are unlikely to be terminated due to staffing 
shortages.''\3\
---------------------------------------------------------------------------
    \2\ General Accounting Office, ``Aviation Security: Private 
Screening Contractors Have Little Flexibility to Implement Innovative 
Approaches,'' GAO-04-505T, Washington, DC, April 22, 2004.
    \3\ Ibid, p. 7.
---------------------------------------------------------------------------
    GAO also reported that Federal Security Directors (FSDs) at non-
pilot program airports expressed similar frustrations at TSA's 
centralization of hiring and training. In a survey of all 155 FSDs, GAO 
found that ``the overwhelming majority. . .reported that they needed 
additional [local] authority to a great or very great extent.'' \4\
---------------------------------------------------------------------------
    \4\ Ibid, p. 10.
---------------------------------------------------------------------------
    2. Conflict of Interest
    Congress decided to ``federalize'' airport screening after 
concluding that the prior institutional arrangements included both 
regulatory failure and conflict of interest. Prior to 9/11, the Federal 
Aviation Administration was in charge of airport security, and its 
rules required that access to airport concourses be limited to those 
who cleared a basic screening process at checkpoints. The FAA delegated 
this screening responsibility not to the airports (which own the 
premises) but rather to the airline that had the largest presence on 
each concourse (generally a ``signatory'' airline that had signed a 
long-term use and lease agreement with the airport). The structural 
failure was that the airlines had no real incentive to make security a 
priority. Since operating this function was a cost item for airlines, 
and airlines operate in a very competitive business, their interest was 
to meet whatever requirements FAA laid down at minimal cost. Over time, 
that led to the well-documented situation in which the screening 
companies paid not much more than minimum wage, did only modest amounts 
of training, and suffered turnover rates sometimes in excess of 100 
percent per year.
    The regulatory failure was that the FAA essentially set no 
standards for hiring and training of screeners. Moreover, the FAA was 
de-facto satisfied with the relatively low level of performance of 
those screeners, when challenged by ``Red Teams'' that attempted to get 
prohibited items past the screeners. GAO called for implementation of 
performance standards for screening in 1987,\5\ but the agency failed 
to act. In the 1996 FAA reauthorization act, Congress required FAA to 
``certify companies providing security screening and to improve the 
training and testing of security screeners through development of 
uniform performance standards.'' \6\ Three years later, in January 
2000, FAA issued a proposed rule, Certification of Screening Companies, 
which would have held companies to minimum performance standards. When 
the rule had not been finalized by November 2000, Congress directed FAA 
to issue a final rule no later than May 31, 2001.\7\ The FAA failed to 
meet this deadline, so Congress then required it to report twice a year 
on the status of each missed statutory deadline. That was the situation 
as of Sept. 11, 2001.
---------------------------------------------------------------------------
    \5\ General Accounting Office, ``Aviation Security: FAA Needs 
Preboard Passenger Screening Performance Standards, GAO-RCED-87-182, 
Washington, DC July 24, 1987.
    \6\ Sec. 302, P.L. 104-264.
    \7\ Sec. 3, P.L. 106-528.
---------------------------------------------------------------------------
    In response, Congress took responsibility for airport security away 
from FAA and gave it to the newly created TSA, an appropriate response 
to regulatory failure. But in response to the structural failure, 
instead of doing as nearly every other country in the world does--
making each airport responsible for securing its operations under 
national regulatory supervision--Congress instead vested in TSA not 
only the regulatory responsibility but also the service provision 
duties of airport screening. Note that TSA was not given responsibility 
for carrying out access control or perimeter patrols or law enforcement 
functions at the airports. Those security functions were still the 
airport's responsibility, under the watchful eye of the TSA's Federal 
Security Director (FSD) assigned to that airport. But for baggage and 
passenger screening, TSA was to be both the regulator and the operator.
    This dual role is a potentially serious conflict of interest. As 
one airport director said to a Chicago Tribune reporter in the early 
days of TSA, ``The problem inherent in the federally controlled 
screening process is that you end up having a federal agency sitting in 
the middle of your terminal, essentially answerable to nobody.'' \8\ 
This point was underscored in BearingPoint's report on the five pilot-
program airports. ``Because the screeners at a private contractor 
[pilot program] airport are not government employees, the FSD is able 
to take a more objective approach when dealing with screener-related 
issues raised by stakeholders such as airport management or air 
carriers.'' \9\
---------------------------------------------------------------------------
    \8\ Jon Hilkevitch, ``Airports Not Sold on Federal Screeners,'' 
Chicago Tribune, April 6, 2002.
    \9\ BearingPoint, ``Private Screening Operations Performance 
Evaluation Report, Summary Report,'' Washington, DC: Transportation 
Security Administration, April 16, 2004.
---------------------------------------------------------------------------
    The classic example of a federal agency with this kind of dual-role 
conflict was the Atomic Energy Commission, created after World War II 
to encourage peaceful uses of nuclear power. In carrying out this 
mission, the AEC became both a promoter of nuclear energy (funding 
research & development, doing educational/marketing work, etc.) and the 
regulator of all civilian nuclear reactor operations. Eventually, 
public criticism of the conflict of interest--that the AEC could not 
serve as an objective regulator if it was also the chief promoter of 
nuclear power--led Congress to split those functions. It created a 
purely regulatory body, the Nuclear Regulatory Commission, for that 
role. And it shifted the R&D functions into the newly created 
Department of Energy.
    Rethinking TSA's Role in Screening
    Early in 2005 separate reports were made to Congress, one by the 
DHS Inspector General's Office and the other by the GAO. Based on 
testing of airport screening operations, both concluded that screening 
performance today, several years after TSA took over, is no better than 
it was shortly before or shortly after 9/11. In other words, the new 
agency with a budget of $5.5 billion per year, nearly half of which is 
devoted to baggage and passenger screening, has not led to improved 
protection of planes from dangerous objects.
    The GAO report also concluded that the performance of screeners at 
the five pilot-program experts was modestly better, on average, than 
that of TSA screeners--enough of a difference to be statistically 
significant. Given that TSA provision of screening services entails a 
conflict of interest, those findings serve to strengthen the case for 
separating such service provision from TSA's inherently governmental 
role as security policy-maker and regulator in aviation. That would 
permit the actual provision of airport security to be devolved to each 
airport, as it is in Europe and most of the rest of the world, under 
TSA oversight via the FSDs. Airports would be free to provide those 
services either in-house, with their own workforces, or by contracting 
with a TSA-certified security company.

    A. Separating Policy-Making and Regulation from Operations
    The dual-role nature of TSA stems directly from the ATSA 
legislation. Thus, this problem can only be corrected by new 
legislation to overhaul TSA in the interest of improving its 
performance, thereby increasing aviation security.
    We can gain useful perspective on this issue by looking at how 
European governments have addressed this issue. Europe began 
confronting hijackings and terrorist attacks on airports in the late 
1960s. Risk analysis identified the need for a comprehensive approach 
that included background checks of airport personnel, passenger and 
baggage screening, and airport access control. The initial approach in 
most nations was to use national government employees to beef up 
airport security, either from the transport agency or the justice 
agency. But beginning in the 1980s, European airports began developing 
a performance contracting model, in which government set and enforced 
high performance standards and airports carried them out--usually by 
hiring security companies, but occasionally with their own staff. 
Belgium was the first to adopt this model, in 1982, followed by The 
Netherlands in 1983 and the United Kingdom in 1987, when BAA was 
privatized. The 1990s saw a new wave of conversions to the public-
private partnership model, with Germany switching in 1992, France in 
1993, Austria and Denmark in 1994, Ireland and Poland in 1998, and 
Italy, Portugal, Spain, and Switzerland in 1999.
    Table 3 provides a breakdown of outsourced passenger and baggage 
screening at 33 large European airports as of late 2001. Of these, only 
Zurich and Lisbon airports were not using the performance contracting 
model, and in both nations, efforts to shift to this model were under 
way.

                                Table 3

                              Outsourced Passenger and Baggage Screening in Europe
----------------------------------------------------------------------------------------------------------------
   RANK BY                         PASSENGER & HAND
 TOTAL INT'L     CITY (AIRPORT     BAGGAGE SCREENING  Private Screeners?     HOLD BAGGAGE     Private Screeners?
   PAX \1\           CODE)                \2\                                 SCREENING Y
----------------------------------------------------------------------------------------------------------------
          1   LONDON (LHR)......  BAA...............  Y.................  ADI Initial, SIS    Y
                                                                           (CIVAS).
----------------------------------------------------------------------------------------------------------------
          2   PARIS (CDG).......  SIFA/Brinks/ICTS..  Y.................  ICTS/ASA/SIFA.....  Y
----------------------------------------------------------------------------------------------------------------
          3   FRANKFURT/MAIN      FRAPORT...........  Y.................  FRAPORT and others  Y
               (FRA).                                                      \3\.
----------------------------------------------------------------------------------------------------------------
          4   AMSTERDAM (AMS)...  Group 4 Falk......  Y.................  Randon Securicor-   Y
                                                                           ADI & Group 4
                                                                           Falk.
----------------------------------------------------------------------------------------------------------------
          5   LONDON (LGW)......  BAA...............  Y.................  ICTS; Initial.....  Y
----------------------------------------------------------------------------------------------------------------
          6   BRUSSELS (BRU)....  Securair..........  Y.................  Securair..........  Y
----------------------------------------------------------------------------------------------------------------
          7   ZURICH (ZRH)......  State Police......  ..................  State Police \4\..  See note 4 below
----------------------------------------------------------------------------------------------------------------
          8   COPENHAGEN (CPH)..  Copenhagen Airport  Y.................  Copenhagen Airport  Y
                                   Security.                               Security.
----------------------------------------------------------------------------------------------------------------
          9   MANCHESTER (MAN)..  Manchester Airport  Y.................  Securicor/ADI.....  Y
                                   plc.
----------------------------------------------------------------------------------------------------------------
         10   MADRID (MAD)......  Vinsa, State        Y.................  State Police......  ..................
                                   Police.
----------------------------------------------------------------------------------------------------------------
         11   MUNICH (MUC)......  SGM (Airport......  Y.................  various private...  Y
                                  Company)..........                      companies \3\.....
----------------------------------------------------------------------------------------------------------------
         12   ROME (FCO)........  Aeroporto di Roma;  Y.................  Aeroporto di Roma.  Y
                                   physical searches
                                   handled by police.
----------------------------------------------------------------------------------------------------------------
         13   DUSSELDORF (DUS)..  ADI...............  Y.................  ADI...............  Y
----------------------------------------------------------------------------------------------------------------
         14   MILAN (MXP).......  SEA; physical       Y.................  SEA...............  Y
                                   searches handled
                                   by police.
----------------------------------------------------------------------------------------------------------------
         15   DUBLIN (DUB)......  Aer Rianta          Y.................  Aer Rianta          Y
                                   (Airport                                (Airport.
                                   Authority).                            Authority)........
----------------------------------------------------------------------------------------------------------------
         16   STOCKHOLM (ARN)...  Group 4 Falk......  Y.................  Group 4 Falk......  Y
----------------------------------------------------------------------------------------------------------------
         17   VIENNA (VIE)......  VIASS.............  Y.................  VIASS and others    Y
                                                                           \3\.
----------------------------------------------------------------------------------------------------------------
         18   PARIS (ORY).......  ASA, SIFA.........  Y.................  ICTS, Brinks......  Y
----------------------------------------------------------------------------------------------------------------
         19   BARCELONA (BCN)...  Prosegur, State     Y.................  Prosegur,State      Y
                                   Police.                                 Police.
----------------------------------------------------------------------------------------------------------------
         20   LONDON (STN)......  BAA...............  Y.................  ADI (Securicor)...  Y
----------------------------------------------------------------------------------------------------------------
         21   LISBON (LIS)......  State Police \5\..  See note 5 below..  State Police \5\..  See note 5 below
----------------------------------------------------------------------------------------------------------------
         22   OSLO (OSL)........  ADECCO, Olsten....  Y.................  ADECCO, Olsten....  Y
----------------------------------------------------------------------------------------------------------------
         23   MALAGA (AGP)......  80% Securitas/20%   Y.................  80% Securitas/20%   Y
                                   State Police.                           State Police.
----------------------------------------------------------------------------------------------------------------
       n/av   GENEVA (GVA)......  Airport Authority.  Y.................  ICTS..............  Y
----------------------------------------------------------------------------------------------------------------
       n/av   ATHENS (ATH)......  ICTS/Wackenhut/3D.  Y.................  Hermis/Civas......  Y
----------------------------------------------------------------------------------------------------------------
       n/av   NICE (NCE)........  ICTS, SGA.........  Y.................  ICTS, SGA.........  Y
----------------------------------------------------------------------------------------------------------------
       n/av   HELSINKI (HEL)....  Securitas.........  Y.................  Securitas.........  Y
----------------------------------------------------------------------------------------------------------------
       n/av   BIRMINGHAM (BHX)..  ICTS & AAS........  Y.................  ICTS & AAS........  Y
----------------------------------------------------------------------------------------------------------------
       n/av   BERLIN (BER)......  Securitas.........  Y.................  Securitas.........  Y
----------------------------------------------------------------------------------------------------------------
       n/av   STUTTGART (STR)...  FIS...............  Y.................  FIS...............  Y
----------------------------------------------------------------------------------------------------------------
       n/av   COLOGNE (CGN).....  ADI...............  Y.................  ADI...............  Y
----------------------------------------------------------------------------------------------------------------
       n/av   HAMBURG (HAM).....  FIS...............  Y.................  FIS...............  Y
----------------------------------------------------------------------------------------------------------------
       n/av   HANNOVER (HAJ)....  FIS...............  Y.................  FIS...............  Y
----------------------------------------------------------------------------------------------------------------
\1\ Based on 1999 Int'l Airport Traffic Statistics from ACI.
\2\ As of October 2001.
\3\ These airports do not have centralized baggage screening, but airlines hire private companies to x-ray bags.
\4\ Public/private partnership underway.
\5\ Legislation proposed to permit public/private sector partnership.

    Source: Aviation Security Association

    The GAO visited five nations in 2001 to examine their security 
screening practices--Canada and four European nations (Belgium, France, 
The Netherlands, and the United Kingdom).\10\ Its report focused on the 
superior performance of the European airports, all of which use the 
performance contracting model. GAO reported significant differences 
between their screening practices and that of then-current U.S. 
airports in four areas:
---------------------------------------------------------------------------
    \10\ General Accounting Office, ``Aviation Security: Terrorist Acts 
Demonstrate Urgent Need to Improve Security at the Nation's Airports,'' 
Testimony of Gerald L. Dillingham before the Senate Commerce, Science, 
and Transportation Committee, Sept. 20, 2001.
---------------------------------------------------------------------------
        <bullet> Better overall security system design (allowing only 
        ticketed passengers past screening, stationing law enforcement 
        personnel at or near checkpoints, etc.);
        <bullet> Higher qualifications and training requirements for 
        screeners (e.g. 60 hours in France vs. 12 hours as then 
        required by FAA);
        <bullet> Better pay and benefits, resulting in much lower 
        turnover rates; and,
        <bullet> Screening responsibility lodged with the airport or 
        national government, not with airlines.
    Most of these lessons were incorporated by Congress into the ATSA. 
What was largely ignored, however, was the fact that under the European 
conditions of high standards and oversight, performance contracting 
(hiring private security firms, paying them adequately, and holding 
them accountable for results) is the model adopted by nearly all 
European airports over the past two decades. Israel and a number of 
other nations in the Caribbean and the Far East also use this model.
    Companies that do not meet the standards and perform effectively 
are not simply fined but actually have their contracts cancelled. Since 
these are typically long-term (e.g., up to six-year) contracts, losing 
such a contract is a serious loss of business, creating a strong 
incentive for high performance. Companies often bid on a whole package 
of security services, not just passenger screening, paid for via a 
single monthly charge. This avoids undue cost pressures being put on 
any one element.
    The alternative recommended here is not ``privatization''--which 
would be the case if all airports were required to use private 
contractors. Rather, it is devolution. The idea would be to remove 
TSA's conflict of interest by devolving the actual provision of 
screening to the airport level, which is where all other aspects of 
airport security (such as access control and perimeter protection) 
already reside. Airports would then have the option of complying with 
federal screening requirements either with their own TSA-approved 
screening workforce or by hiring a TSA-certified screening contractor. 
This approach has strong support among airport directors, and is also 
embraced by the leading congressional champion of TSA reform, Rep. John 
Mica (R, FL), chairman of the House Aviation Subcommittee. Mica has 
called for ``a decentralized screening program with federal 
oversight,'' citing the TSA's conflict of interest a case of ``the 
regulator regulating itself.'' \11\
---------------------------------------------------------------------------
    \11\ U.S. Rep.John L. Mica, ``Screening Reform,'' Aviation Week & 
Space Technology, June 6, 2005.

    B. Airport-Centered Security
    How would devolution work? As in Europe, the airport director would 
be in charge of securing the airport premises, under the supervision of 
the TSA Federal Security Director (FSD) assigned to that airport. I 
will discuss four key aspects a devolved model of airport screening.

    1. Make-or-Buy Authority
    The most fundamental aspect of devolution is that the 
responsibility for carrying out the screening of baggage and passengers 
would be shifted from TSA to each individual airport. And as with all 
other airport services, it would be up to the airport to decide how to 
carry out the screening functions. Like most businesses, airports 
outsource some services and perform others using their own paid staff. 
In the case of screening, as with other security functions, the 
operations would have to comply with all TSA requirements.
    But with TSA no longer being in the business of screening, its 
requirements would have to be reconfigured for the new circumstances. 
To gain the flexibility advantages that go along with devolution, the 
hiring and training of screeners should be devolved rather than being 
centralized in Washington and carried out by a national TSA contractor. 
Rather, TSA would provide training requirements and a core curriculum 
which could be used by airports, TSA-certified screening contractors, 
and TSA-certified screener training firms operating on a decentralized 
basis in various parts of the country.

    2. Funding Allocations
    Under current law, passenger and baggage screening are paid for by 
TSA, whether provided by its own workforce or by TSA-certified 
contractors. This funding would presumably continue under devolution, 
but in order to take advantage of the flexibilities provided by 
devolution, two key changes should be made in how the funding is done. 
First, the allocations should be made far more frequently than once a 
year; ideally every month but at least quarterly. This should be done 
in accordance with a transparent workload formula arrived at with 
significant input from the airport organizations, AAAE and ACI-NA. 
Second, each airport should receive a lump sum amount which it can use 
as it sees fit for TSA-approved screening operations.
    Why monthly allocations rather than the current more-or-less annual 
allocation? The idea is to better match resources with workload. As 
Tables 1 and 2 illustrated, today's dynamic, highly competitive airline 
industry is characterized by rapid change. USAirways downsizes its hub 
at Pittsburgh; JetBlue orders 100 new larger-size regional jets to add 
service to many smaller airports; America West and USAirways merge, 
very likely leading to further cutbacks at some airports; and one of 
more legacy carriers may well liquidate (Chapter 7 bankruptcy), leading 
to significant changes in service. With funding allocations adjusted 
every month among the 446 airports with screeners, and the local 
flexibility to increase and decrease staffing as needed, there will be 
a much better match of screening workforce to actual workloads.
    In addition to keeping funding in pace with passenger flow, the 
devolved system should leave the funds unencumbered by many of the 
current requirements. Currently, TSA screeners are paid on a national 
wage scale, regardless of local living costs. And TSA-certified 
screening contractors must, per ATSA, pay the identical wages and 
benefits to their screeners. While the intent of these provisions in 
ATSA was to prevent a return to minimum-wage screeners with high 
turnover, that was a brute-force solution to a problem caused by the 
lack of FAA standards for screener selection, training, and 
performance. With hiring and operations under the control of each 
airport, the airport or its contractor should be free to innovate, 
using whatever mix of job functions and compensation approaches will 
best get the job done, while meeting all TSA training and performance 
standards. Thus, especially at smaller airports, the same employee 
might do passenger screening during peak morning hours and do access-
control or perimeter patrol during the remainder of her shift. Some 
airports (or their contractors) might develop workable split-shift 
approaches to cover morning and afternoon peaks without paying for a 
lot of unproductive time in between. The point is to let airports and 
their contractors decide on the best use of the screening money, to get 
the most bang for the buck.

    3. Incentives for In-line Baggage Systems
    The imposition, in ATSA, of extremely tight deadlines for 
implementing 100 percent explosive-detection inspection of all checked 
baggage also led to brute-force solutions. Large and medium airports 
mostly installed huge EDS machines in their ticket lobbies or in 
available spaces in their baggage areas; in either case, they had to be 
loaded by hand, one bag at a time. Between the inherently slow 
processing time and this hand-feeding, processing rates were often as 
low as 100 bags/hour. Hence, in order to prevent massive delays, large 
numbers of $1 million apiece EDS machines were required. Smaller 
airports were equipped mostly with explosive trace detection (ETD) 
machines as their primary means of compliance with the inspection 
mandate; in addition, thousands of ETDs were installed at large and 
medium airports for secondary screening of bags identified as 
suspicious by EDS. As of June 2004, some 1,228 EDS and 7,146 ETD 
machines had been installed at U.S. airports.\12\
---------------------------------------------------------------------------
    \12\ Government Accountability Office, ``Airport Security: 
Systematic Planning Needed to Optimize the Deployment of Checked 
Baggage Screening Systems,'' GAO-05-365, March 2005.
---------------------------------------------------------------------------
    These brute-force approaches are very labor-intensive. If EDS 
machines are integrated into a conveyor-fed baggage processing system 
(in-line system), and especially if go/no-go assessments are made at a 
remote display terminal (on-screen resolution), the bag processing 
rates go way up and the labor involved goes way down. The latest GAO 
report on the subject finds that under ideal conditions, an in-line EDS 
system can process 425 bags/hour compared with 180 bags/hour under 
ideal conditions for stand-alone EDS. And replacing an ETD operation 
with stand-alone EDS changes throughput from 36 bags/hour to 180 bags/
hour.\13\
---------------------------------------------------------------------------
    \13\ Ibid.
---------------------------------------------------------------------------
    The savings in labor are equally impressive. According to the GAO 
report, a typical lobby-based EDS installation has one EDS plus three 
ETDs, requiring a workforce of 19 screeners. This can be replaced by an 
in-line EDS requiring just 4.25 screeners--a 78 percent reduction. For 
the nine large airports that have implemented in-line systems, TSA's 
retrospective analysis found a reduction in bag screeners and 
supervisors of 78 percent. Similar GAO calculations analyzed replacing 
a 3 to 5-unit ETD installation with one stand-alone EDS plus one ETD 
for alarm resolution. The former would require 12.3 to 20.5 screeners, 
while the latter needs only 6.75. If we take the intermediate case of a 
4-unit ETD installation, the reduction in staff from 16.4 to 6.75 is 59 
percent.
    Because of numbers like these, several airports that have switched 
from stand-alone, lobby-based EDS to in-line systems with on-screen 
resolution have reported a payback period of little more than one year. 
TSA's analysis of nine airports shifting to in-line system reached a 
similar conclusion, the GAO reported. In other words, the one-time 
investment in in-line EDS quickly pays for itself in reduced payroll 
costs. (It should be noted that GAO's review of TSA's aggregated 
analysis found that the results held true for eight of the nine 
airports; modification costs were so high at Seattle's SEA-TAC that 
there were no net cost savings from the conversion.\14\)
---------------------------------------------------------------------------
    \14\ Ibid, Appendix IV.
---------------------------------------------------------------------------
    If the screening funds were devolved to airports as proposed above, 
it would clearly be in an airport's interest to finance the investment 
in new screening systems so as to achieve these ongoing savings. And 
once the costs of the equipment and facility modernization were paid 
off, the savings could be used for other security improvements, such as 
more passenger screening lanes and screeners, if needed. Over time, as 
overall screening costs came down, smaller annual allocations from TSA 
would be needed, thereby producing federal budget savings.

    4. Liability
    One of the issues that have held back many airports from 
participating in the post-November 2004 Screening Partnership Program 
is liability. With TSA as their provider of screening services, if a 
terrorist incident having any connection with passenger or baggage 
screening occurs at the airport, then TSA is the party most likely to 
be at risk for lawsuits. But if the airport opts for a TSA-certified 
contractor, and such an incident occurs, there has been concern that 
the airport might be at greater risk for not having gone with the 
standard approach.
    This liability issue arose first in connection with EDS machines 
and other technologies needed in security protection. In response, 
Congress passed the Support Anti-terrorism by Fostering Effective 
Technologies Act, better known as the SAFETY Act. It provides a process 
by which companies providing homeland security technologies or services 
can become certified by DHS and win a limit on their liability. 
FirstLine and Covenant, two of the leading private screening companies, 
have recently received this designation.
    However, if TSA withdraws from the provision of screening services 
and this function is devolved to airports, the same liability concern 
may arise. Under that new set of alternatives, it would maintain more 
of a level playing field between in-house and contracted screening 
services if airports were made eligible to receive the same extent of 
SAFETY Act protection as designated screening companies.

    Summing Up: Benefits of Reform
    I have argued for two basic changes in the model of airport 
security that has been employed in the United States since the passage 
of the ATSA legislation in 2001. Those changes are (1) to remove the 
TSA's conflict of interest by making it the policy-maker and regulator, 
but not the provider, of airport screening; and (2) to devolve 
screening responsibility to the airport level, under the supervision of 
TSA's Federal Security Director in each case.
    Those changes would improve airport security in several ways. By 
making all on-airport security functions the responsibility of the 
airport, this approach would lead to a more integrated approach, with 
the FSD supervising everything. Removing TSA's conflict of interest, 
and making the airport responsible for all aspects of security (as in 
Europe) should also increase accountability for results.
    This approach should also produce meaningful savings in annual 
payroll costs for screening functions, as well as permitting a shift of 
screeners from baggage to passenger screening. The net savings will 
free up scarce airport security resources for other needs such as lobby 
security, access control, and perimeter control. Over time, those 
savings at airports may permit TSA and DHS to spend relatively more on 
protecting vital non-aviation infrastructure.
    This concludes my presentation. More details on this subject will 
be available this fall, when Reason publishes the policy study on which 
these comments are based.

    Mr. Lungren. I thank you.
    I thank all of you for your testimony. This is a very 
interesting subject and one that many Members have a personal 
interest in.
    At this time, I have several questions I would like to ask.
    Mr. Bennett, Mr. Martin, Mr. DeCota, Mr. Brewer, I take it 
from your testimony that no one objects to a continuation of an 
opt-out program, although you might question whether you want 
to get in it now, Mr. Brewer or Mr. DeCota? But if there were 
to be a continuation, you would all like to see some changes, 
is that correct?
    Mr. Martin, since you seem to be operating a fairly large 
airport operation that has the private screeners, in your 
particular circumstance, do you think that you would see a 
different level of service if you were not in the opt-out 
program right now?
    Mr. Martin. It depends. I have great confidence in our 
current federal security director. I think he would do a good 
job if we converted to a federal workforce.
    But based upon my 10 years as director and 25 years at the 
airport, I have seen over time the way Immigration and Customs 
staffs were very short staffed in the 1980s and 1990s and there 
were periods where we had terrible lines in the Customs 
processing for that reason.
    So there is an inherent distrust that I have of a federal 
agency's ability to maintain adequate staffing and, at times, 
the real commitment to customer service.
    Mr. Lungren. You referred to your airport as utilizing a 
technology-based system. Are you suggesting that you use 
technology more than the other airports do?
    Mr. Martin. I am. Before 9/11, before TSA was even in 
operation, we made a decision to go with a full in-line 
operation in our international terminal and we were proceeding 
with that by October of 2001. We now have a full in-line system 
airport-wide.
    All of the images from the in-line CTX 9000s are viewed 
from a multiplexing room, at one remote center. The images are 
either cleared or if they are not cleared, the bags are routed 
to a room to the back to be opened, where the people who are 
opening the bags can see an actual image of what the suspicious 
item is.
    That system overall, this in-line system, has been the most 
important thing in reducing the level of staffing. And we found 
a pay-back period based upon that reduced staffing of about two 
and a half years, given the capital costs.
    Mr. Lungren. So who paid for the capital costs?
    Mr. Martin. TSA. TSA covered about 60 percent--TSA and FAA 
covered about 60 percent of the costs; about 40 percent by the 
airport.
    Mr. Lungren. But you were arguing that the labor cost 
savings over time paid for it?
    Mr. Martin. Given the labor cost savings, there is about a 
two-and-a-half-year pay-back period. And based upon the 
analysis my staff has done, we think at a national level, it is 
probably a 3-to 4-year pay-back period.
    Mr. Lungren. If you didn't have that in-line system, would 
you believe that your opt-out system would be beneficial as 
opposed to the other government employee system?
    Mr. Martin. We still see benefits. The level of sick time 
usage, of worker's comp, is much lower at our airports than 
nationally.
    The contractor has employed baggage handlers to do the 
heavy lifting of bags rather than using a generic job 
classification. And that certainly has reduced the workers--
    Mr. Lungren. Would you explain that a little bit?
    Mr. Martin. Generally, I believe the TSA uses one 
classification of employees both to screen passengers and also 
to lift the bags in the areas where the CTXs are. And many of 
those personnel are not appropriate to lifting the heavy bags, 
resulting in a lot of worker's compensation claims.
    What Covenant has done is hired a lot of former airline 
baggage handlers to perform the heavy lifting of the bags.
    Mr. Lungren. Is there a different rate of pay for the ones 
who actually are the lifters versus the screeners?
    Mr. Martin. I am sorry, I don't know.
    Mr. Lungren. But you have seen savings with respect to 
worker's comp.
    Mr. Martin. Worker's comp and a lower level of sick-time 
usage.
    And in general more creativity in the training and the 
hiring process than we think the TSA would have. And the 
contractor has been very productive in working as a team 
member, for instance in putting in place our security command 
center to monitor the lines at all the checkpoints through a 
camera system and then redeploying staff based on the length of 
the lines.
    Mr. Lungren. Mr. DeCota, you mentioned that you have a very 
good relationship with TSA. I am very pleased to hear that, and 
that you have regular communications and so forth.
    What about the question of flexibility? Mr. Martin has 
suggested that just that simple little issue of having the 
people who are lifting the bags different than the screeners 
has actually been a benefit. Is that flexibility allowed in the 
process that you have?
    Mr. DeCota. I have not seen the flexibility in my process, 
but I have not also seen that flexibility nested within what I 
understand the opt-out program works.
    I know he has some flexibility because he has 100 percent 
in-line system. At my airports, there are no in-line systems. 
There will be one when the new American Airlines terminal opens 
at the end of next month. There will be a second after we have 
reconfigured Newark's Terminal B, which is a 1973 terminal. We 
are spending about $300 million to modernize that terminal and 
in that we will undertake the expenditure for in-line on our 
own.
    But right now, we have the same rigid categories, we have 
the same rigid, inflexible--Washington, D.C., is where we get 
our staff from. Our FSD does not have the flexibility to do his 
own hiring, recruitment. The training programs are all passed 
down from Washington.
    So right now, we have the issues of absenteeism 
particularly with training, vacation scheduling and injuries as 
Mr. Martin described, because it is the baggage handlers. And I 
don't see how any of that changes under the Screening 
Partnership Program.
    Mr. Lungren. Thank you, Mr. DeCota.
    The Chair recognizes the Ranking Member of the 
subcommittee, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being before us today. As you 
can quite imagine, many of us, especially if we live in 
California and work in Washington, D.C., get to go through a 
lot of airports. And I think I have been through all of yours, 
probably most of them in the last month.
    And I have found, my personal experience has been, 
regardless of who is working, whether it is a contractor or it 
is the TSA, that the difference with respect to what happens at 
the screening area is the training of the personnel.
    In other words, if I go to an airport on Monday and I have 
good people who are trained and understand what is going on, I 
get through pretty fast. If I have people who are just being 
trained--there is a lot of on-the-job training going on, too, 
at the same time that we are going through--you can be 20 or 30 
minutes.
    The other day, I think I was at SFO and my purse--this one, 
to be exact--went through and I went through and then it was 
stopped. And it was opened up, and it was looked at. And then 
it was put through the machine again. And then it was stopped, 
and it was opened up, and it was looked through. And then it 
was taken apart and put in a bin and looked through again.
    And the third time it was put through as I sat there 
looking at the process, my wallet was being given away to 
somebody else because it happened to be in a bin beside my 
purse. And, of course, I was pulled aside. So I had to, sort 
of, signal and tell them, ``No, no, no, that stuff is mine.''
    And I took a good look. I also talked to a lot of the 
personnel as I go through. Some of them recognize me, some of 
them don't. But the training, I think, is very, very vital.
    So my question to you, Mr. Martin, is what do you think of 
the training that is going on with respect to non-TSA or 
contracting, sort of, people versus the training that the TSA 
people are getting? Do you see differences in that?
    Mr. Martin. Well, first, I agree that training is the most 
important thing for all the screeners. And I do not think that 
there is a big difference, if any difference, between the 
training that is being provided for Covenant employees versus 
federal screeners. And I know our federal security director is 
very involved in that, overseeing the training program that 
Covenant has in place.
    Ms. Sanchez. So does training to the individual contracting 
employees come from the TSA or from the same source that trains 
the TSA people?
    Mr. Martin. It is provided by Covenant, but in accordance 
with TSA standards and monitored closely by the TSA.
    Ms. Sanchez. I have a question for Mr. Martin again; he had 
some very interesting testimony.
    You said that one of the differences you think you saw was 
recruiting, hiring and managing, which was more difficult under 
TSA, you thought, maybe was getting better done, there were 
more people being hired, faster, et cetera.
    One of the problems we had when we had private companies, 
before we went to TSA, was that the background checks weren't 
being done, or they weren't being done correctly, and we had 
felons, we had domestic violence warrants out on some of these 
people, we had people, quite frankly, that weren't supposed to 
be in our country.
    Do you think if we went to SFO today and pulled all those 
people who work for the contracting company and pulled them 
off, do you think we would find any of this stuff in their 
background?
    Mr. Martin. Those employees are all subject to the same 
background checks as the TSA employees.
    Ms. Sanchez. But that is not what I asked you. I said, do 
you think if I pulled off your employees, the contract 
employees, would we find these types of things in their 
background?
    Mr. Martin. I don't think we would, because all of those 
employees have had the background check process completed.
    Ms. Sanchez. So the background check process completion was 
done by the TSA for those contractors or the contractors 
themselves signed to the effect that they checked their 
backgrounds and everything?
    Mr. Martin. The employee information is provided to the 
TSA, and I believe they then work with another federal agency 
that runs the background check.
    Ms. Sanchez. So are you trying to tell me that, whether you 
are a private company with employees or whether you are the 
TSA, basically your background checks and everything are being 
done by the same people?
    Mr. Martin. That is right.
    Ms. Sanchez. Okay. So we are not really changing the 
process in that.
    So the other difference you think is, what; that the people 
are getting hired faster by management so they go through that 
process? Because you said, the difficulty with TSA was that you 
saw recruiting, hiring and managing worse off in the TSA levels 
than you saw in the contractors.
    Explain to me where the differences are that you saw.
    Mr. Martin. Of course, we never had TSA employees 
performing the screening, but I saw that with the Customs and 
Immigration over time in the 1980s, the 1990s.
    Ms. Sanchez. Okay. So you didn't see a difference between 
TSA employees and what you have got now.
    Mr. Martin. I haven't had that opportunity because I have 
only had private contract employees.
    Ms. Sanchez. Thank you.
    Mr. Lungren. Mr. Pearce is recognized for 5 minutes.
    Mr. Pearce. Thank you, Mr. Chairman.
    Appreciate the testimony by each of you.
    Mr. Martin, do you all track your costs in dollars per 
person screened? Do you have any performance measures of your 
own internally?
    Mr. Martin. I don't.
    I know that the federal screening director meets weekly 
with Covenant to monitor the performance and has very exacting 
standards. And I personally have seen that as one of the 
benefits of the program, is the federal screening director is 
able to spend their time on maintaining the assessments of the 
program and the broader security issues, rather than dealing 
with just the human resources issues.
    Mr. Pearce. I may have been a little bit too tight on the 
question. The parameters maybe not in your hands, but they 
exist on the part of the contractor, and then a federal 
employee comes in and, kind of, looks over those data.
    Mr. Martin. They do. And those standards do exist under the 
TSA's guidance, and those are the factors that determine the 
amount of bonus, if any, that Covenant receives.
    Mr. Pearce. Do we measure wait times also?
    Mr. Martin. Yes.
    Mr. Pearce. I have not seen those objective screening 
goals.
    Mr. Poole, I think it was you who said that we have spent 
$5.5 billion and basically haven't improved the capability of 
the public to know that they are somewhat protected from 
dangerous objects. Can you explain that just a little more?
    Mr. Poole. That statement was based on the recent reports 
this spring from the DHS inspector general and the GAO. And 
details were in the classified version of the reports, which I 
have not seen, but the broad conclusions were discussed on the 
floor of Congress, particularly by Chairman Mica of the 
Aviation Subcommittee, saying that the performance is measured 
by teams that come in and try to sneak prohibited items through 
the checkpoint. The rate of those things being successfully 
detected today apparently are no better than they were at the 
time TSA was created.
    And so that means you really have to question what are we 
getting for the very large expenditure we have made on keeping 
dangerous objects off of planes.
    Mr. Pearce. So then these are not your personal 
observations, but those that you have gleaned from the GAO 
report.
    Mr. Poole. That is correct.
    Mr. Pearce. Thank you.
    Mr. Martin and Mr. DeMell, you both mentioned that you have 
screening control centers, screening operation centers, that 
monitor checkpoint lines to adjust staffing levels.
    First of all, are you aware that the TSA is doing that at 
any of the airports under their control? And is this technique 
just characteristic of your own operations, or do you see them 
among other private operations?
    Mr. Martin. I am not aware of other airports that have such 
a system in place. Our operation is staffed by both TSA and 
Covenant employees, and it was very much a partnership program 
between all three organizations.
    Mr. Pearce. Mr. DeMell?
    Mr. DeMell. In our particular case, our operations center 
shows the actual movement of screeners by name, by function, in 
real-time. It is available not only to our staff in the control 
center, but to our FSD in his office. He can watch in real-time 
people being moved from one checkpoint to another.
    Mr. Pearce. If you have a surge of passengers today that 
didn't exist tomorrow, how do you get people off--how do you 
get them to work if you are doing this flex staffing, how do 
you get them in and on the floor?
    Mr. DeMell. We have a zonal staffing approach. We don't 
staff by checkpoint, we staff by zone.
    Mr. Pearce. But what if all of your zones get hit with a 
rush at once? Do you have the capability to respond?
    Mr. DeMell. We have the capability to move those people 
immediately.
    Mr. Pearce. Do you forecast tomorrow's flight schedules at 
all? Do you try to anticipate what tomorrow's load is?
    Mr. DeMell. Our schedules are done a week at a time and 
reviewed daily.
    Mr. Pearce. How do you determine the staffing levels a week 
ahead? The TSA tells me they can't do it for privacy concerns. 
And I said, just call up and ask if there are any seats left on 
the aircraft going to different towns. That will tell you. When 
I call the travel agent, they can tell me, ``You haven't got a 
prayer of getting on any plane all day long,'' or, ``Yes, all 
the seats are empty tomorrow.''
    Mr. DeMell. The TSA provides us with--
    Mr. Pearce. I don't want you to say anything that is going 
to cause you to go to jail. Be careful.
    Mr. DeMell. The TSA provides us with those passenger loads, 
which are provided by the airlines themselves. That is the only 
information we have to work with, so that is what we have to 
deal with.
    Mr. Pearce. Okay. You generally are able to adapt and keep 
your wait times down pretty low.
    Mr. DeMell. I think that is evident by all the studies that 
have been done. I think there is only one airport in the 
country that has lower wait times than our airport.
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Lungren. The gentleman, Mr. Thompson, Ranking Member of 
the full committee, is recognized for 5 minutes.
    Mr. Thompson. Thank you very much. It has been interesting 
testimony so far, Mr. Chairman.
    As I look at the title of the hearing, which is, 
``Improving Management of the Aviation Screening Workforce, 
``two of--Mr. Martin and Mr. DeMell have a relationship from a 
private standpoint.
    Mr. Martin, you talk about the baggage handlers and 
checkpoint screeners in this kind of situation. Do you know 
whether or not the rate of pay for these individuals equals or 
is near what TSA was paying people?
    Mr. Martin. I do not know that. I know that either it is 
comparable, but I don't know whether it is slightly above or 
slightly below. But it is very much comparable to what TSA 
screeners I know are getting paid in Oakland and San Jose.
    Covenant also provides bonuses to employees based on 
performance level.
    Mr. Thompson. Can you provide us with average payroll 
information you have access to on that contract so the 
committee can look at it and make some determination also?
    Mr. Martin. I will do that.
    Mr. Thompson. With respect to the Kansas City contract, is 
your rate of pay commensurate with what TSA was paying?
    Mr. DeMell We are required to provide a pay scale that is 
equal to or exceeds that which the TSA pays. And that is the 
total pay package to include the benefits package.
    Mr. Thompson. Now, that is in your contract?
    Mr. DeMell. Correct.
    Mr. Thompson. As you know, and I know you know, you are 
involved in an organizing dispute with the workers there. Could 
you provide us why you think workers shouldn't have the right 
to organize?
    Mr. DeMell. The decision really isn't mine, Mr. Thompson. 
The edict was issued by the TSA.
    And our only position is that if security is, in fact, an 
issue, that our airport should operate under the same auspices 
as any other airport in the country.
    Mr. Thompson. Well, since you have mentioned TSA, can you 
provide us with that edict that TSA told you that workers could 
not organize?
    Mr. DeMell. They didn't just tell us, it was a public 
statement. But, yes, we can provide that.
    Mr. Thompson. I would love to have that because, obviously, 
I think?
    Mr. DeMell. The heart of the matter.
    Mr. Thompson. That is not correct but I would love to see 
that point.
    The other issue for Mr. DeCota, can you tell me whether or 
not TSA has provided your operation with the latest technology 
in screening and what have you, or are we still dealing with 
2001 technology and, obviously, we are a long ways from that? 
Can you share on that?
    Mr. DeCota. Yes, I appreciate the question, Congressman.
    I guess, given that we have 17 terminals and given that 
they are serving a 100 million passengers, there is quite a 
different patchwork of equipment that we have at each of our 
airports and at each of our terminals.
    The equipment we have fully meets the requirements of the 
law to electronically screen all passengers and baggage. We 
have early stage EDS machines. We have explosive trace 
detection machines, which take up a lot of room in lobbies and 
use card tables and swipes. And so we have that.
    We have some of the newer EDS machines, such as the CTX 
9000s and the new L-3 machines. We are fortunate that we have 
recently begun to receive some of the newer technologies, 
Reveal's CTX-80 machines. We just announced the other day at 
Newark Liberty International Airport we have now received some 
of the new explosive detection system portals, where people 
walk through the puffer machines. And so we are now going to 
get some of those.
    So we do have some of the new equipment, but we clearly do 
not have new equipment like that in every single terminal that 
we operate. So there is a different level of screening that 
passengers are being subjected to depending upon where and 
when.
    Mr. Thompson. Well, Mr. Brewer, can you tell me whether or 
not your experience with TSA and technology has been one where 
you had to bring the technology to TSA and say, ``Look ,people, 
we can do it a better way. We can do it cheaper than what you 
are suggesting''? And if so, what was your experience?
    Mr. Brewer. Well, actually, thank you, Congressman.
    We have worked very, very closely--we have an excellent 
working relationship with TSA, both on a national basis and 
with the local federal security director.
    We were the first airport in the nation to receive this 
puffer explosive detection for persons walking through the 
checkpoint. And we had that late last year, and that is now 
being deployed.
    We have also been a test site for some of the biometric 
employee credentialing, of the first 10 in the country to be 
able to have a pilot program for that.
    We were, as every other airport in the nation, meeting the 
requirement to have all bags that went in to checked luggage--
into the hold of the aircraft checked for--explosive detection 
by electronic means by December of 2002. All the equipment that 
we have in Providence was there in 2002.
    We were also one of the first airports in the country to 
get the new screening checkpoint X-ray machines that use the 
threat image projection. Those were things that the TSA had in 
the pipeline.
    And in my testimony, my issue wasn't so much that TSA has 
technology out there. There is always new technology being 
created. My issue is that it is so painstakingly slow to get it 
introduced into airports.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Lungren. I thank the gentleman.
    Mr. Pascrell is recognized for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. DeCota and panelists, welcome to the hearing.
    I have a question for you, Mr. DeCota. TSA reports that the 
screeners intercepted over 3,300,000 prohibited items at 
security checkpoints between October of 2004 and March of 2005 
at Newark airports including knives, explosives, fireworks and 
a lot of other assorted things.
    Among the top performers, Newark Liberty International 
Airport was at the top of detecting these things in the entire 
country. It achieved a 97 percent accuracy rate with its over 
1,200 screeners.
    You and I both know, and have oft thought about it, that 
Newark Airport has had negative press, a lot of problems for a 
variety of reasons. So I welcome this news.
    I want you to account for Newark's turnaround.
    Mr. DeCota. Thank you, Congressman.
    Since we do work, as I said, very closely with the FSDs at 
each of our airports our understanding at Newark and I think we 
are seeing similarly good experiences at the other airports 
that we have.
    But the management at TSA has really stepped up their 
discussions with their screeners in reinforcing standard 
operating procedures in terms of what needs to be done. They 
are also doing much more frequent evaluations of screeners in 
their evaluations and assessments so that they can get more 
rapid feedback so that it is reinforced back in the minds of 
the screener in terms of what the expectation.
    The TSA has been using screeners at Newark Liberty 
International Airport and our other airports that have very 
good performance to augment the screening workforce.
    And so therefore, people are being trained by the best of 
their own peers. And so that is a little bit of a two-edged 
sword because we are taking some of the best screeners off the 
line to train but at the same time, the train the trainer 
program seems to be working very effectively, as you described.
    Mr. Pascrell. Let me ask you this question: Are you looking 
at different characteristics before you hire an individual to 
be a screener?
    Mr. DeCota. All of the hiring is done specifically by the 
TSA. My understanding is that they do have very, very specific 
characteristics the way we have characteristics for hiring 
people in customer service jobs. I don't know what their 
characteristics are that they actually--
    Mr. Pascrell. You mean you don't communicate with them as 
to what they are looking for in individuals? I mean, is this 
top secret? Is this another redacted report? How do you know 
what is going on if they are not telling you?
    Mr. DeCota. I would have to ask, for instance, in my case, 
the Newark Liberty International Airport, Susan Baer, the 
general manager. She has the day-to-day relationship with the 
TSA.
    I would not imagine that that would be a secret. I am sure 
the type of vigilance that is required to be a TSA person, the 
type of traits and characteristics wouldn't be as secretive, 
but I just don't personally understand--
    Mr. Pascrell. Well, I am looking at the numbers at Newark. 
I am looking at the numbers from the rest of the airports 
around the country. I wonder if it makes sense to you, since 
you are here testifying, that we make a special effort, because 
of their qualifications, to hire former law enforcement 
officers, which I have been talking about for 2 years. What do 
you think about that idea?
    Mr. DeCota. Law enforcement officers certainly possess the 
types of traits that are required in these kinds of positions. 
I would assume that they could be potential candidates, even 
under the TSA structure.
    I assume that what you are referring to specifically would 
be using law enforcement officers perhaps under a contract 
basis, not unlike, perhaps, opt-out, but, sort of, a lesser 
form of that. We would have no problem with that. I think that 
our experience with our own law enforcement officers have been 
extremely good.
    Mr. Pascrell. Law enforcement officers are trained not only 
to work with the state of the art, taking advantage of the 
science and technology that is available, but law enforcement 
officers, more importantly, are taught how and what to look for 
and to look in somebody's eyes. They are very, very efficient 
in this.
    It would seem to me there are so many, because folks are 
retiring earlier, after being pushed out of force. That has 
good and bad effects. I think that we should take advantage of 
that.
    I have one more question, if I may, Mr. Chairman.
    TSA announced that the nation's 45,000 screeners would be 
relocated. You are going to lose 39 screeners at Newark and 162 
screeners at JFK and 76 at LaGuardia.
    What impact do you believe this change in the screener 
resources will have on the wait lines, as well as the safety, 
more importantly, at the airports?
    Mr. DeCota. Well, as Mr. Bennett's testimony also provides, 
we believe that longer wait lines are directly a safety issues, 
that they are very much tied to each other, that it creates a 
very difficult vulnerability situation.
    I think the reduction is serious in terms of the kinds of 
impact that it is going to have on us in terms of wait lines.
    Mr. Pascrell. Have you had a good relationship with the 
airlines in terms of moving the lines? Are we sacrificing 
safety at Newark, at LaGuardia, at Kennedy because the airlines 
don't like these long--nobody likes long lines. I don't know 
who does.
    But are we sacrificing safety to move the folks along 
through these lines?
    Mr. DeCota. Not that I have seen, Congressman. Every 
passenger is subjected to the exact same types of checks that 
have been prescribed by the TSA.
    Up until now, our wait times that exceed 40 minutes have 
been extremely minimal. We are really trying to enforce the 10-
minute standard on the TSA, even though that is not an official 
TSA standard anymore.
    The mistake right now that we think the TSA has made in the 
calculation of screeners that you describe, where I am going to 
lose screeners, is that some of the assumptions as they have 
looked at arrival distributions, passenger and bag throughput, 
flight schedules and volume, also include assumptions like 65 
percent load factors. We don't have any airlines that have 
only--
    Mr. Pascrell. And finally, do you agree or disagree with 
the reduction in the amount of screeners at these airports?
    Mr. DeCota. Very much disagree.
    Mr. Pascrell. Have you expressed that to TSA?
    Mr. DeCota. We have had that discussion locally. I think 
the next step would be to elevate that to Washington.
    Mr. Pascrell. Mr. Chairman, thank you.
    Mr. Lungren. Happy to give the gentleman an additional 
question.
    Mr. DeFazio is recognized for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Martin, before 9/11, I remember San Francisco had the 
lowest rate of screener turnover because you had something 
called the living wage, isn't that right? Your screeners were 
paid much more than the other minimum wage screeners across the 
United States.
    Mr. Martin. That is correct.
    Mr. DeFazio. So you started, sort of, with that base. How 
do the wages now compare to the living wage that was paid 
before?
    Mr. Martin. They are I think about $4 an hour higher than 
the wages paid before.
    Mr. DeFazio. Okay. And you believe they are comparable to 
the federal wages.
    Mr. Martin. Yes, they are comparable to the federal wages. 
I am sure of that. I just don't know--
    Mr. DeFazio. Okay. How about health care, is that 
comparable to the federal program?
    Mr. Martin. Health care is comparable as well.
    Mr. DeFazio. And how about retirement?
    Mr. Martin. I don't know about retirement.
    Mr. DeFazio. Because I am just wondering how the company 
makes a profit if they are paying the same as the federal 
government and the federal government isn't paying more for 
your security than they would pay if they were installed there 
as public screeners without the profit added on.
    Mr. Martin. I can't tell you that.
    Mr. DeFazio. Can't tell me. Okay.
    I am really curious about this liability exemption. You 
have total confidence in Covenant and the work they are doing, 
is that correct?
    Mr. Martin. I believe they are doing a good job.
    Mr. DeFazio. Okay. Then why do you want such a broad 
indemnification for liability?
    Mr. Martin. The concern is that if there were ever a 
terrorist incident that originated at SFO, that the plaintiffs' 
attorneys would look at as many persons as possible to go after 
money and who had the deep pockets. And our concern is?
    Mr. DeFazio. I understand that. Excuse me; I don't have a 
lot of time.
    But my understanding is you want an indemnity that would 
apply to all claims for liability, even beyond the terrorist 
acts. I mean, the terrorist issue I will get into in a minute, 
but you want indemnification for other actions of these 
contractors.
    Mr. Martin. We do. And it is the standard we require all of 
our own contractors to comply with, both for services they 
provide to us and--
    Mr. DeFazio. How about if they just indemnify you? Why 
should the federal government indemnify you for a private 
contractor for their negligence that isn't a terrorist act? We 
will get to the terrorist act in a minute.
    Mr. Martin. Congressman, we only want the contractor to 
indemnify us. And we want TSA to require the contractor to 
indemnify us.
    Mr. DeFazio. Okay. All right. You want the contractor to be 
required by TSA to indemnify you.
    Well, then I would ask the gentleman from FirstLine, have 
you indemnified your airports?
    Mr. DeMell. We have not.
    Mr. DeFazio. Okay. Have they asked you for that?
    Mr. DeMell. They have not.
    Mr. DeFazio. Okay. Would you do that if--
    Mr. DeMell. If we received full protection under the Safety 
Act, we would.
    Mr. DeFazio. Well, wait a minute. But what is your 
liability limit now? I understand that--
    Mr. DeMell. $500 million.
    Mr. DeFazio. $500 million. So you carry $500 million in 
coverage. And is that for terrorism or--
    Mr. DeMell. Terrorism.
    Mr. DeFazio. Okay. What about other actions?
    Mr. DeMell. We are insured against any other claim against 
the airport that would result from negligence in passenger 
screening, lost items, damaged items.
    Mr. DeFazio. So in a sense, you have indemnified them, sort 
of, on other than terrorism?
    Mr. DeMell. Other than terrorism, we follow what is 
required by the TSA.
    Mr. DeFazio. But they haven't required exactly what he is 
asking for here?
    Mr. DeMell. I am not exactly sure exactly what he is asking 
for. So I really can't comment on that.
    Mr. DeFazio. Okay. Right.
    I guess I am still puzzled by this. You can have TSA and 
you wouldn't have any worry--right?--because it is the federal 
government.
    Mr. Martin. I simply don't want any liabilities for the 
decision to have opted-out. And I believe that it is--
    Mr. DeFazio. But aren't there consequences for decisions? I 
mean, you know, you want to opt-out. You don't want to have the 
federal screeners. You want to push that agenda until we have a 
kind of mixed match system.
    At some point you have got to say, ``Well, gee, we are 
going to have to go out and acquire some insurance here, 
because we want to have the private contractor, not the federal 
employee.''
    Mr. Martin. I am prepared to do that. We would prefer to 
stay in the opt-out program, but we are perfectly prepared to 
use federal screeners and I believe with our federal security 
director we can make that work.
    But we simply must have those protections. And they are 
simple to provide. We get these from our contractors all the 
time.
    Mr. DeFazio. Well, they are simple to provide, except from 
the perspective of someone who represents federal taxpayers. 
What obligations are we piling on to federal taxpayers so a 
private company can make a profit, so you can have a private 
company in your airport?
    Let's go beyond that. On the issue of the technology now, 
you don't have--I think we had one person say that you had the 
puffers at Rhode Island.
    Does anybody have the walk-through portals that somebody 
mentioned privacy concerns about, the backscatter?
    Mr. Martin. No.
    Mr. DeFazio. Have you had those?
    Mr. Martin. No.
    Mr. DeFazio. Okay. Who do we expect is going to provide--
say, in the case of San Francisco, you don't have either of 
those. You don't have the puffer walk-through or the 
backscatter portal or the enhanced screening for the passenger 
checkpoints. You are still using 1970s technology.
    Part of the problem I will get to, Mr. Poole, in a second.
    But who do you think is going to pay for that? The feds pay 
for the in-line EDS. Should the feds pay for the enhanced 
equipment at passenger checkpoints when you have a private 
contractor?
    Mr. Martin. I believe that is a federal responsibility.
    Mr. DeFazio. Okay. So the feds pay for the equipment. We 
bring in the private contractor. We indemnify them. We 
indemnify you. They make a profit. People probably don't get 
quite as good pay benefits and/or insurance, otherwise it just 
doesn't quite all add up. So I am just having a little problem 
with that.
    But, Mr. Poole, you shouldn't quote things that you don't 
know. I have seen the classified reports. I have been involved 
in this issue. I introduced a bill in 1987 to enhance 
checkpoint screening, because I was appalled at what I learned 
at the time, which is since well-known: They couldn't find, a 
large percentage of the time, a fully assembled .45 caliber 
handgun encased in Lucite in a bag that could contain no more 
than two pieces of clothing. That was state of the art in 1987.
    So I introduced my first bill back then. And I fought this 
issue for years, but it was always, the airlines pay for it? 
They didn't care about security.
    So we went all the way up to 9/11 under that sort of 
circumstance, with some improvements over the years because of 
federal oversight and federal pressure. But, still, it was a 
problem.
    I can tell you, without getting into classified stuff, that 
the tests that were conducted pre-9/11 compared to the tests 
post-9/11 are totally different and much more sophisticated 
challenges to the system.
    So for Mr. Mica or anybody else to falsely equate the level 
of detection and security--although it nominally may look the 
same, in actuality, it is very different because you are 
dealing with very different sorts of threat items and test 
protocols than you did prior to 9/11.
    And if you would go further in that report, they say, We 
have reached a cap in performance, we have got good people and 
they can't do better until they have technology that is after 
1980.
    And whether we have the private companies or the public 
screeners, they are dealing with junk that we threw out in the 
lobby of this building more than a decade ago because it was 
inadequate to meet the threats against members of Congress and 
it was slow--also, because it is like, Sir, there is something 
in your bag. Can I stop the line? Can I have an extra employee 
standing here? Can that extra employee walk all the way back 
down, stick the bag in a different position on the line, put it 
through again, so I might look at it? Yes, you can certainly do 
that. Okay, 2 minutes later the bag comes through again. 
Everybody has been held up.
    That doesn't happen here because we can do it in all the 
dimensions at once. And so we need new technology.
    And I would hope that your group would focus on those sorts 
of things, too, because you can have the best screeners in the 
world, whether they are private or public, and if they are 
working with junk, they can't find the threat, they are not 
going to find the threat, plain and simple.
    Thank you, Mr. Chairman.
    Mr. Poole. Appreciate the corrections, and thank you very 
much.
    Mr. Lungren. The gentleman's time is expired.
    Mr. Langevin, you are recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    I would like to thank all of our witnesses for being here 
today.
    I especially want to thank and welcome Mark Brewer, 
president and CEO of the Rhode Island Airport Corporation, who 
is here to represent TF Green Airport, which is actually 
located in my district.
    I think Mark is a great addition to this hearing, and I 
just wanted to let my colleagues know what a tremendous job he 
and his team are doing in Rhode Island.
    I have to say, I travel in and out of many airports, as we 
all do, and I have to say that the TSA workforce at TF Green is 
one of the best that I have ever encountered. And I know that 
they are understaffed and operating at less-than-perfect 
circumstances but they still manage to perform their job 
seriously and thoroughly while at the same time providing 
excellent customer service.
    I know Mark takes a lot of credit for that, and just wanted 
to thank you for all of your efforts and for lending your 
expertise to us here today.
    I will start, if I could, with a question for you, and ask 
you, how do you think TF Green will be impacted by the recently 
announced reallocation of screeners, which will leave you with 
32 fewer fulltime equivalent positions? I wanted to know, do 
you think that wait times will increase, or security is going 
to be compromised because of these reductions?
    And I know that the FSDs are already involved in a delicate 
balancing act to make sure all of your bases are covered. Or 
can you continue to make things work even with less personnel?
    Mr. Brewer. I thank the congressman, and thank you for the 
kind words. It is a pleasure to be here before the committee 
today.
    We are very, very concerned about the reduction in 
staffing. It is a 13 percent reduction in staffing for the TSA 
in Providence alone--32 employees. We are currently allocated 
259, destined to go down to 227 if, in fact, this reallocation 
takes place.
    We are setting new records. In fact, this second quarter of 
2005 was an all-time record of passenger loads for the TF Green 
airport ever. We are doubling the national average, about a 4 
percent growth. This June was 8 percent over last June, up 5 
percent year-to-date. We are exceeding our all-time record, 
which was the year 2001. We were on a very fast track for a 
record year then until September 11th took place. We are 
beating those numbers this year.
    To be able to say that someone cranks some numbers and now 
say we need 32 less or 13 percent fewer screeners for more 
traffic is inconceivable for me.
    What happens is that we do not have the authority--the FSD 
does not have the authority to even keep us up to his current 
level because that is centralized, it is controlled down in 
Washington.
    Someone, I am sure well-intentioned, looking at the bigger 
picture, but they put a halt to the hiring process. People that 
would like to work for TSA have to trek up 60 miles to an 
assessment center up in Chelsea, Massachusetts for the 
privilege to work for TSA. It is inconvenient; it is 
inconsistent.
    Now, the one thing I would like to say, though, is that we 
have a pilot program at this assessment center where the 
federal security director does, in fact, have some involvement 
in the hiring process. Previously, he had none. It was done by 
a private contractor. The first time he saw employees was the 
day they walked in the door. We now have some opportunity to do 
that. And, in fact, the congressman talked about law 
enforcement capabilities: He does look for that.
    In fact, we had an incident on July 13th where a gentleman 
went through the security checkpoint, alarmed, was challenged 
by the TSA, became belligerent. A law enforcement officer was 
called over, and a fight ensured. The passenger struck the 
officer, went down and was wrestling with him in an attempt to 
get the officer's gun.
    Two of the TSA employees, one a former law enforcement 
officer and one a former corrections officer, got into the fray 
and actually assisted our police officer until backups were 
there. Momentarily, only a matter of seconds, but clearly that 
kind of expertise and thinking under pressure could have saved 
lives. And as far as I am concerned, they are both heroes.
    Mr. Langevin. On the issue, though, of security, can you 
elaborate on that? Will security be compromised as a result of 
these redactions?
    Mr. Brewer. Absolutely, Congressman.
    And the problem is when there are longer lines at the 
security checkpoint because with staffing levels reduced--we 
currently have seven lanes at our checkpoints--they will only 
be able--I did talk with the federal security director 
yesterday. They will only be able to staff six.
    Currently, we have one of the shortest lines in the nation 
except during peak holiday periods and then we do have some 
concerns. What is going to happen is every day is going to be a 
peak holiday period with lines of 40 minutes or more. And we 
can have up to 1,000 people in line which just creates a 
tremendous terrorist threat; it is an opportunity for someone 
to do evil to a lot of people all at the same time.
    And it is because we cannot get the people through the 
checkpoints fast enough. If anything, as we are growing, we 
need more people, not less.
    Mr. Langevin. I know that my time has expired, Mr. 
Chairman. If I could just have an additional couple of seconds 
just to ask one more question.
    Mr. Lungren. Sure.
    Mr. Langevin. Thank you.
    With respect to flexibility, for FSDs, can you go into a 
little more detail about what kind of improvements could be 
made to make your job easier?
    Mr. Brewer. Absolutely.
    I think that the biggest improvement that we could make in 
Providence and I think at most other airports is enhanced 
technology. We can only improve customer throughput and improve 
security by enhancing the technology.
    If there is a mission by Congress or by TSA to reduce 
staffing, it has to be replaced with technology. The only way 
that is currently viable to do that is the integrated EDS 
system. That is why Congress needs to start appropriating more 
money, I believe to start getting integrated EDS systems across 
the country sooner.
    Mr. Langevin. And I know that we are about 89th out of the 
list of--
    Mr. Brewer. Correct.
    Mr. Langevin. --waiting for our letter of intent.
    Mr. Brewer. That is correct.
    Mr. Langevin. And we need to move more quickly than that.
    Mr. Brewer. One of the things that TSA has asked us to do 
is airports to ``lean forward.'' Those airports that lean 
forward for security, they will put a better eye on the ability 
to reimburse them through an LOI when the money becomes 
available. And we are doing that.
    Mr. Lungren. The gentleman's time has expired.
    Mr. Langevin. Thank you.
    Mr. Lungren. The gentleman from Washington, Mr. Dicks, you 
are recognized for 5 minutes.
    Mr. Dicks. For those of you who this applies to, how do you 
reconcile TSA's failure to issue new letters of intent to help 
airports get the equipment they need to improve screener 
performance with that approach?
    I mean, it isn't happening.
    Mr. Brewer. My belief, Congressman, is that the reason that 
there aren't letters of intent out there is because they don't 
have the money to give out.
    Each year, they get between $250 million and $300 million a 
year, which, with nine airports that already have the LOIs--the 
LOIs are over 4 years or 5 years. If you take nine airports and 
take one-fifth or one-quarter of what the TSA has obligated to 
pay, that comes up to be the $250 million or $300 million 
that--
    Mr. Dicks. So we are not getting enough money.
    Now, is it not true that, if we did upfront the money, that 
this would, in fact, save us money in terms of the number of 
screeners that would be necessary?
    Mr. Brewer. I believe there have been several studies that 
show that to be true.
    Mr. Dicks. What do you all think? I mean, you are the 
operator--
    Mr. Brewer. I absolutely believe it is true. And, in fact, 
the allocation of people from--as I mentioned in my testimony, 
Congressman, our FSD is obligated to do what he calls the 
dance. He takes people from in the terminal building, lobby-
installed EDS equipment, takes them off of that to put people 
at the screening checkpoint because the lines are getting too 
long.
    Now, what happens is we have less EDS equipment that is 
available so the lines get longer there. Then, when those get 
unacceptable, he switches them back. It is a dance that he has 
to do. During holiday times and during peak periods, he has to 
bring in people on mandatory overtime.
    Mr. Dicks. Well, now, we have a cap here. Is it 45,000?
    Mr. Brewer. Correct.
    Mr. Dicks. Now, I think the cap is unwise. We did go up to 
a very--I think a much higher level. And then the 
Appropriations Committee put in this cap.
    Would it be better to let the TSA manage this issue? I 
mean, they have got to have the extra resources, obviously, to 
hire the people and to have the people.
    But shouldn't it be based on what is needed on an airport-
by-airport basis rather than having a national cap?
    Mr. Brewer. Personally, I believe that to be true, sir.
    The TSA commissioned something called the Regal model. My 
understanding is that the Regal model calls for much more than 
45,000 screeners. And what is happening is, as airports are 
growing, the industry is rebounding, traffic is increasing--
other airports--legitimately so.
    And I was looking through the report that TSA issued the 
other day, and I give kudos to some of the airport directors 
who apparently had no service before and now have service, and 
they are getting onesies and twosies and fives and tens and 
twenty screeners.
    TSA is obligated to find them from somewhere. So they are 
caught between a rock and a hard place. They know that there is 
increase in traffic, and yet we lose 13 percent of our 
screeners when our traffic is double the national average in 
terms of growth.
    It is inappropriate, as far as I am concerned, and I think 
the TSA is probably doing the best that they can with the 
limitations that are put upon them, but I don't believe that 
45,000 is the right number until such time as technology comes 
into place to replace those screeners and then you can reduce 
the number.
    Mr. Dicks. So what you are suggesting is that Congress has 
to reconsider this number.
    And I think with the rebounding industry, with traffic up, 
we certainly see this. I am out to the Northwest at Seattle/
Tacoma. We certainly have seen that. We have a tremendous 
increase during the summer coming up this next month, August, 
and we really appreciate the fact that TSA has given us relief 
over the last 2 or 3 years.
    But they have had to take it from somewhere else. It is a 
zero-sum game, as you mentioned. So other airports or other 
regions, you will have to lose people in order for us to get 
the people we need.
    Now, we appreciate getting them. But I just think that this 
is something that Congress ought to reconsider and that this 
committee should take a position on and let the appropriators 
know that we think there is a problem with this 45,000 cap.
    Anybody else want to comment on that?
    Mr. DeMell. I have a comment.
    There is another issue that comes into play here, a TSA 
hiring process that doesn't allow for maintaining that 45,000-
person workforce.
    A TSA screener, once he hits the floor, that screener was 
recruited, was assessed, was trained and put in place by the 
private sector. And once he gets there, his H.R. function is 
managed by the private sector.
    Mr. Dicks. I didn't hear what you said. His what?
    Mr. DeMell. The human resource function is managed by the 
private sector.
    But the problem with the assessment process is most 
businesses can hire on an as-needed basis. And in this 
industry, because of the seasonality, it is critical. Under the 
present system, that doesn't happen.
    An FSD has literally got to raise his hand, get in line, 
hope that there are funds allocated for an assessment process 
to hit his airport and therefore can only hire when the system 
allows him to do so, not when he needs to.
    So the real question, along with the 45,000-person cap, is 
how many of those 45,000 screeners are actually on board and 
working?
    Mr. Dicks. And that number is substantially below 45,000.
    Mr. DeMell. I would think so. I don't know what the number 
is but I would think it is not at the 45,000 number. And, in 
fact, I have heard suggestions that at any given time one-third 
of the workforce is not available for work.
    On the private sector in Kansas City, we are running a test 
program. We have our own assessment right at the airport. We 
don't have to go to a regional assessment center; we can do it 
right at our airport. And that allows us, gives us a better 
opportunity to meeting staffing standards where they need to 
be.
    And, in fact, that flexibility could very well allow you to 
operate with fewer screeners as long as those screeners are 
actually there and working.
    Mr. Dicks. Does San Francisco have the same situation?
    Mr. Martin. Covenant is able to do the testing and 
screening on site as well. But I believe that, nationally, the 
ultimate solution is to go to an in-line screening system at 
all of the major airports, with a very short payback period.
    It just doesn't make good business sense. It doesn't make 
sense from a security perspective.
    Clearly, these machines do a much better job than the lobby 
machines at catching plastic explosives.
    The TSA could enter into LOIs with all airports and 
reimburse those airports as the TSA realizes labor savings. So, 
in effect, there is no money out the door in advance from TSA.
    Mr. Dicks. I mean, Congress might even consider giving a 
borrowing authority. In other words, we do this for other 
entities within the government, saying, ``You can go out and 
borrow the money.''
    Mr. Martin. We all certainly have the ability to go out and 
borrow the money in advance of the funds coming?
    Mr. Dicks. Just getting the letter of intent is your 
problem?
    Mr. DeMell. Well, the real problem is the inability to 
think beyond the current fiscal year. I think that is the heart 
of the problem. The business is being managed one fiscal year 
at a time. There is no big picture, long-range thought process. 
Managing limited funds on a year-by-year basis is not going to 
get--
    Mr. Dicks. And as was suggested, once you commit to eight 
or nine airports, it takes up all the money for 5 years so you 
can't bring in new airports--when, if we did that, we would 
save some money.
    Thank you, Mr. Chairman.
    Mr. Lungren. The chair recognizes Ms. Jackson-Lee for 5 
minutes.
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman, to the 
ranking member and to the ranking member of the full committee.
    Let me thank the witnesses as well for their presentation. 
And let me offer my apologies if I pointedly ask maybe just one 
person a question. And the reason is, of course, that many of 
us have lived with this issue for a longtime--not necessarily 
on the Transportation Committee, but before coming here, I 
served as a member of the Aviation Authority in Houston, Texas, 
and have lived with aviation issues for a very, very long 
time--also as a member of the National League of Cities Board 
of Directors.
    But I think the key issue here for me, first of all, is to 
thank all of you for the hard task that you have, but, frankly, 
to put on the record that security is federal issue. And 
whether it is the Minutemen at the border, the frustration of 
Americans or the frustration with immigration or the 
frustration of going through checkpoints, the bottom line: The 
buck stops with us.
    And, frankly, I do not feel safe. And I don't think America 
should feel safe, frankly. And it is particularly noticeable 
through the efforts that TSA has tried to make.
    And let me say this: Having been involved in the early 
stages of Transportation Security Administration's frustration 
of beginning or how to recoup, actually collaborating with them 
some 4 years ago the whole job fair in my district, to open up 
some opportunities for people in the community, but as well to 
stop the bleeding where they were not getting the numbers of 
individuals that they needed to pull through and to select to 
be able to place at their particular airports.
    I, frankly, think that we have what we call security 
fatigue.
    And we have been very fortunate. We look at what happened 
in London, what has happened in Madrid. We are very, very 
fortunate.
    And the statistics show that the private screeners are as 
poor as the federal screeners. But the federal responsibility 
is greater than a private entity.
    They can have poor participation and poor work habits and a 
poor track record at the private company, but the federal 
government and the American people look to the federal 
government and entrust in them the responsibility.
    So frankly, I believe, and those of you who lead airports, 
that we need to do a better job. Frankly, I believe the cap 
should be removed. Technology needs to be rendered. We need to 
look at TSA in a way that it is a front-line security emphasis.
    For example--this is, sort of, an extended issue?anyone 
that has any conversations without letting anyone know that you 
are having conversations with a U.S. marshal. They are multi-
talented and probably former law enforcement agents. What do we 
do with them?
    Instead of expanding them and using them in a very 
constructive way even if it means using them in other, sort of, 
security means, we relegate them to the airlines and we 
constrict them in terms of how they can double-duty. I see the 
same kind of opportunities for Transportation Security 
Administration in these inspections.
    Now let me cite for you, Mr. Bennett--I am going to come 
your direction. I am going to leave these fine gentlemen who 
have their individual airports and problems alone, but you 
represent the Council of Airports Executives and we have 
interacted with them, many of us have.
    So let me just say this. Mr. DeCota, I am not sure if you 
have LaGuardia Airport, but let me cite him for example.
    You have got individuals who mean well but are lacking, not 
only in security, but in the social graces. You have got long 
lines because you have people lacking in the social graces and 
the ability to look at items and even know what they are 
looking at.
    So you have one person who says to a traveling member of 
the public when they go through and rings, ``Go over and be 
checked,'' when we know that you get a second time to go 
through. Unless there is something that I don't know about.
    When the passenger attempts to ask and make an inquiry, a 
simple inquiry, the person suggests that they are getting out 
of order and, ``You better get over here and go somewhere.'' 
That is an altercation. I don't know what happened to the 
gentleman who was wrestled down; that is a security risk. But 
that is an altercation.
    So TSA has an enormous responsibility, but it is the 
federal government's responsibility, and we need to darn sure 
take it. Because I don't believe that the private screeners 
have any liability that would answer the question to the 
American people on 9/11 why these folks got on through Boston 
and the other places that they went on.
    Private screeners were responsible for that. And I am not 
convinced that they can be any better. But I am convinced that 
we have an obligation for the federal government to be better.
    Private screeners have discrimination charges. I am reading 
an article here, ``Employees Allege Discrimination by Airline 
Contractors.'' There are a lot of problems.
    Mr. Bennett, would you just simply answer this question? 
You have given us solutions.
    Why don't you think that this is the responsibility of the 
federal government and have these solutions of options for 
private contractors? Why don't you work with us, the Council of 
Executives, to ensure that we have the 45,000 above, that we 
have training and technology? That is the better route rather 
than relying on this option of private screeners and other such 
options that you recommend in your testimony.
    Mr. Bennett. Thank you for the question. I thought I was 
going to sit here all morning without having the opportunity--
    Ms. Jackson-Lee. I know your good work. You have got a 
great organization.
    Mr. Bennett. Thank you.
    And just for the record, as I also am representing these 
organizations here today, I am also the president and CEO of 
the Metropolitan Washington Airports Authority, which operates 
Washington, Dulles International and Ronald Reagan Washington 
National Airport.
    Ms. Jackson-Lee. I am glad you said that. Thank you.
    Mr. Bennett. I am one of these folks also and wearing a 
couple of hats here today.
    The federal government has a very, very important role in 
terms of security of the aviation system. It is most 
appropriate that the federal government be deeply involved in 
this process, that they set the standard and, in many cases, 
that they actually perform the function related to the safety 
of the aviation system. That goes without question.
    But also a very critical and important partner in the 
security of the aviation system are the public agencies that 
own and operate the nation's airports.
    And these public agencies, such as ours, such as all of my 
fellow panelists here, are governmental entities that have 
safety and security as their number one priority. And, in fact, 
they provide first response to all acts of not only terrorism, 
but day-to-day civil and criminal activities not only at their 
airports but throughout the communities in which those airports 
are located.
    So we are very much safety and security entities as well as 
airport operators. And we think that we have a very important 
role to play in the security of the aviation system. It is a 
role that, to be honest with you, has been overlooked as this 
model has evolved over the past 4 years.
    And many of the members of these organizations would like 
very much to have the opportunity to become more involved in 
the security of the aviation system because they believe that 
there are the opportunities to actually enhance and improve the 
security and make it better than what it is today.
    Ms. Jackson-Lee. Mr. Chairman, I would like to ask 
unanimous consent to put an article in the record, the Houston 
Chronicle, July 13th, 2005, ``Employees Allege Discrimination 
by Airline Contractor.''
    And I would also like to put on the record a question that 
the gentleman would respond in writing is to the lack of crew 
lines that either the airport designates or maybe TSA 
designates and the frustration of crews who have been, if you 
will, targeted and seemingly discriminated against by TSA 
personnel.
    I know that will be but I need to know whether airports 
have a particular designation for crew members going through.
    Mr. Lungren. If I could just reserve the right to review 
it, I would put it in the record.
    Ms. Jackson-Lee. Thank you.
    Mr. Lungren. I thank the lady for her questions.
    And I thank the panel for their participation. It is a 
large panel. I am sorry that we didn't get all the questions 
asked that we might want to. But you have been very, very 
helpful to assist us in our overall inquiry.
    The Chair would now like to call the second panel: Mr. 
Thomas Blank, the Acting Deputy Administrator of the 
Transportation Security Administration of the Department of 
Homeland Security.
    Mr. Blank, thank you for returning to appear before our 
subcommittee. We appreciate your appearance.
    As you know, your written testimony will be placed in the 
record in its entirety. We would ask if you could summarize 
that, perhaps, in 5 minutes, and then we could go into a round 
of questions.

    STATEMENT OF THOMAS BLANK, ACTING DEPUTY ADMINISTRATOR, 
TRANSPORTATION SECURITY ADMINISTRATION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Blank. I thank you very much, Mr. Chairman, 
Representative Sanchez and other distinguished members. I am 
pleased to have the opportunity to appear before you today on 
behalf of the Transportation Security Administration to report 
on the performance and management of our nation's aviation 
screeners.
    Passenger and baggage screening is an essential component 
of TSA's layered approach to security. Although the public is 
currently focused on rail and bus security, the aviation system 
is still a significant target.
    Screening passengers and their property in a way that 
ensures security and operational efficiency requires TSA to 
maximize all available resources, including personnel, 
technology and partnerships with the private sector.
    Training is essential to improving passenger and baggage 
screener performance. Several current initiatives include an 
extensive review of our screener training program, improvements 
to our online learning center, which provides Web-based 
training and tracks the completion of required training, and 
the development of high-speed operational connectivity to 
ensure that Web-based training reaches all of our screeners 
nationwide.
    Our experts are looking closely at the new-hire screener 
training program to structure the process to ensure that it is 
a stable, repeatable process that is flexible enough to meet 
the operational needs of all major airports, as well as smaller 
airports.
    This approach will allow screeners to be operational in 
less time than the current new-hire training cycle.
    Recurrent screener training was also recently examined and, 
as a result, those training courses and guidelines will be 
updated to meet current operational requirements.
    In addition to completing all training requirements, all 
screeners must meet annual recertification standards. The 
process includes passing a standard operating procedures job 
knowledge test, an X-ray image interpretation test and a 
practical skills demonstration, as well as to meet or exceed 
these expectations on an annual performance assessment.
    During 2004-2005 screener recertification, the national 
pass rate for screeners was 98.7 percent.
    In addition to recertification, TSA uses the following 
indicators to measure screener performance: percentage of 
screeners scoring above the national average on threat image 
projection, the percentage of screeners scoring 85 percent or 
better on their annual performance recertification examination 
on their first attempt, and the results of the annual 
performance review.
    TIP tests identify a screener's ability to see false images 
of weapons or other dangerous prohibited items on their X-ray 
equipment, the tests provide immediate feedback, and enhance 
the screener's vigilance by randomly and periodically exposing 
screeners to new emerging threat.
    The TIP test results have shown a steady increase in 
screener performance on threat detection.
    TSA uses several tools to measure the effectiveness of 
screening and screening machines including TIP results, covert 
test results, screener training exercises and assessments test 
results and screening machine performance data. Based on the 
results of these tests, TSA has made numerous changes to 
screening policies, training and equipment.
    In short, TSA has made great strides to provide the best 
training, equipment and technology to the nation's aviation 
screeners. TSA will continue to maximize all available 
resources to accomplish our mission of ensuring the security of 
the nation's aviation system.
    And if I could, in the time remaining, I would like to 
address the one issue that has come up here this morning, and 
it has been reported in the press and has been discussed by the 
Department of Homeland Security's former inspector general. And 
that goes to screener performance today versus screener 
performance on 9/10/01 as evidenced in covert tests.
    And let me assure you that there is no comparison 
whatsoever between what was going on in terms of covert testing 
on 9/10/01 and the covert testing that is done today. And to 
allege that the screeners do not perform any better today than 
they did on 9/10/01 is a canard.
    I brought with me an actual 9/10/01 FAA screener test 
object. This is the briefcase that would go through the 
screening machine on 9/10/01. And inside, just this briefcase, 
nothing else, nothing else, is this: This is a 9/10/01 test 
object in a briefcase with nothing else in it. And that is 
right off Disney's back lot. That is Wile E. Coyote right 
there. Nobody is going to miss that.
    Yet those screeners on 9/10/01 did. And I will assure you 
that there is nothing--and outside the classified setting, I am 
not going to show you today's test object, but they do not look 
like this particular FAA-approved test object that was in use 
in those times.
    With that, I will suspend. I would be pleased to take the 
subcommittee's questions.
    Thank you, Mr. Chairman.
    [The statement of Mr. Blank follows:]

                   Prepared Statement of Thomas Blank

    Good morning Chairman Lungren, Congresswoman Sanchez, and Members 
of the Subcommittee. I am pleased to have this opportunity to appear 
before you today on behalf of the Transportation Security 
Administration (TSA) to report on the performance and management of our 
Nation's aviation screeners. Passenger and baggage screening is an 
essential component of TSA's layered approach to aviation security. The 
tools, training, and technology that the TSA provides to our screening 
workforce are the keys to our continued success in deterring potential 
terrorist threats and maintaining the security of our civil aviation 
system. Since the tragic attacks occurred earlier this month in London, 
the public is obviously focused on the security of our rail and bus 
systems. However, the Nation's aviation system is still a significant 
target and we must continue to be vigilant. Screening passengers and 
their property in a manner that ensures security and operational 
efficiency requires TSA to maximize all available resources, including 
personnel, technology, and partnerships with the private sector. We are 
constantly seeking new ways to meet the challenge of staying well ahead 
of those who attempt to foil our security measures by using all of our 
resources to the fullest extent.

    Screener Training
    TSA has initiated efforts to enhance screener training and we 
believe implementation of these efforts is essential to improving 
passenger and baggage screener training and performance. Such 
initiatives include reviews of our screener training programs, the 
development of the High Speed Operational Connectivity (HI-SOC) 
program, improving our Online Learning Center (OLC), and the 
development of internal controls that clearly define responsibilities 
for monitoring and documenting the completion of required training.
    In order to become a certified screener, our screeners must 
complete a minimum of forty hours of classroom training, sixty hours of 
on-the-job training, and successfully complete all written and 
practical exams. TSA also requires recurrent screener training for 
certified screeners in order to maintain and refresh their skills, to 
learn changes in standard operating procedures, and to complete any 
necessary remedial training. A standard of three hours of duty time per 
week per screener is used by Federal Security Directors (FSD) to allow 
screeners to accomplish recurrent training. In addition to training 
requirements, all screeners must meet annual recertification standards, 
passing a Standard Operating Procedures Job Knowledge Test, an X-ray 
Image Interpretation Test, and a Practical Skills Demonstration, as 
well as achieve `met or exceeded' expectations on their performance 
assessment. The screener recertification program for 2004-2005 began on 
September 20, 2004, and recently concluded on June 30, 2005. During 
this period, approximately 39,000 Federal and contract screeners were 
recertified and the national pass rate was 98.7%.
    The Office of Workforce Performance and Training (WPT) is currently 
reviewing the new hire screener training program in order to structure 
the program so it is a stable, repeatable process, and reduces costs 
while maintaining the high quality of the training. The new hire 
training program meets the basic screener training needs of major 
airports, but has the flexibility to cater to the operational 
requirements of Category III and Category IV airports. This new 
approach will allow for a screener to be operational in less time than 
the current new hire training cycle. The phased approach model is based 
on the premise that the new screener should be trained in skills that 
are critical for the screener to achieve an independent operational 
role. However, the training should be structured to build on previous 
phases and allow the screener enough time to gain knowledge and 
practice in the lab and on the job to master the basic screening 
skills.
    TSA also conducted a one-week Recurrent Training Workshop to 
evaluate the current status of the Recurrent Screener training program. 
As a result of this workshop, TSA's web-based training courses will be 
updated to include new topics, such as breach recognition and 
prevention, breach response, and situational awareness. Several 
existing courses will also be updated or modified to meet our current 
training needs. Revisions to training requirements for screeners 
returning to duty after prolonged absences (thirty days or more) were 
also recommended to provide screeners with ample opportunities to 
refresh screening skills after long periods away from duty. Another 
positive result from the workshop is the development of an annual 
training plan template that clearly delineates recurrent training 
guidelines into refresher training and skills currency training.
    TSA is also partnering with one of our private sector screening 
pilot ``PP5'' airports to adapt their On Screen Alarm Resolution 
Protocol Recurrent Training Materials into a training package that can 
be deployed nationwide to all screeners. This protocol allows screeners 
to evaluate items causing an alarm and potentially clear those items 
without subjecting the bag to a secondary screening process. This 
method has proven to be an effective, sound, and safe process. As of 
July 15, 2005, TSA has trained 8,689 screeners using this protocol with 
a passing rate of 97.3%. We foresee meeting TSA's goal to introduce 
this method to all airports with explosives detection systems (EDS) 
early in FY 2006.
    From the standpoint of training delivery, one of our most 
significant accomplishments is the TSA OLC. This system is available to 
screeners though the TSA intranet or a secure site on the World Wide 
Web. This system makes available over 350 general training and 
development courses in addition to TSA-specific training. Upgrades to 
the OLC were implemented in early April 2005 resulting in improved 
reporting tools which allow TSA to create tailored reports that 
training coordinators and Headquarters program managers can run on 
demand. New report products can be developed and implemented quickly 
when new requirements are identified. These report products will 
reflect a broad range of TSA training programs--Screener Training 
Exercises and Assessments (STEA) local testing, three hour recurrent 
training, mandatory employee training status and screener basic/on-the-
job training status. This summer, we are also planning to expand the 
Performance Management Information System (PMIS) to include select OLC 
training summary data. This data will be available to managers and will 
include the ability to correlate training performance data with other 
TSA source data for cause and effect and trending analyses.
    All training accomplishments must be documented in the OLC. A 
management directive mandates use of the OLC for documenting training 
records. This directive was revised in July 2005 to strengthen and 
clarify training recordkeeping requirements. TSA management routinely 
monitors national compliance with mandatory training requirements and 
recurrent training guidelines. Local FSDs are responsible for ensuring 
compliance on an individual basis. In March 2005, TSA Executive 
Leadership sent out a memorandum to advise all Assistant Administrators 
and FSDs that managers and supervisors will be held accountable for 
subordinates' completion of all mandatory training requirements. This 
accountability will be inserted into the performance plans of all TSA 
supervisors for FY 2006.
    In order to ensure that all screeners have access to training 
available in the OLC and to provide TSA management with documentation 
of screener training, TSA has developed a plan to facilitate 
connectivity to all TSA airport training facilities. The HI-SOC program 
is a detailed plan and corresponding schedule for ensuring that 
training centers in airports receive high speed connectivity. The HI-
SOC program includes a detailed plan for Wide Area Network (WAN) 
connectivity to TSA Airports including local area networking (LAN) to 
link operations centers, training centers and break rooms, baggage 
screening areas and checkpoints/passenger screening areas, and FSDs. 
The WAN will also facilitate XP migration, email migration, remote 
access to these systems via a Virtual Private Network (VPN) and 
facilitate intelligent phone deployment.

    Screener Performance
    Utilizing three primary performance measures, TSA has developed 
several baselines for screener performance. These performance measures 
are common to screeners at all airports with Federal screeners as well 
as at the five airports currently in the Screening Partnership Program 
(SPP).\1\ Those same criteria would be applied as well to any airports 
that are currently federalized, but which may choose to participate in 
the privatized screening program in the future under the SPP. The 
privatized airports may also design performance measures other than 
those in common with the federalized airports in order to measure 
specific areas of contractor performance or other areas deemed of 
interest. Airports that enroll in the SPP will be required by their 
contractual arrangements to ensure that their screener performance 
meets or exceeds that in place for the federalized airports through 
measurement of performance.
---------------------------------------------------------------------------
    \1\ The five airports currently using private screeners are San 
Francisco International Airport, Kansas City International Airport, 
Greater Rochester International Airport, Jackson Hole Airport, and 
Tupelo Regional Airport.
---------------------------------------------------------------------------
    TSA measures screener performance by utilizing the following 
indicators:
        <bullet> Percentage of screeners scoring above the national 
        average on Threat Image Projection (TIP);
        <bullet> Percentage of screeners scoring 85% or better on their 
        annual performance recertification examinations on their first 
        attempt, and;
        <bullet> Results of screeners' annual performance reviews.
    Threat Image Projection (TIP) is a program whereby false images of 
weapons and other deadly and dangerous prohibited items are displayed 
on the X-ray screens of screening equipment. The screener is tested on 
the percentages that are correctly identified. TIP is currently active 
on over 1,800 TIP Ready X-ray (TRX) machines at all passenger screening 
locations nationwide. TIP serves as an invaluable, multifunctional 
system that extends well beyond an evaluation tool. It provides 
immediate feedback and functions as a reinforcement system that 
increases screener accuracy. TIP enhances screener attentiveness and 
vigilance through random and periodic presentations and exposure to new 
and emerging threats that they may not normally see during the routine 
course of passenger screening. TIP results, which have been collected 
and analyzed on a monthly basis since January 2004, have shown a steady 
increase in screener performance on threat detection.
    Another important measure of screener effectiveness is evaluating 
the percent of screeners scoring 85% or better on their first attempt 
of their annual re-certification examination. TSA considers the first 
attempt score a more accurate representation of the ``current operating 
proficiency'' of the screener before any targeted remediation is 
provided to the screener. In conjunction with screeners' annual 
performance reviews, these performance measures provide an assessment 
of screener performance at both federalized and the privatized 
airports.

    Screening Performance
    In addition to the screener performance measures, TSA has developed 
screening performance measures at the national level. To measure 
screening performance, TSA developed the Baggage Screening Program 
Index and the Passenger Screening Program Index. Each is a composite 
index that tracks overall screening program performance in the areas of 
security screening and customer satisfaction. TSA's screening programs 
and can be tracked periodically to assess progress.
    The tools used to measure effectiveness or probability of detection 
for screeners and machines include TIP results, covert test results, 
Screener Training Exercises and Assessments (STEA) test results and 
screening machine performance data. The TSA Office of Internal Affairs 
and Program Review (OIAPR) conducts covert tests to assess the 
effectiveness of aviation, maritime, and land security by using special 
techniques to replicate current terrorist threats in order to improve 
the safety and security of transportation modes. OIAPR airport covert 
testing protocols include penetrating passenger security screening 
checkpoints without detection with prohibited handguns (inoperable) and 
inert explosives, penetrating access control points in sterile and non-
sterile areas, and hiding inert explosive devices in checked baggage. 
OIAPR covert tests provide instantaneous feedback to the screeners, 
their supervisors, and TSA management to improve existing airport 
security.
    OIAPR produces classified monthly reports for senior TSA management 
that are designed to identify vulnerabilities in transportation 
systems, including equipment, policy, and personnel. Information 
reported by OIAPR allows TSA officials to develop system-wide 
strategies to improve airport security. TSA has made changes to 
policies, training, and equipment based on recommendations specified in 
monthly OIAPR reports. For example, TSA initiated ``Step Forward'' 
procedures for wanding individuals wearing long garments at passenger 
screening checkpoints. As of June 2005, OAIPR has tested 535 airports 
(93 airports have been tested multiple times). OIAPR commenced covert 
testing in September 2002 and, to date, has conducted 3,464 checkpoint 
tests, 757 checked baggage tests, and 13,056 access tests. OIAPR will 
complete a three-year covert testing cycle at all airports nationwide 
at the end of FY 05.
    Screener Training Exercises and Assessments are utilized at the 
local level by the FSDs having individuals unknown to the screeners 
attempt to pass prohibited items through the checkpoints and in 
baggage. TSA uses screening machine performance data to determine the 
probabilities of detection. The probability of detection by both 
screeners and machines for passenger and baggage screening is 
classified and I would be happy to present this data in a secure forum.
    Another important area of performance measurement is customer 
satisfaction. Customer satisfaction performance measure information is 
obtained through The Customer Satisfaction Index for Aviation (CSI-A). 
The annually computed index includes the results of a customer 
intercept survey, the results from a national survey completed by the 
Bureau of Transportation Statistics (BTS) at the Department of 
Transportation, and the trend in complaints and compliments that TSA 
receives through its contact center and at the airports. Additionally, 
TSA has developed packages for airport-initiated customer surveys. 
These allow individual airports to measure customer satisfaction by 
selecting questions from an approved list; those that they feel would 
provide important customer feedback. For Fiscal Years 2004/2005, the 
overall CSI-A is 78% on a scale of 100%.
    TSA continually strives to develop and provide the best technology, 
training and operational procedures to our screeners to allow them to 
accomplish their screening mission in an effective and efficient 
manner. We have designed a program that focuses specifically on human 
factors and the steps we can take to continue to improve screener 
performance. In July 2003, TSA completed a comprehensive Passenger 
Screening Performance Improvement Study which focused on human factors 
and utilized principles of Human Performance Technology. Through this 
process, TSA evaluated the nature of the screening work tasks, the 
screening workplace environment, and screener performance. This study 
identified potential systemic root causes that may contribute to poor 
performance and recommended solutions. As a result of the 2003 study, 
TSA initiated numerous other human factors engineering studies to 
address screener performance deficiencies. This wide range of human 
factors studies is helping us identify solutions that may be 
implemented through training, procedures, or technologies designed in 
certain manners.
    Another factor that often affects screener performance is injury. 
TSA is making every effort to identify, mitigate, or eliminate factors 
that may be contributing to screeners' on-the-job injury rate. We have 
also implemented a Nurse Intervention Case Management Pilot Program at 
thirty-nine airports in November 2004. During this pilot, a Certified 
Nurse Case Manager manages injury claims telephonically or in person 
with interviews and visits to employees, supervisors, and physicians' 
offices, ensuring that injured screeners receive the best medical care. 
The focus is on the first 45 days after injury to ensure that 
appropriate diagnosis and care are expedited, which ultimately 
facilitates the screener's return to work. Prior to the pilot program 
start-up, the average lost production day count was 45 days per injury. 
Since the pilot began, the average has dropped to 12 days, resulting in 
a cost savings of about $261,692. During the first eight months of this 
pilot, the total cost avoidance is estimated to be $5.5M. TSA plans to 
expand this program nationally soon.
    In addition to this pilot program, TSA is working to address 
screener injury rates in many other ways. For example, we established a 
new cross-functional screener injury task force to identify possible 
solutions for reducing screener injury rates. At the airport level, TSA 
created Safety Action Teams (SAT), comprised of management and 
employees, to identify and facilitate the resolution of safety issues 
and problems locally. Training also plays an important role in injury 
prevention so we developed 12 training courses aimed at injury 
prevention. Technology also plays a key role in injury reduction. Since 
the installation of in-line baggage handling systems at certain 
airports, the injury and illness rates at those airports have declined. 
These initiatives are just a few of the many ways TSA is working to 
improve screener performance by reducing injury rates.
    To meet our demanding staffing needs, TSA has identified elements 
within the staffing standard which comprise the Screener Allocation 
Model. This model includes the equipment fielded at all airports and 
associated screener allocations. There are a number of factors that can 
impact the size of the screener workforce, including wait times, 
detection technology, checkpoint configuration, airline load factors, 
and schedules. TSA has set out to develop a more robust and dynamic 
tool to better define aviation security staffing requirements at the 
Nation's airports. The Screening Allocation Model provides TSA with an 
objective measure for screener staffing levels at each airport. In the 
future, In the future, TSA will be able to use this model to 
objectively reapportion its authorized screener workforce of 45K FTE. A 
report to Congress containing the elements of the Screener Allocation 
Model is currently under Departmental review for submission to 
Congress.

    Checkpoint and Baggage Screening Technology
    As TSA recently testified before this subcommittee on July 19, 
2005, the TSA technology program is designed to provide optimal tools 
to our screeners. In support of screening checkpoint operations at 
airports throughout the country, TSA uses Enhanced Walk Through Metal 
Detectors (EWTMD), TIP-ready X-ray machines (TRX) and Explosive Trace 
Detection (ETD) units. To ensure that we continue to comply with the 
requirement to screen one hundred percent of checked baggage at all of 
the Nation's commercial airports, TSA uses ETD and EDS equipment. In-
line EDS are currently deployed as a cost effective screening process 
at high volume airports.
    TSA is also developing new technologies in support of passenger and 
baggage screening. We recently completed pilot projects for explosives 
detection trace portals and we are running an ongoing pilot project for 
explosives detection trace document scanners. Other significant 
technologies currently under evaluation include an automated EDS for 
carry-on baggage and a whole body imaging technology (x-ray 
backscatter) to improve the detection of explosives and prohibited 
items on people who walk through checkpoints. Another priority is the 
development of a technology solution to more effectively screen cast 
and prosthetic devices for weapons and prohibited items. TSA is also 
testing a newly certified EDS unit--the Reveal CT-80--that should 
provide TSA with an alternative to in-line systems for some airports.
    As recommended in the General Accounting Office (GAO) December 2004 
report titled ``Aviation Security: Systematic Planning Needed to 
Optimize the Deployment of Checked Baggage Screening Systems,'' TSA is 
already in the process of developing a strategic plan to determine 
which airports would benefit from in-line screening solutions as well 
as those that would benefit from replacing ETDs with EDS equipment. 
Additionally, TSA continually reviews and, as needed, refines the 
protocols and training of all screening procedures to include primary 
ETD screening for checked baggage.
    TSA believes that increasing automated detection increases security 
capabilities, potentially minimizing personnel costs and staffing 
requirements, while increasing throughput capacity. Our efforts will 
focus on increasing our technological capabilities to keep pace with 
potential terrorists, whom we must assume are constantly examining how 
they can penetrate security at our Nation's airports.

    Private sector partnerships
    Another important resource we rely upon to accomplish our screening 
mission are public-private partnerships. TSA is currently operating 
several programs that leverage resources offered by the private sector, 
including the SPP and the private sector screening pilot known as 
PP5.\2\ The SPP is a leading example of how TSA is partnering with the 
private sector to accomplish our screening mission and meet this 
important Congressional mandate. As required by the Aviation and 
Transportation Security Act (ATSA), TSA established the SPP to permit 
airports to apply to use private, rather than Federal, passenger and 
baggage screeners beginning on November 19, 2004. As ATSA requires, 
these private screeners must meet all requirements and qualifications 
applicable to Federal screeners concerning hiring and training, pay and 
benefits for private screeners must not be lower than Federal 
screeners, private screeners must be overseen by Federal Government 
supervisors, and screening services must be equal to or greater than 
the level provided by Federal screeners. TSA regards security as non-
negotiable and will remain faithful to its core mission by ensuring 
that participants in SPP comply not only with the specific terms of 
ATSA but also other applicable statutory and other Federally-mandated 
requirements that affect aviation security.
---------------------------------------------------------------------------
    \2\ This program was also established by ATSA (P.L. 107-71) and 
comprises the following five airports: San Francisco International 
Airport, Kansas City International Airport, Greater Rochester 
International Airport, Jackson Hole Airport, and Tupelo Regional 
Airport.
---------------------------------------------------------------------------
    TSA established the SPP Office to provide financial oversight, 
ongoing operational support, communications, and transition planning 
for airports that apply to participate in the program. To date, the 
agency has received seven applications for the program, including two 
applications from the Elko Regional Airport in Elko, Nevada and Sioux 
Falls Regional Airport in Sioux Falls, South Dakota. In addition, the 
five PP5 Pilot airports have submitted their applications to move into 
the SPP.
    In establishing the SPP, TSA has sought to create a true 
partnership that leverages the strengths of the private and public 
sectors in order to fully capture the best of both worlds and work 
together toward our common objective--to ensure the security of the 
Nation's aviation security in a cost-effective and customer-oriented 
manner.
    TSA has made great strides to provide the best training, equipment, 
and technology to all of our Nation's aviation screeners. In order to 
continue this progress and meet the challenge of staying ahead of those 
who pose a threat to our aviation system, TSA will continue to maximize 
all available resources--personnel, technology and partnerships with 
the private sector--in order to accomplish our mission of ensuring the 
security of the Nation's aviation system.
    Chairman Lungren, Congresswoman Sanchez, and other distinguished 
Members of the Subcommittee, this concludes my prepared remarks. I 
would be pleased to answer any questions at this time.

    Mr. Lungren. Thank you very much for your testimony. We 
appreciate that. We appreciate the visual addition we have here 
today.
    Let me ask you a couple of questions.
    Before 9/11, it was widely reported that annual attrition 
rates at the private screening companies were extremely high. 
How do current attrition rates for TSA screeners compare? And 
how do current rates for private screeners at those five pilot 
projects compare?
    Mr. Blank. Prior to 9/11, screener attrition rates were 
over 100 percent annually with the private-sector companies 
that managed the function under airlines' regulation--or our 
regulation, but airline costs--at that time.
    TSA seems to have stabilized at an annual attrition rate of 
23 percent, 24 percent. That is what we have seen over the past 
couple of years.
    The private-sector companies--I am not precisely certain, 
but I do think they do have a bit lower attrition rates. And 
what I would suggest there is that, obviously, we are dealing 
with many more thousands of people than the private-sector 
companies are, and you have to take the attrition rate apart 
and say, ``What is voluntary attrition and what is involuntary 
attrition?''
    And when you do that, you will see TSA's attrition rate 
drop to about 18 percent, which means that we are firing some 
people for on-the-job actions: perhaps they commit a crime, 
they don't perform properly or something along those lines.
    Mr. Lungren. Are there any areas in the country where the 
attrition rate is significantly better or worse than the 
national average? And if so, do we know why?
    Mr. Blank. Well, there are differences amongst regions. And 
I would attribute that to two things.
    One, local job markets make the screener profession more 
attractive in some areas than in others.
    And, candidly, airport TSA management can have something to 
do with that. So if we see an airport with a particularly high 
attrition rate, that would signal to us that we need to go to 
that airport and find out why that is occurring and what 
management improvements we want to make.
    For instance, Houston Intercontinental has a very low 
attrition rate. It is down around 13 percent. Washington 
Dulles, who testified here, has a bit higher attrition rate. It 
is a problem for us at Dulles because there is not good public 
transportation to get out there, and because the cost of living 
and the competitiveness in this particular region to get and 
maintain screeners is a challenge.
    So a number of factors are built into it, but there are 
differences.
    Mr. Lungren. With respect to the flexibility that is 
allowed in the workforce, we have all types of airports. We 
have got the busiest airports; some of the people talked about 
that. We have got some that are not very busy, where it seems 
to me it would be very hard to figure out how a TSA screener, 
if that is all they were allowed to do, could possibly fill up 
8 hours.
    Do you have situations where someone is at an airport that 
only has a couple of flights a day, that your employees work 
split shifts? Or what do they do when they are not confronted 
with anybody?
    Mr. Blank. Well, that is a scheduling challenge. And what 
we would do is, where we see airports with a bank of flights in 
the morning, a bank of flights in the afternoon, we would try 
to emphasize part time, so that those individuals could come 
and go.
    We would also use job-sharing agreements, where we might 
have two individuals that, maybe over an 80-hour week, two or 
three people are splitting those 80 hours up in some fashion or 
other. Somebody might work 40-20-20 for other two people, and 
that sort of thing.
    So wherever we can get that kind of flexibility, we are 
definitely taking advantage of it. But it can't be perfect. It 
is hard and it is expensive to recruit part-time screeners. It 
is expensive to train them.
    Mr. Lungren. I was just wondering--you know, again, I go 
back to the Southwest Airlines model. Before Southwest Airlines 
every airline felt that you had rigid job assignments: that is 
all you could do, you couldn't do anything else. Southwest 
showed that you could have people do more than one thing.
    And, again, I am not an expert in this, but it just strikes 
me at some of these airports where you have got very little to 
do in terms of screening, just because of the nature of the 
service, whether flexibility where someone screens part of the 
time and does something else another part of the time.
    Mr. Blank. Under the Screening Partnership Program, at some 
smaller airports that we refer to as category 3 and 4, we would 
like to explore an arrangement where we shared an employee with 
the airport authority.
    And let's say we had a situation with a bank of flights in 
the morning, as I said, we need a screener for 2 hours, we get 
a bank of flights in the afternoon for 2 hours. We would like 
to explore an arrangement where that individual is then for 4 
hours in the course of the day on the payroll of the airport 
authority performing some function that is necessary in the 
context of those operations. We hope to be able to do that.
    Mr. Lungren. I thank the gentleman.
    The chair recognizes Mr. Thompson for questions.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    And I appreciate the opportunity given me by the ranking 
member of the subcommittee to go and do a number of things that 
I am already late in doing. I am sure I will have to make it 
up, though, nonetheless.
    Mr. Blank, I hope you were here for the testimony of the 
first panel.
    Mr. Blank. I heard it all, sir. I watched it in the next 
room.
    Mr. Thompson. Mr. DeMell said that TSA had provided a 
directive that said that private security people could not 
organize. Are you aware of such a directive?
    Mr. Blank. That is not correct, sir. What we have said and 
our policy has been is that screeners may not, whether they are 
federal or private, engage in collective bargaining. We will 
not engage in collective bargaining. But if the private-sector 
screeners chose to organize themselves into a union, we have no 
policy and made no statement against that.
    Mr. Thompson. I am glad to hear that. And I am glad we are 
on the record.
    Several times members of the committee have been made aware 
of situations using the transportation worker identification 
card, and the fact that people are showing all kinds of 
identification when they are going on airplanes. And some of 
those identifications are expired passports, expired driver's 
license, any number of things, television station I.D. cards.
    Where does your operation fall in this?
    Mr. Blank. We would like to take logical and reasonable 
steps to move to a place where you are absolutely required to 
have some sort of government-issued I.D. with picture displayed 
in order to be able to get your boarding pass and enter the 
sterile area and get on an airplane.
    We think the REAL I.D. Act is going to bring some 
standardization to driver's licenses and other credential, is 
going to help get us in that direction.
    We think our work on law enforcement identification 
verification, because there are so many different kinds of law 
enforcement credentials, we think that is going to help.
    But as of today you do not have to have identification in 
order to be able to fly. If you were to come to the airport, 
have forgotten your wallet and not have identification on you, 
you would be permitted to fly, but you would be subjected to 
secondary screening. And we are not comfortable with that. We 
want to do better than that.
    Mr. Thompson. That is news to me. I just assumed that if 
you left your I.D. you couldn't get on a plane. That is good. 
So at what point do you think TSA will have a hard and fast 
rule on identification?
    Mr. Blank. We are going to be influenced in that by other 
federal government activities. The REAL I.D. Act is going to 
have a benefit to TSA, but it is not TSA's to implement. HSPD-
12, which is going to standardize federal credentials, will 
have a positive impact on that.
    So we will continue to evaluate against threat and other 
risk information whether or not we should do that, at what rate 
we should do it or whether we should let what is happening as a 
result of other federal initiatives fill that gap for TSA.
    Mr. Thompson. Well, I think we need to clear it up. It is 
confusing. If I have an electronic ticket, I have to show that 
I am that person. And what you are telling me now is that that 
is really not a policy.
    Mr. Blank. Well, the issue is the validity of the 
credential that you have. In other words, what we need to be 
able to make ourselves sure of--we may do this through some 
biometrics or other ways that we standardize credentials, but 
if you have a fraudulent credential, it is still possible--
there is a chance we are going to catch you, but it is possible 
that that fraudulent credential could be used to get you aboard 
an aircraft.
    And so eliminating fraudulent credentials is the objective.
    Mr. Thompson. If you will bear with me, Mr. Chairman.
    So there is no regulation for the I.D. or what is it now?
    Mr. Blank. Well, the regulation is that you are required to 
show government-issued I.D. at the time you get your boarding 
pass. Then we require the airlines to check that I.D. at the 
top of the line approaching the checkpoint. That is the 
requirement.
    Now, if an individual presents themselves and they do not 
have any identification, the procedures would be to say, 
``Well, you will be subjected to secondary screening.'' And you 
would be patted down, hand wanded, and your carry-on bag would 
be examined.
    Mr. Thompson. And I could get on the plane without I.D.?
    Mr. Blank. You could, sir.
    Mr. Thompson. So, conceivably, bad people can get on planes 
without identification?
    Mr. Blank. Conceivably, they could. Then the next question 
is, could they bring that plane down? And what we would say is 
that the layers make that a reasonable risk, at least for now. 
Armed pilots, hardened doors, trained cockpit crew, federal air 
marshals, inspections and the other security measures make that 
a reasonable risk for now.
    Mr. Thompson. So do we have 100 percent luggage screening 
in this country now?
    Mr. Blank. Yes, sir.
    Mr. Thompson. What about cargo screening on that passenger 
plane?
    Mr.Blank. There is 100 percent screening of all cargo going 
into the belly of a passenger plane. Some of it is physically 
screened and some of it is screened through the protocols of 
the Known Shipper program.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Lungren. I thank the gentleman.
    Mr. Pearce?
    Mr. Pearce. Thank you.
    Mr. Blank, does TSA measure wait times?
    Mr. Blank. Yes, sir.
    Mr. Pearce. And how do those compare with TSA-operated 
airports and private-operated airports?
    Mr. Blank. Let's take a look at yesterday. San Francisco's 
average peak wait time was 8 minutes. Providence was 11 
minutes.
    Mr. Pearce. Nationwide, do you compile the data?
    Mr. Blank. The answer is yes, but we compile it daily for 
the top 40 busiest airports.
    Mr. Pearce. And so nationwide, if you compiled the private 
screeners and the TSA screeners, what is the nationwide 
average? Are they comparable?
    Mr. Blank. Yes. Yes, sir, they are.
    Mr. Pearce. They are equal or comparable?
    Mr. Blank. They are comparable, but they are not exact. SFO 
was 8 minutes, Dulles was 12 minutes.
    Mr. Pearce. What about worker's comp? What is your worker's 
comp modifier for a TSA employee?
    Mr. Blank. I am not sure I understand the term 
``modifier,'' but it is 36 out of 100.
    Mr. Pearce. Modifier is an assignment by the insurance 
company. The higher your injury rates then the higher your 
premium is going to be.
    And if you all don't have to go through the regular 
worker's comp system, how do your worker's comp injury levels 
per thousand compare to the industry?
    Mr. Blank. They are high. Transportation workers, whether 
they are luggage handlers or TSA workers are high.
    Mr. Pearce. How high? And how much higher?
    Mr. Blank. They are approximately in the low 30s per100. 
And that is high.
    Mr. Pearce. And what would they be among screeners in just 
private industry?
    Mr. Blank. They are considerably lower. I believe that they 
are in the order of eight to 10. But it is difficult to make a 
direct comparison, because the definition of injury for the 
federal government is broader than it is for the private 
sector. And the private-sector costs, which is what you measure 
against, mainly reflect insurance premiums.
    Mr. Pearce. Having been in private industry, I don't see 
how you can say that you have a broader definition. I had to 
report every single thing, so we would have lost injuries due 
to a fingernail that was torn into the quick. I don't think you 
can get much broader than that. Frankly, I am not sure. I would 
appreciate seeing objective data on that.
    There was funding diverted in the first year from equipment 
purchases to hiring costs. Is that still a function that is 
going on? Are we moving money from equipment to salaries?
    Mr. Blank. There may have been relatively small amounts 
from equipment to salaries. We have moved money to salaries.
    Mr. Pearce. It was above $100 million I think.
    Mr. Blank. Well, it was primarily out of I.T. costs or 
high-speed operational connectivity and out of training, as 
well as some equipment.
    But we have spent, literally, billions of dollars on 
equipment. The EDS equipment program is just about the largest 
program in all of the Department of Homeland Security.
    Mr. Pearce. Are we seeing an accompanying decrease in 
salaries and the number of FTEs? That is what the private 
screeners tell us; that if they get the right equipment they 
can lower the personnel costs. Are you seeing that related 
decrease there?
    Mr. Blank. We know that we have efficiencies where we have 
in-line systems, but we are seeing increases at the checkpoint. 
So if we are able to reduce on the baggage screener side of the 
house, they are needed on the passenger screener. So overall we 
are not seeing a net personnel need reduced.
    Mr. Pearce. The initial projection for salaries was in the 
$100 million range in the first year. It went to $700 million. 
Does that anomaly still exist? Are we still running seven times 
what we thought on salaries?
    Mr. Blank. I think that is relatively the correct number.
    Mr. Pearce. So we have $700 million in the first year and 
part of that $700 million went--I think there was $1,500 for 
four or five extension cords in one Washington Post report. Are 
we still allowing those kinds of expenses to occur?
    Mr. Blank. The Washington Post was in error, sir. They 
reported that Eclipse got $21 million. If you look behind the 
curtain, TSA rejected all but $6 million of those costs.
    So if Eclipse spent $1,400 for extension cords, TSA and the 
federal government did not pay for it.
    Mr. Pearce. You are saying then that The Washington Post 
maybe even in excess of partial error of the whole concept that 
we had an absolute nightmare in processing people? Was The 
Washington Post article incorrect in that regard?
    Mr. Blank. I would say this: I know what TSA paid to get 
that job done. What NCS Pearson may have paid its 
subcontractors, I don't have a copy of their contract and it is 
none of my business.
    I know what we paid, and there are a couple of things that 
are at work, one of which is the way the money was 
appropriated. We can't go anti-deficient, so if we put $100 
million to something that we well know is going to be more than 
that, we only put $100 million to it so that we don't make 
commitments that we can't pay for.
    So that is part of the fits and starts. But there is no 
question that the requirements of the contract changed in order 
to get the job done, and that is why it went up significantly.
    Mr. Pearce. Thank you, Mr. Chairman.
    My time has expired.
    Mr. Lungren. The Chair recognizes Ms. Sanchez for 
questioning.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, Mr. Blank, for being before us today.
    I just want to follow up on something that the ranking 
member, Mr. Thompson, asked you. He asked you if 100 percent of 
cargo in the belly was checked and you said yes.
    Do you not mean that there are some companies who ship 
quite a bit and so they are in a special program and so they 
certify that, in fact, they have done all the right things and 
therefore that cargo gets on but it is not necessarily checked?
    Mr. Blank. Well, ATSA requires us to screen 100 percent of 
all cargo going in the belly of the aircraft. Our policy is 
that the Known Shipper program counts for screening and for 
compliance with ATSA.
    And what we have done over the years is gradually increase 
the requirements for physical inspection. I can't say the 
precise amount because that is classified. But we have 
regularly increased the amount that is opened or put to an EDS 
machine or X-rayed.
    But the screening for that cargo is that it comes from a 
known shipper. The people that are handling that have been 
subject to background checks and a number of other things. I 
can't go into any classified study but that is what we use to 
screen at this time.
    Ms. Sanchez. And when you say ``known shipper,'' that is 
like a DHL or something, right?
    Mr. Blank. They have to comply with various provisions that 
we lay down in order to be a known shipper. DHL may or may not 
be a known shipper but we would be more interested in DHL's 
customers. DHL may bring us cargo for the passenger aircraft 
belly, but they can't bring us a package that does not come 
from someone who is a known shipper.
    Ms. Sanchez. So if I never shipped and all of a sudden I 
want to ship something and I give it to DHL, you are telling me 
that you are either going to put that piece through a machine 
or you are going to open it up before it gets on the belly of 
the plane.
    Mr. Blank. I think it would be--actually, DHL would take 
that from you, determine that you are not a known shipper, and 
they would get your package there on other than a passenger 
aircraft, either over the ground or on an all-cargo aircraft, 
or they would subcontract to a charter cargo operator.
    Ms. Sanchez. So that package would have no possibility of 
going in the belly of a plane--
    Mr. Blank. If it does not come from a known shipper.
    Ms. Sanchez. --that is carrying passengers?
    Mr. Blank. That is correct.
    Ms. Sanchez. All right.
    I have another question for you. We learned on Tuesday that 
you are undertaking a massive reduction of the 45,000 screeners 
that you have. And there is a chart that was provided to us 
that sets forth all the different changes.
    And it affects all sorts of airports: what I call large 
airports like Atlanta and smaller airports like my John Wayne 
Airport. Atlanta loses 21 screeners. Portland loses 168 
screeners. My airport in Orange County, John Wayne Airport, 
loses 28 screeners.
    And my question to you is, this is coming in the middle of 
what I thought was a record-breaking summer travel season. Can 
you tell me how you determined, what kind of factors you looked 
at, what criteria was used to make these proposed reductions? 
When would this reallocation occur? How often do you expect 
this kind of a shift to happen like this? How are federal 
security directors and our airport authorities notified? And 
how are they supposed to adjust to those allocations of the 
workforce?
    And why does an airport like Atlanta, where every time I go 
through it it is completely and totally backed up as far as I 
see--maybe I just travel on peak time or maybe I just travel at 
a time when thunderstorms are hitting every time or what have 
you, but every time I go through that airport, it seems there 
are chronic lines and checkpoint problems.
    Why are they losing screeners? How did you determine this?
    Mr. Blank. Well, if I can just give about 30 seconds of 
background.
    How did we determine how many screeners an airport needs 
anyway? And we, going back to February of 2002, when we began 
to federalize checkpoints, we looked at the private-sector 
model that was in place at that time; that guided us. We got 
very smart consultants and industrial engineers, and we modeled 
checkpoints so that we could come to a number of what it would 
take to do the checkpoints across the country.
    You will recall, that really didn't work very well because 
that is where we got 60,000 screeners, looking at what was out 
there and making some theoretical judgments.
    So we were cut back, and we are currently capped at 45,000 
FTE, and that is not a body count, that is a money count.
    The next thing we did was try to develop a model on our 
own, and the model that we used considered enplanements, 
numbers of enplanements at a particular airport. And that 
factored in with a variety of other things, but that was a key 
driver in order to determine the allocation level.
    Well, turns out that is not really a fair guide, either, 
because we really need to get an understanding of passenger 
screening because a connecting passenger isn't going to be 
rescreened. And so enplanements doesn't do for you what we need 
to do.
    So we have worked over the past year to develop a screener 
allocation model that seeks to look at what happens in 5-minute 
increments at peak times, and what we need to do in terms of 
processing. We were guided by a goal of processing through in 
10 minutes.
    We looked at the number of checkpoints, the number of lanes 
in all of these airports. We looked at expected expansions, 
changes in flight schedules. We looked at arrival patterns so 
that we can understand that. And we included non-passenger 
demand, like airline employees and crew that we have to process 
through.
    We used a sophisticated time and attendance software 
product that would help us understand staffing and plug in a 
lot of the industrial engineering that we have used.
    So we came out with a reallocated number and then we 
understood that--we have always said, ``If you have seen one 
airport, you have seen one airport.'' We took that number out 
to the federal security directors and others at a particular 
airport and said, ``This is what our inputs and a relatively 
sophisticated model tell us you ought to be able to do the job 
with here. If you have the right mix of full-time and part-time 
screeners and if you are getting the proper efficiencies, if 
you are managing that workforce properly, this is what you 
ought to be able to do it with.''
    And there was some back and forth. Some adjustments were 
made to these numbers.
    And at the end of the day, there are some airports that we 
have determined that we believe are overstaffed and some that 
are understaffed, and it is our intent to make the necessary 
adjustments.
    Now, with regard to Atlanta, they physically don't have 
enough lanes to handle the peaks at Atlanta. They need to do 
some expanded coverage of lanes to get people through a 
Atlanta, so that is a contributing factor.
    They also have challenges in Atlanta to recruit part-time 
workers. We would like to see Atlanta have about 20 percent 
part-time workers in its workforce. They have only 2 currently.
    So that makes for some serious challenges that we have got 
to fix, from a management perspective, at a number of these 
airports.
    Ms. Sanchez. Thank you, Mr. Blank.
    I will just add that we use IAD a lot here, and I have 
noticed that you are going to increase it by something like 79 
people. That is good. Because 2 weeks ago, we waited an hour 
and a half in that security line.
    Mr. Blank. I am sorry that happened, Congresswoman.
    Ms. Sanchez. Thank you.
    Mr. Lungren. The gentleman from the state of Washington?
    Mr. Dicks. Thank you. And we appreciate your good efforts 
and good work.
    How many active, ready-to-work screeners do we have today?
    Mr. Blank. You mean in the screener workforce?
    Mr. Dicks. Right, that are under the 45,000 cap.
    Mr. Blank. Well, we have 47,600 screeners out there. And 
that equates to, right now today, approximately 43,500 FTEs.
    Mr. Dicks. So the 45,000 is FTE.
    Mr. Blank. That is correct. Think of that as a money 
number.
    Mr. Dicks. Okay. How many are working today?
    Mr. Blank. Over 47,000 are out there working.
    Mr. Dicks. Some of them are part-time.
    Mr. Blank. Some of them are part-time. And I don't know 
that there are 47,600 people out there on the line today.
    Mr. Dicks. Okay, how many FTEs would there be, 43,500?
    Mr. Blank. 43,500 is what the?
    Mr. Dicks. So we are under the FTEs by 1,500?
    Mr. Blank. Well, we are, but here is what we have learned 
how to do. The requirement in the statute is that we are at 
45,000 FTE at the end of the fiscal year, September 30.
    So what we have done to deal with the holiday period and 
spring break is we have been up over that. We have been up to 
nearly 47,000 FTE. And now what we have to do is we have to 
manage down under that during this particular period of time so 
that we don't go anti-deficient at the end of the year.
    Mr. Dicks. Is that what this new chart that everybody is 
talking about today is an attempt to do, to get down, by 
October 1 of 2005?
    Mr. Blank. We are where we need to be in order to not go 
anti-deficient on September 30, 2005. We are on-target.
    Mr. Dicks. When you do this chart, okay, with all these 
different airports, what is the net of it? How much?
    Mr. Lungren. Would the gentleman yield for just a moment?
    Are you suggesting you are coming down at a time--isn't 
this a busy travel time?
    Mr. Blank. We are operating the system, as we did last 
summer, with about 43,500 FTE. We are now ready to go back up, 
to head back up to--
    Mr. Lungren. No, but what I am trying to figure out is if 
you are trying to go back down by the end of the fiscal year. 
You use the same fiscal year we do, right?
    Mr. Blank. No, excuse me. Let me be clear.
    Mr. Lungren. The image you have just given us is you are 
going down at a time when air traffic is going up so that you 
can hit a number that we in Congress have said you have to 
have, which means you are listening to us but you are not 
listening to the public. And maybe that is our fault.
    Why don't you to explain it?
    Mr. Blank. Okay. Let me do it this way.
    Mr. Lungren. Now that we have got you completely confused 
and ourselves confused.
    Mr. Blank. Historically, TSA did not hire up to the 45,000 
FTE cap because federal security directors and others did not 
have the confidence that we understood our costs and the on 
boarding time and what our attrition rate was going to be, so 
that we would not go anti-deficient.
    In other words, if you were a federal security director and 
you were authorized 200 screeners at your airport, what you 
would do is you would only hire up to like 190, because you 
would not want to go over the 200.
    What we have gotten better at is to say, ``You can go up to 
225 at your airport to deal with Christmas time and the holiday 
season and spring break and even summer, but in the spring and 
the fall, you have got to learn how to get down under 200, to 
185, so that you come out right at the end,'' okay?
    So we have done that through the spring. And now, because 
we are dealing with the peak summer, now we are coming back up. 
And that 43,500 I mentioned, that is going to be 45,000 before 
long.
    Mr. Dicks. Do you have enough training capability and the 
ability to find the people so that you can bring them in like 
that? Or are some of them full-time that go to part-time that 
go to full-time or go from full-time to part-time?
    Mr. Blank. Sometimes we offer a full-time and they might 
want to go to part-time. More often, we will take part-timers 
and tell them, ``We are making you full-time. Is that okay?''
    There was a lot of discussion here about centralized 
hiring, and that was the only way we could get the job done in 
the early days. In the past 10 months we have done a great deal 
to push hiring authorities out to local FSDs and empower them 
to make job offers and do assessments and that sort of thing.
    And it is working pretty well that we are being able to 
identify and get vacancies filled; not as good as we need to 
be, but we are getting better.
    Mr. Dicks. Now, funding levels: What was your budget 
request this year? How many FTEs did you request in your 
budget?
    Mr. Blank. The President's budget requested 45,000 FTEs.
    Mr. Dicks. So you had enough money in there for 45,000. 
Where are the House and the Senate Appropriations Committees on 
this issue?
    Mr. Blank. Well, for fiscal year 2006, the House would cut 
the 45,000 by 2,000 and the Senate would cut it by 6,000.
    Mr. Dicks. What was the thinking there? Or is there any? 
And I am an appropriator, so I can?
    [Laughter.]
    I am not on that subcommittee, however.
    Mr. Blank. I believe the thinking is that if you put more 
technology out there more quickly, then your personnel costs 
will go down.
    Mr. Dicks. Well, that is the perfect lead-in then to the 
other question.
    Now, you have got to answer--you have got all these 
gentlemen behind you and 429 airports that would benefit from 
in-line EDS. And yet we only have--wasn't there a contract for, 
how many, nine?
    Mr. Blank. Yes, sir.
    Mr. Dicks. And how much is your budget request for that 
item? Couple of hundred million?
    Mr. Blank. For in-line EDS?
    Mr. Dicks. Yes.
    Mr. Blank. $250 million?
    Mr. Dicks. And that is obligated, right? How many years 
before somebody new is going to be added to this system?
    Mr. Blank. Well, I am not sure there is going to be anyone 
new added. We did not request any additional LOIs for fiscal 
year 2006. And I can't testify?
    Mr. Dicks. Is there anything in the president's budget over 
the next 5 years for additional in-line? They do a 5-year 
projection here.
    Mr. Blank. Here is what I would say. For now, we are not 
requesting any additional money for in-line.
    But here is what I would say. And I would say this to and 
have said this to some of the gentlemen sitting behind me. 
Federal participation doesn't need to prevent them from 
investing in their own in-line system. Boston did so prior to 
the time that 9/11 happened. They have another in-line now but 
at the time Boston built, they did not.
    Tampa, Lexington, Boise, Fort Lauderdale, are all investing 
in in-line systems without--they have the hope but they don't 
have the commitment of federal reimbursement.
    I will also say to these gentlemen, you have talked a lot 
about growth and there is significant growth. The airline 
traffic is growing, it is back, new terminals are being 
expanded. And what that means is these gentlemen back here, 
they are doing pretty well in the collection of passenger 
facilities charges.
    If you ask the airports, they are going to tell you, they 
are sitting on some cash that they could invest in something.
    Mr. Dicks. What is the incentive for them, though? If the 
federal government is paying for the screeners and if by making 
the investment we have reduced the number of screeners 
required, that is saving us money. How does it save them any 
money? I mean, what is the incentive for them to do that?
    Mr. Blank. Well, they have to compete for business at their 
airport. Every region in the country these days offers a 
choice. And so they want new facilities, best facilities, 
customer-convenient facilities.
    Mr. Dicks. Okay. But let's get down to it.
    If you walk away from this, there are going to be a lot of 
airports that are not going to be able to afford to do this or 
won't do it. And we then are stuck with the older equipment 
which is not as effective. I mean, Mr. DeFazio--who, by the 
way, thinks you are doing a great job and told me, ``Now, be 
very easy on Mr. Blank today.'' I said, ``Well, we have got to 
ask him the hard questions.''
    Mr. Lungren. There is always a first time.
    Mr. Dicks. Yes, there is always a first time.
    But the bottom line is we need to get this equipment, this 
higher technology, out in these airports. Now, how are we going 
to do it if there isn't a federal program?
    And you are basically saying there isn't a federal program 
in the future.
    Mr. Lungren. If the gentleman could be brief, Ms. Jackson-
Lee is next up and I think we are supposed to get a vote 
shortly, so I want to make sure she has a chance to ask 
questions.
    Mr. Dicks. Well, we have 15 minutes before they vote.
    Mr. Blank. Okay. Let me come at it two ways very, very 
quickly.
    When the President's budget came out this year and there 
was no money for additional LOIs, and that became apparent, I 
went to airport trade association meetings and for the first 
time I saw equipment manufacturers stand up and say, ``You 
know, there are different ways to do in-line systems and some 
of it doesn't have to cost as much as we really thought it did 
since we see the federal government share is going down.''
    So the manufacturers are our partners. The airports are our 
partners, the airlines and the federal government.
    And who pays for what is a debate that we are very, very 
willing to have.
    Mr. Dicks. Is the FAA involved in any of this? Does the FAA 
do any of this separately from DHS or TSA?
    Mr. Blank. No. In the early days, some airport improvement 
funds were allowed to be used for security, but that is no 
longer the case.
    The other thing that I would say, in the context of the 
Department of Homeland Security, which this subcommittee and 
committee cares a great deal about, when I tell you that this 
program as it exists right now today, the EDS program, is one 
of the largest in all of the Department of Homeland Security, 
there are people that say, ``Why would you make the largest 
larger? We have other threat vectors. We have chem, bio, rad. 
Why would we make the largest larger at the expense of 
neglecting these other threat vectors over here?''
    So that is a policy debate we have to have too.
    Mr. Dicks. But there is a chance here for a major saving.
    Why not make some kind of a program, a loan program of some 
sort, a loan guarantee program of some sort available so that 
they can borrow the money and invest in the equipment and get 
us the extra increment of safety?
    By not doing anything, I don't see how the federal 
government is providing leadership in an area where I think we 
have to provide leadership.
    Mr. Blank. I agree with you. And we are doing exactly that.
    Airports are very good financiers, and we are engaged with 
a set of airports. And, in fact, there is report language in 
the House appropriations bill for 2006 that requires us to do a 
pilot program at five airports using creative financing aimed 
at turning the savings back. And we are engaged in thinking 
about how to do that.
    While it is certainly not administration policy at this 
point, leasing of equipment might be an option in order to make 
these dollars go further.
    Mr. Dicks. Thank you, Mr. Chairman, for being so lenient.
    Mr. Lungren. The gentlelady from Texas?
    Ms. Jackson-Lee. Thank you, Mr. Chairman.
    I always offer my appreciation to the chairperson of the 
subcommittee and the ranking member of the subcommittee and, of 
course, the chair and ranking of the full committee.
    Mr. Blank, let me also thank the staff of the 
Transportation Security Administration for taking up a very 
tough challenge and, by and large, for complimenting the vast 
numbers of hardworking agents that you have in the various 
airports.
    I think it is important for America to know that TSA is in 
every airport, short of those who may have opted out but if you 
are small, if you are rural--when I say small, small, that you 
are not a private system--you have the responsibility of having 
TSA agents. So that if you are somewhere in parts of South 
Dakota, North Dakota with a duly qualified airports, you are 
there as well as in the major airports in cities like Houston, 
New York, Los Angeles and others.
    And might I also offer my appreciation for the very fine 
TSA personnel in the Houston Intercontinental Airport, my 
congressional district, and Hobby Airport in Houston, Texas.
    Given those words of appreciation, let me also just restate 
again that I think that America's security is a federal issue. 
And I am not convinced of the various obstacles and hills and 
valleys that TSA is traversing through.
    I am going to give you a series of questions along those 
lines.
    First of all, if you had your druthers, what number of TSA 
agents, screeners? We are talking the number 45,000. What 
number would you suggest would be a reasonable response to the 
need that we now have?
    What would be the option to encourage other airports to do 
the EDS in-line of their accord and then seek reimbursement? 
What kind of proposal would you put forward to this committee, 
for us to assist in that kind of reimbursement dollars so, in 
fact, that we could answer the question?
    Where are we in terms of the Transportation Workers 
Identification Credential, TWIC? How far along are we in 
providing that particular identification card? And how much of 
an assistance would that give?
    We have been talking dollars here and, of course, I have an 
adverse opinion about talking dollars and security. I think 
there is no greater responsibility other than adhering to the 
Constitution here in America.
    Frankly, we are sitting in this committee talking about 
dollars. We are not securing America; we are talking about 
dollars.
    I would rather give back tax cuts that have no value to the 
American people, particularly as it goes to large entities, and 
give you the money, to be very frank.
    Because one day there is going to be an enormously tragic 
incident, the likes of 9/11. It is just the nature of what we 
live in. And all of the human talent may not be able to thwart 
it.
    But the one thing that we need to be able to say, one thing 
you want to say, Mr. Blank: ``I did everything I could.'' And 
right now, we cannot say that we have done everything that we 
could do. We are quarreling over 45,000 screeners. We are 
quarreling over EDS in-line. We are not doing everything that 
we can possibly do.
    And then the other aspect is that we are not training the 
particular agents. The shortness of the training, the hard 
hours, the lack of flexibility--which I know are your problems. 
These are good Americans, but they are not trained and they 
don't have the equipment. And we are quarreling about dollars.
    So if you would, on this question of dollars, if an 
approved opt-out program did not produce measurable savings, 
meaning all this talk about privatization and customer 
benefits'since we know the inspector general said it is four on 
your side and four on the private side--do you agree it should 
be terminated and TSA screening reinstated? And is there some 
criteria?
    I believe that we have failed in doing all that we could 
for your agency. And I hope you were in the audience when I 
said LaGuardia in particular, I want to call them out, where 
somebody didn't allow a person to come back not three or four 
times but one time, shot them over to somewhere in an abrupt, 
ugly manner.
    That is not security. And therefore we need to do a better 
job.
    I would appreciate it if you answer those questions. And 
let's be straight up with us. All of us have the burden of the 
lives of Americans on our shoulders. If we don't do the right 
thing, I don't want to wake up one morning and said, ``I am 
sorry because I didn't do the right thing and I didn't do 
everything that I could possibly do.''
    I yield to the gentleman.
    Mr. Blank. Congresswoman, thank you very much for your 
comments about TSA. Let me address the opt-out program.
    For opt-out Screening Partnership Program, we are guided by 
the statute at TSA with regard to that program, which is to say 
that we are to make it available.
    We are not to incentivize it. We are not to prefer one 
model over the other. We are to have it available to an airport 
that wishes to go down that line. And we are further instructed 
that the screeners must be paid the same and they must perform 
to the same standard.
    With regard to overall number, I would like to roll the 
clock back a little bit to 2002, when we were in the process of 
going electronic for baggage screening in all of the airports. 
And we consistently heard that we were going to bring the 
aviation system to a halt, the airports were going to be in 
chaos, air travel would simply not exist. And that didn't 
happen.
    And now we are hearing about untenable wait times because 
of the 45,000 cap and so forth.
    And we have monitored it closely. We look at it very, very 
carefully every single day. But what we don't see is a metric 
that is telling us that that number is wrong as of now as I sit 
here before the subcommittee.
    And if I look at wait times, I am going to see an average 
of about 10 minutes at the peak times of the 40 busiest 
airports yesterday. And so I am not prepared to tell you at 
this point that that number is not correct.
    When we do as an agency believe that it is not correct, we 
will tell you. Because we understand and concur with what the 
previous panel said, that very crowded airport lobbies are a 
security threat. We recognize that, and we want to keep those 
lines down and move people through.
    We get a little frustrated at TSA sometimes because no one 
seems to focus on the line at the airport check-in counter to 
get your boarding pass. And that is a little frustrating to us 
because we think those wait times can be longer than what the 
security wait time is.
    As to EDS equipment, we are open to creative ideas as to 
how to get that job done. Leasing and savings that get turned 
back to the airport over some committed period of time are 
options that, from a matter of policy, we are trying to develop 
so we can have a robust debate and come before this 
subcommittee and present those.
    As to TWIC, we are in the prototype phase and we have a 
number of important policy decisions that we need to make. 
Which is, how will we administer the TWIC program going 
forward? Will we do that through a contractor that is fielded 
by the federal government to manage and run that program, or 
will we set the standards and let the private sector produce 
TWIC cards, if cards are indeed involved, on a location-by-
location basis?
    So we have the knowledge from our piloting and our 
prototyping, and over the next several months we need to 
definitize precisely where that program is going.
    And I appreciate, in particular, your comments about the 
demands of securing America and how one might feel if it is on 
his or her watch and a bad thing happens. That is on our minds 
at the helm of TSA, I can assure you.
    Ms. Jackson-Lee. Mr. Chairman, I thank you for your 
indulgence.
    And I disagree with Mr. Blank on the 45,000, but I thank 
and respect his answer.
    And I would also, Mr. Chairman, suggest that we have--and, 
Ranking Member--a hearing dealing with the ability of airlines 
to help invest in security matters. And maybe at this point of 
prosperity, or some form of prosperity, they might be willing 
to join in with this effort. But it is still I think the 
responsibility of the federal government.
    I yield back, Mr. Chairman.
    Thank you.
    Mr. Lungren. I thank the gentlelady.
    And I thank Mr. Blank and all the witnesses that appeared 
in our first panel for your valuable testimony, and all the 
Members for their questions.
    The Members of the committee may have some additional 
questions for the witnesses, and we would ask you to respond to 
these in writing upon receipt. The hearing record will be held 
open for 10 days.
    And without objection, the committee stands adjourned.
    [Whereupon, at 12:52 p.m., the subcommittee was adjourned.]

                             FOR THE RECORD

  Additional Question for the Record from the Hon. Daniel Lungren for 
                             John W. DeMell

    Question: Could you please clarify for the Record, the amount of 
liability coverage that FirstLine Transportation Security, Incorporated 
carries?
    Response: Liability insurance in the aviation sector is very 
difficult to buy at any price. The amount of liability coverage in 
place at FirstLine Transportation Security, Inc. is $50,000,000.00.

                                 <all>

</pre></body></html>
